<html>
<title> - SAFEGUARDING AMERICAN AGRICULTURE FROM WILD, INVASIVE, AND NON-NATIVE SPECIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
 SAFEGUARDING AMERICAN AGRICULTURE FROM WILD, INVASIVE, AND NON-NATIVE
                                SPECIES

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON LIVESTOCK AND FOREIGN AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2019

                               __________

                           Serial No. 116-23
                           
                           
                           
                           
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
  
  
  


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov                       
                         
                         
                         
                            ______
                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 40-283 PDF             WASHINGTON : 2020                   
                         
                         
                         
                         
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

           Subcommittee on Livestock and Foreign Agriculture

                    JIM COSTA, California, Chairman

ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina, 
JAHANA HAYES, Connecticut            Ranking Minority Member
TJ COX, California                   GLENN THOMPSON, Pennsylvania
ANGIE CRAIG, Minnesota               SCOTT DesJARLAIS, Tennessee
JOSH HARDER, California              VICKY HARTZLER, Missouri
FILEMON VELA, Texas                  TRENT KELLY, Mississippi
STACEY E. PLASKETT, Virgin Islands   JAMES COMER, Kentucky
SALUD O. CARBAJAL, California        ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
JIMMY PANETTA, California            JIM HAGEDORN, Minnesota

                Katie Zenk, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     3
Costa, Hon. Jim, a Representative in Congress from California, 
  opening statement..............................................     1
    Prepared statement...........................................     3
    Submitted letter on behalf of James D. Ogsbury, Executive 
      Director, Western Governors' Association...................    43
Harder, Hon. Josh, a Representative in Congress from California, 
  submitted chart................................................    86
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    27
Rouzer, Hon. David, a Representative in Congress from North 
  Carolina, opening statement....................................     4

                               Witnesses

Ortega, Ricardo, General Manager, Grassland Water District, Los 
  Banos, CA......................................................     6
    Prepared statement...........................................     7
    Submitted questions..........................................    86
Thompson, J.D., D.V.M., Beth S., State Veterinarian, Executive 
  Director, Minnesota Board of Animal Health, Saint Paul, MN.....     8
    Prepared statement...........................................    10
Erickson, Bret, Senior Vice President for Business Affairs, J&D 
  Produce Inc., Edinburg, TX.....................................    13
    Prepared statement...........................................    15
Reichert, Kurt, Director of Fumigation, Western Industries--
  North, LLC; d/b/a Western Fumigation, Lester, PA...............    18
    Prepared statement...........................................    19
Gaskamp, Joshua A., Technical Consultation Manager and Wildlife 
  and Range Consultant, Noble Research Institute, LLC, Ardmore, 
  OK.............................................................    21
    Prepared statement...........................................    23
    


 SAFEGUARDING AMERICAN AGRICULTURE FROM WILD, INVASIVE, AND NON-NATIVE



                                SPECIES

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                  House of Representatives,
         Subcommittee on Livestock and Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jim 
Costa [Chairman of the Subcommittee] presiding.
    Members present: Representatives Costa, Brindisi, Hayes, 
Cox, Craig, Harder, Plaskett, Carbajal, Peterson (ex officio), 
Rouzer, DesJarlais, Hartzler, Comer, Marshall, Hagedorn, and 
Conaway (ex officio).
    Staff present: Malikha Daniels, Prescott Martin III, Katie 
Zenk, Ricki Schroeder, Patricia Straughn, Jeremy Witte, Dana 
Sandman, and Jennifer Yezak.

   OPENING STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. The Subcommittee on Livestock and Foreign 
Agriculture's hearing will now come to order.
    The topic of this morning's hearing is safeguarding 
American agriculture from wild, invasive, and non-native 
species, a challenge that has plagued American agriculture 
throughout the various regions of our country historically, and 
one that American agriculture has to contend with and we hope 
to have a balanced group of witnesses to testify here today as 
to those challenges.
    And obviously, while the Subcommittee's jurisdiction is on 
livestock and foreign agriculture, a lot of our focus as it 
relates to these issues of wild, invasive, and non-native 
species relate to the foreign agricultural part of the 
jurisdiction of this Subcommittee, because as we know, so much 
of American agriculture is exported and oftentimes we have to 
contend with issues on our ability to market our products 
abroad with regards to issues of invasive species that are non-
native species that other parts of the world argue that may not 
meet phytosanitary standards, and it is a part of our challenge 
and a part of our effort.
    I welcome the attendees here today, the Members of the 
Subcommittee, and we look to hold a good hearing with the 
witnesses that we have before us.
    I want to thank everybody for being here. Obviously, the 
impacts of invasive and non-native species impact agricultural 
supply chains. We have a group of witnesses here that deal with 
these issues regularly, and how we in fact deal with steps on 
importers and exporters that we attempt to try to keep invasive 
species from impacting the various commodities that we produce 
so that trade can continue.
    The Subcommittee oversees key parts of the U.S. Department 
of Agriculture's functions that addresses Wildlife Services at 
the Animal and Plant Health Inspection Service as well as the 
Department of Agriculture trade promotion efforts.
    Recently, I had an intervention with USDA working on a 
problem that we had with China on tomato seeds, for example.
    Our discussion is going to complement the good work of our 
colleagues on the Biotechnology, Horticulture, and Research 
Subcommittee, of which we have some Members here this morning 
who serve on that Subcommittee as well, as well as the 
Conservation and Forestry Subcommittee. And so the hope is to, 
while there is overlap, to complement our efforts with the 
other two Subcommittees.
    Specifically for my own background, I can tell you in 
California that we have a host of these issues both in invasive 
and non-native species. Examples of those is the nutria 
populations that have damaged wetlands and farmlands, but they 
have also taken hold in Maryland and they have taken hold in 
Louisiana as well.
    We also have wild birds that have played a role in 
introducing virulent Newcastle Disease in poultry flocks, and 
while in other states these animals have also been linked to 
similar damage and disease that has taken place. It is an issue 
that affects the entire country, region to region.
    In the 2018 Farm Bill that we all worked on together, we 
started a pilot project to address the issue of feral swine in 
the Southeast. I look forward to hearing more about how the 
initial implementation of this program is going. If the pilot 
project is working well, I would suggest to Members here, the 
Subcommittee and the full Committee, that this might be a model 
to address invasive species issues in the future. And so we 
need to look at that.
    Along our southern border and our ocean ports, the seasonal 
nature of the specialty crop industry means trucks and barges 
carrying fruits and vegetables from outside the U.S. are 
potential vectors for dangerous pests that have not yet been 
established in this country. And I have been at the border both 
through California all the way to Texas and I have seen the 
concern and the attempt to address that from ensuring that it 
doesn't happen.
    For all these reasons and more I think many of our 
colleagues today here are joined with the agriculture inspector 
resources at our ports and other points of entry. We can't 
expect Customs and Border Protection or the Department of 
Agriculture to evolve its capabilities to match these evolving 
threats in my view without the resources to do so, and I think 
that is one of the things we want to hear about here today is 
whether or not we are actually providing the necessary 
resources to do that.
    [The prepared statement of Mr. Costa follows:]

Prepared Statement of Hon. Jim Costa, a Representative in Congress from 
                               California
    Thank you all for joining us today as we hold this hearing to 
examine the persistent challenges posed to our agricultural supply 
chains by wild, non-native, and invasive species.
    I am happy to host these witnesses and to discuss the ways U.S. 
farmers and ranchers are controlling key invasive species domestically 
as well as the steps importers and exporters are taking to keep 
invasive species out. These are important steps so that agricultural 
trade can continue to flow.
    This Subcommittee oversees key U.S. Department of Agriculture 
functions that partner with industry to address these issues, including 
Wildlife Services at the Animal and Plant Health Inspection Service as 
well as the U.S. Department of Agriculture's trade promotion efforts. 
Our discussion will complement the good work of our colleagues on the 
Biotechnology, Horticulture, and Research Subcommittee as well as the 
Conservation and Forestry Subcommittee as we work on different aspects 
of these pressing concerns.
    In California, expanding nutria populations damage wetlands and 
farmlands, and wild birds have played a role in introducing virulent 
Newcastle Disease into poultry flocks, while in other states, these 
animals have been linked to similar damage and disease.
    The 2018 Farm Bill also started a new pilot to address the issue of 
feral swine in the Southeast, and I look forward to hearing more about 
how the initial implementation of this program is going and to consider 
if this pilot program could be a model to address other invasive 
species issues in the future.
    Along our southern border and at our ocean ports, the seasonal 
nature of our specialty crop industry means trucks and barges carrying 
fruits and vegetables from outside of the U.S. are potential vectors 
for dangerous pests that have not yet established in this country.
    For all these reasons and more, I, and many of my colleagues have 
joined a bill to increase agriculture inspector resources at our ports 
and other points of entry. We can't expect Customs and Border 
Protection or the Department of Agriculture to evolve its capabilities 
to match these evolving threats without the resources to do so.
    With that, I want to welcome our witnesses and recognize my 
esteemed Ranking Member, Mr. Rouzer of North Carolina, for any remarks 
he would like to make.

    The Chairman. With that said, I want to make sure that all 
Members understand that in consultation with the Ranking Member 
pursuant to Rule XI(e) to make sure that Members of the 
Subcommittee are aware that other Members of the full Committee 
may join with us today. Obviously we welcome that 
participation.
    I want to welcome our witnesses and recognize my esteemed 
Ranking Member, Mr. Rouzer, from North Carolina for any 
remarks.
    Mr. Rouzer. Do you want to recognize Conaway?
    The Chairman. Sure. We have former Chairman, Ranking Member 
Conaway here. Would you like to open?

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well, sure. Thank you. Thank you, Mr. 
Chairman, I appreciate that.
    I want to thank Chairman Costa and Ranking Member Rouzer 
for having me here today.
    I would like to touch on one of the more devastating 
examples of invasive species that is currently affecting Texas 
in addition to the Southeast, much of our country, is called 
feral swine. Farmers, ranchers and landowners have been dealing 
with the destruction caused by wild pigs for decades. Most 
estimate that feral swine cause over $1.5 billion of damages 
each year, with at least $800 million of that amount attributed 
directly to agriculture. But the problem is growing so much 
that it is not just affecting those in rural areas.
    In 2017, the Dallas City Council authorized a 3 year 
service contract for control and abatement of feral hogs on 
city property. Feral swine are capable of breeding at just 6 
months and have a gestation period of 115 days. They reproduce 
at such a high rate that you would have to remove more than \2/
3\ of the feral swine population every year just to keep the 
population stable.
    These hogs can be vectors for several diseases, including 
foot-and-mouth and African Swine Fever. Feral swine have also 
had an unbelievable impact on native species and ecosystems. 
According to USDA, feral swine have played a role in the 
decline of nearly 300 native plants and animals in the U.S. 
alone.
    I am proud that in the 2018 Farm Bill we established the 
Feral Swine Eradication and Control pilot program, directing 
APHIS and NRCS to coordinate the removal of feral swine, 
restore habitat, and provide assistance to producers for feral 
swine control. We funded the program with about $75 million, 
and in June USDA announced funding availability for projects in 
nine states including Texas.
    I am glad we are holding this hearing to review the impact 
of non-native species on American agriculture, and want to 
thank all the witnesses for being here today and sharing your 
perspectives with us. I look forward to your testimony.
    Mr. Chairman, I yield back. Thank you.
    The Chairman. Thank you very much, Congressman Conaway.
    I will now defer to the Ranking Member of the Subcommittee, 
Representative Rouzer from North Carolina.

  OPENING STATEMENT OF HON. DAVID ROUZER, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Mr. Rouzer. Well, thank you, Mr. Chairman. I look forward 
to today's hearing to consider how we are currently 
safeguarding American agriculture from wild, invasive, and non-
native species, and to discuss what steps we can take to 
improve these efforts.
    Invasive species pose a significant threat to the success 
of production agriculture and environmental stewardship, and it 
is important that we continue to improve the coordinated 
national strategy to both prevent the introduction of invasive 
species and to eradicate the ones that we already have.
    In the 2018 Farm Bill we made significant strides in 
safeguarding American agriculture from invasive pests. Mirrored 
after the successful Plant, Pest, and Disease Prevention 
Program, we created a National Animal Disease Preparedness and 
Response Program, providing funding for USDA to enter into 
partnerships with states, universities, and others to fund 
targeted prevention, preparedness, detection, and response 
activities.
    The farm bill also provided funding, as has been mentioned 
already, for a Feral Swine Eradication Program, which as of 
today has made funding available for projects in nine states.
    While our trading relationships continue to benefit 
American farmers and ranchers, increasing levels of imports 
come with additional pest and disease threats, and as I have 
said at nearly every hearing, in fact almost everyone probably 
on this Committee has said it at one time or another, it is so 
critically imperative that we ratify USMCA. In addition to 
increased market access and the numerous protections and 
economic benefits that will stem from ratification of this 
agreement across the agricultural industry, USMCA will foster 
further opportunities between the three countries to monitor, 
prevent, detect, and eradicate invasive species.
    I want to thank our witnesses for being here today. Each of 
you play an important role in safeguarding American 
agriculture, and we thank you for it.
    Mr. Chairman, I yield back.
    The Chairman. Thank you very much. The chair would request 
that other Members submit their opening statements for the 
record so we may begin with our witnesses and their testimony 
to ensure that there is ample time for questions.
    I would like to welcome all of our witnesses and introduce 
you collectively before we begin.
    First, Mr. Ric Ortega, who I have worked with over the 
years. General Manager and Director of Policy and Governmental 
Affairs for Grassland Water District in Los Banos. Congressman 
Cox and I share the kind of overlap of the entirety of 
Grassland Water District. It is the largest wetlands, 
contiguous wetlands, in the United States, which is a fairly 
interesting effort and it really is a key part of the Pacific 
Flyway from Canada all the way to Mexico. We are glad to have 
you here and talk about your efforts to fight feral nutria and 
we welcome you to the Agriculture Committee.
    We have a second witness here that I am going to defer to 
Representative Craig who would like to introduce the second 
witness.
    Ms. Craig. Thank you so much, Mr. Chairman. It is an honor 
to introduce Dr. Beth Thompson. Thank you so much for being 
here.
    As Executive Director of the Minnesota Board of Animal 
Health, Dr. Thompson also serves as the Minnesota State 
Veterinarian. In this role she oversees the planning and 
implementation of state-wide programs for the detection, 
control, and eradication of animal diseases.
    Her work also includes working closely with the Minnesota 
Department of Agriculture, the Minnesota Department of Natural 
Resources, the University of Minnesota undefeated Golden 
Gophers, 9 and 0, and the United States Department of 
Agriculture.
    Dr. Thompson, we are glad to have you here today, and I 
look forward to your testimony.
    The Chairman. Thank you very much, Representative Craig. 
Minnesota has a great team. Fresno State almost beat them in 
the first game of the season, but we fell a little bit short.
    Our third witness is Mr. Bret Erickson, a Senior Vice 
President for Business Affairs of J&D Produce in Edinburg, 
Texas. He tells me they are busy harvesting right now a host of 
important specialty crops, and Mr. Erickson is involved in 
those specialty crop production efforts and the Rio Grande 
Valley. Prior to his current role, he served as President/CEO 
of Texas International Produce Association.
    Bret, we thank you for being here.
    In addition to that, we have Mr. Kurt Reichert, Fumigation 
Director from the Western Fumigation in Lester, Pennsylvania.
    Mr. Reichert works with both importers and exporters at the 
Ports of Delaware and elsewhere to manage the transmission 
risks, which is part of what we want to understand better here 
with your testimony today. He also serves as the Western 
Compliance Officer.
    Mr. Reichert, we also look forward to hearing your 
testimony.
    And our final witness is Mr. Josh Gaskamp. I hope I 
pronounced that properly. Technical Consultation Manager and 
Wildlife and Range Consultant for Noble Research Institute in 
Ardmore, Oklahoma.
    Mr. Gaskamp works closely with farmers and ranchers on 
tools and methods for addressing feral swine.
    And we thank you all for joining us today and your 
willingness to share your perspectives with the Subcommittee.
    We will now proceed with hearing from our witnesses. Each 
of you will have 5 minutes. I hope you understand the, you have 
those lights in front of you. For the first 4 minutes it is 
green, and then at the 5th minute it turns yellow, and then at 
the end of 5 it turns red, and you are on your own. We know 
most of you are familiar with it.
    Mr. Ortega, why don't we begin with you today, and we thank 
you for being here and we look forward to your testimony.
    Ric Ortega, Los Banos, California.

 STATEMENT OF RICARDO ORTEGA, GENERAL MANAGER, GRASSLAND WATER 
                    DISTRICT, LOS BANOS, CA

    Mr. Ortega. Thank you. Thank you, Chairman Costa, Ranking 
Member Rouzer, Members of the Committee.
    My name is Ric Ortega, and I am the General Manager of the 
Grassland Water District in California. Located in Merced 
County, we are a Federal water contractor that conveys water to 
wetland habitat on state, Federal, and private wildlife refuges 
in the grassland ecological area.
    The wetlands in the ecological area make up the largest 
remaining block of freshwater wetlands in the West. 
Encompassing over 300\2\ miles, this habitat and surrounding 
wildlife-beneficial agriculture, such as alfalfa, cotton, corn, 
wheat, and irrigated pasture, support hundreds of wildlife 
species and millions of migratory birds each year. With less 
than ten percent of historical wetlands remaining in 
California, the ecological area is recognized by international 
treaty as one of the most important wetland ecosystems in the 
Americas.
    The ecological area is also the epicenter of California's 
nutria epidemic. Since their rediscovery in 2017, nearly 800 
nutria have been taken, and many more documented at more than 
200 sites across the San Joaquin Valley. The vast majority of 
nutria to date have been taken within my district's boundaries, 
but now they have expanded to four other counties in the San 
Joaquin Valley, and threaten to spread further.
    Nutrias reach sexual maturity at 4 months of age and can 
have 40 offspring each year. They consume \1/4\ of their body 
weight per day, but destroy ten times the plant biomass by 
foraging almost exclusively on the fleshy bases of vegetation, 
reversing hundreds of millions of dollars in restoration 
efforts and also agricultural revenue.
    The ecological area shares a water conveyance system with 
agricultural water districts through vulnerable earthen-lined 
canals. Nutria burrows are extensive, can extend hundreds of 
feet, and cause levy failure and loss of scarce water supplies. 
These water supplies are the lifeline of our precious remaining 
ecosystems and agricultural economy.
    Merced County alone is a $3.2 billion ag economy with over 
100 types of crops grown over a million acres. Water and 
wildlife agencies in California fear nutria expansion could 
devastate the Sacramento-San Joaquin Delta system.
    In Louisiana, nutria convert 2,000 acres of marshland into 
open water each year, and have compromised their water 
infrastructure. This would not only impact the ecosystem, but 
the hub of the state's flood control and water delivery system, 
which also supplies water to over 25 million people.
    We must act now to prevent catastrophic outcomes in 
California. The California Department of Fish and Wildlife has 
taken lead on eradicating nutria in California. The 
Department's emergency response has made great strides in 
slowing the growth of nutria populations, while long-term 
resources are pursued for a formal dedicated eradication 
effort.
    For a one-time state appropriation, they established a 
nutria eradication program that is now expanding to 45 staff, 
including five contracted specialists through the U.S. 
Department of Agriculture's Wildlife Services. This effort also 
seeks to evaluate and utilize all effective detection tools 
including the use of scent-detection dogs, eDNA, and 
telemetered Judas nutria.
    Eradication campaigns are inherently long-term and require 
adequate and reliable funding to ensure a successful outcome. A 
full-scale campaign in California is estimated to cost around 
$5 million per year for at least 7 years before significant 
progress is made. The Department estimates a total eradication 
campaign will take decades to complete, based on successful 
efforts in other parts of the country and the network of 
suitable habitat in California.
    The Department currently feels it has adequate operational 
funding, but only through Fall of 2022 where they will 
experience a significant budget deficit if no other funds are 
identified.
    Thank you for the opportunity to provide testimony to the 
Committee today. We look forward to working with you on 
solutions to this very real problem.
    [The prepared statement of Mr. Ortega follows:]

Prepared Statement of Ricardo Ortega, General Manager, Grassland Water 
                        District, Los Banos, CA
    Chairman Costa, Ranking Member Rouzer, Members of the Committee[:]

    My name is Ricardo Ortega, and I am the General Manager of the 
[Grassland] Water District in California. Located in Merced County, we 
are a Federal contractor that conveys water to wetland habitat on 
state, Federal and private wildlife refuges in the Grassland Ecological 
Area. The wetlands in the Ecological Area make up the largest remaining 
block of freshwater wetlands in the West. Encompassing over 300\2\ 
miles, this habitat and surrounding wildlife-beneficial agriculture 
such as alfalfa, cotton, corn, wheat and irrigated pasture support 
hundreds of wildlife species and millions of migratory birds each year. 
With less than 10% of historical wetlands remaining in California, the 
Ecological Area is recognized by international treaty as one of the 
most important wetland ecosystems in the Americas.
    The Ecological Area is also the epicenter of California's nutria 
epidemic. Since their rediscovery in 2017, 758 nutria have been taken, 
with many more documented, at 200 sites across the San Joaquin Valley. 
The vast majority of nutria taken to date have been from within my 
District's service area, but they have now expanded to four counties, 
and threaten to spread further.
    Nutria reach sexual maturity at 4 months of age and can have 40 
offspring each year. They consume \1/4\ of their body weight per day 
but destroy ten times the plant biomass by foraging exclusively on the 
fleshy bases of vegetation, reversing hundreds of millions of dollars 
in restoration efforts and potentially impacting agricultural revenue.
    The Ecological Area shares a water conveyance system with 
agricultural districts through vulnerable earthen-lined canals. Nutria 
burrows extend hundreds of feet causing levee failure and the loss of 
scarce water supplies, the lifeline of our precious remaining 
ecosystems and agricultural economy. Merced County alone is a $3.2 
billion ag economy, with over 100 types of crops grown on over 1.1 
million acres, and nutria threaten its very existence.
    Water and wildlife agencies in California fear nutria expansion 
north could devastate the Sacramento[-]San Joaquin Delta system. In 
Louisiana, nutria convert 2,000 acres of marshland into open water each 
year and have compromised the water conveyance infrastructure. This 
would not only impact the ecosystem, but the hub of the state's flood 
control and water delivery system which also supplies water to 25 
million people. We must act now to prevent catastrophic outcomes in 
California.
    In 2018, the California Department of Fish and Wildlife has taken 
the lead on eradicating nutria in California. The Department's 
emergency response has made great strides in slowing the growth of the 
nutria population while long-term resources are pursued for a formal, 
dedicated eradication effort. Through a one-time state appropriation 
and grants, they established a Nutria Eradication Program that is 
expanding to 45 staff, including five contracted specialists through 
U.S. Department of Agriculture's Wildlife Services. This effort also 
seeks to evaluate and utilize all effective detection tools, including 
the use of scent-detection dogs, eDNA, and telemetered Judas nutria.
    Eradication campaigns are inherently long-term and require adequate 
and reliable funding to ensure a successful outcome. A full-scale 
campaign in California is estimated to cost more than $5 million per 
year for at least of 7 years before significant progress is made. The 
Department estimates a total eradication campaign will take at least 20 
years to complete, based on successful efforts in other parts of the 
country and the network of suitable habitat in California. The 
Department currently feels it has adequate operational funding through 
fall 2022 but will then experience a significant budget deficit if no 
other funds are identified.
    Thank you for the opportunity to provide testimony [to the] 
Committee today. We look forward to working with you on solutions to 
this very real problem.

    The Chairman. Well, we thank you, Mr. Ortega for your 
succinct and concise testimony in under 4 minutes. But it is a 
serious problem and of course I personally have seen the 
challenges that you are dealing with there.
    Our next witness is Dr. Thompson from Minnesota. Would you 
please proceed.

      STATEMENT OF BETH S. THOMPSON, J.D., D.V.M., STATE 
  VETERINARIAN, EXECUTIVE DIRECTOR, MINNESOTA BOARD OF ANIMAL 
                     HEALTH, SAINT PAUL, MN

    Dr. Thompson. Good morning, Members. My name is Beth 
Thompson. I am the State Veterinarian in the great State of 
Minnesota, and also the Executive Director of the Minnesota 
Board of Animal Health.
    Thank you for this opportunity to speak with you today 
about the importance of safeguarding American agriculture. It 
is an honor to be here today.
    Minnesota is one of the nation's leaders in poultry 
production. We are ranked number one in turkey production, and 
also have strong broiler and egg production in our state. Many 
of our poultry farms are multi-generational and have supported 
the ag and state economy directly through jobs on farms, 
related businesses, and in our communities. I am very proud to 
be part of agriculture in Minnesota and in the Midwest.
    In every aspect of agriculture there is a component of 
risk. In livestock agriculture, a risk that is faced by all 
farmers is the introduction of disease. I provided written 
testimony for you on poultry diseases which can be introduced 
via wild waterfowl and other birds. I am going to focus my talk 
on avian influenza, as Minnesota has had recent experience with 
this disease.
    Certain species of wild waterfowl and shore birds are 
considered to be natural reservoirs for avian influenza. There 
is little or no disease sign in these birds. Back in 2014 and 
2015, the virus that was found in domestic and commercial 
poultry here in the United States, that dreaded H5N2, likely 
started in Asia and then spread to the North American wild 
birds via commingling of wild waterfowl, because the migratory 
pathways of these birds overlap in the far Northern Hemisphere.
    The North American wild birds then brought the virus down 
into the continental United States and there was a spillover 
into our commercial flocks. In other words, the Eurasian H5N8 
mixed with the North American Low-Path Avian Influenza Virus 
and we had the outbreak of 2015.
    One hundred and ten farms in Minnesota were affected and 
over nine million birds either died or were depopulated because 
of this disease. It was estimated that the economic damage to 
Minnesota alone was $650 million and at least 2,500 jobs were 
affected.
    Epidemiological studies conducted revealed that there was 
initial independent point-source introduction of the virus 
directly into these farms, while the farms that were infected 
later on during the outbreak, it was more than likely truck 
traffic, workers' clothing, and the virus being carried in by 
other methods.
    This outbreak highlights the importance of many areas, but 
briefly to three. First, surveillance, surveillance of both 
wild and commercial birds. The information from all of this 
surveillance must be shared. Wildlife researchers must share 
this information with state and Federal livestock agencies and 
vice versa. This is true in peacetime and it is also true 
during an outbreak. And just as a note, I just received from 
our USDA partners, the National Wildlife Disease Update just 
before this hearing started, so that communication is going on, 
but it must continue.
    Second, response planning: This is also critical. During 
the summer of 2015, Minnesota had at times over 500 responders 
working per day on High-Path Avian Influenza, and that number 
does not include the number of turkey farmers, other farmers, 
veterinarians, and community members that have come together to 
fight this disease. It was the work that was done in the months 
and years before the response that assisted our producers and 
regulatory responders, but again, that work must continue.
    Last, and third, biosecurity: This is a day-to-day process 
for our poultry farmers. Post High-Path Avian Influenza in 
2015, researchers looked at the different types of introduction 
of diseases into our flocks. It is very apparent that we need 
to keep the disease out of the barns. All poultry sectors have 
recognized this need for increased biosecurity and the National 
Poultry Improvement Plan has adopted minimum standards for our 
farmers to follow.
    In closing, the U.S. poultry industry in cooperation with 
state and Federal agencies has been very proactive post-2015 
with efforts to fight foreign animal diseases. And a nod to our 
comrades in California right now that are working very hard on 
virulent Newcastle Disease in that state.
    We can't stop the movement of wild waterfowl. However, if 
ag and wildlife agencies continue to work together, we will 
have communication, collaboration, and this will benefit our 
international trade.
    During a response, states know their farmers, their 
veterinarians, their communities, but we can be overwhelmed, 
and therefore, it is imperative that we have our Federal 
partners well prepared.
    Thank you.
    [The prepared statement of Dr. Thompson follows:]

      Prepared Statement of Beth S. Thompson, J.D., D.V.M., State 
  Veterinarian, Executive Director, Minnesota Board of Animal Health, 
                             Saint Paul, MN
    What diseases are spread by wild birds to domestic/commercial 
poultry flocks?

    Diseases that have been detected in wild birds with possible 
implications for commercial poultry flocks include Avian Influenza, 
West Nile Virus, Newcastle Disease, Eastern Equine Encephalitis and 
Avian Pox Virus; Avian Influenza and Newcastle Disease receive the most 
attention. While it is possible for domestic or commercial poultry 
flocks to become infected with viral diseases like avian influenza or 
Newcastle Disease from direct contact with wild birds, it is more 
likely these viruses are spread indirectly to poultry via contaminated 
feed, clothing, and equipment. Producers are encouraged to prevent wild 
birds and other wildlife from coming into direct contact with their 
poultry flocks, and to avoid transporting wild bird fecal material and 
secretions to poultry via boots, equipment and feed. These management 
practices are part of biosecurity programs that will be discussed 
later.

    Avian Influenza

    Avian Influenza (AI) is a viral infection that occurs naturally in 
wild birds, especially waterfowl, gulls, and shorebirds without any 
signs of illness. The viral infection is caused by type A influenza 
viruses that may give rise to 144 possible virus subtypes. Influenza 
viruses vary widely in their ability to cause disease and spread among 
birds. Many strains of influenza viruses can infect commercial poultry, 
but generally the viruses can be classified into two categories. Low-
Pathogenicity Avian Influenza (LPAI) viruses typically cause little or 
no clinical signs in poultry. With LPAI, the clinical signs in poultry 
are variable; they may appear depressed, have ruffled feathers and may 
be off-feed. Signs of illness may also only be expressed as reduced egg 
production or mild respiratory symptoms. Highly-Pathogenic Avian 
Influenza (HPAI) can cause severe clinical signs and/or high mortality 
in poultry. With HPAI, clinical signs may include quietness, extreme 
depression and sudden drop in egg production. A few deaths may occur 
over several days, followed by rapid spread and a mortality rate able 
to approach 100% within 48 hours. H5N2 HPAI was the strain of avian 
influenza present in 2014-15 during the largest foreign animal disease 
event in U.S. history.

    Newcastle Disease

    Newcastle Disease (ND) is a viral infection of domestic poultry and 
other bird species. It is a worldwide problem that presents primarily 
as an acute respiratory disease, but depression, nervous 
manifestations, or diarrhea may be the predominant clinical form. 
Severity depends on the strain of the infecting virus and host 
susceptibility. Occurrence of the virulent form of the disease is 
reportable to state and Federal animal health officials and may result 
in trade restrictions. Clinical manifestations vary from high morbidity 
and mortality to asymptomatic infections. Severity of infection depends 
on virus virulence, as well as the age, immune status, and 
susceptibility of the host species. Chickens are the most susceptible 
and waterfowl the least susceptible of domestic poultry.
    Virulent ND (vND) strains are endemic in poultry in most of Asia, 
Africa, and some countries of North and South America. Other countries, 
including the U.S. and Canada, are free of those strains in poultry and 
maintain their status by enforcing strict import restrictions and 
eradicating the disease by destroying infected poultry. In the U.S., 
vND is considered a Foreign Animal Disease (FAD). Occasionally, 
introductions of vND occur in backyard or commercial poultry flocks, 
such as the current situation in California in 2018-19. Smuggled 
poultry and psittacine species or resident cormorants or pigeons are a 
potential source of Newcastle Disease infections in poultry. Movement 
of infected domestic birds and movement of people and contaminated 
equipment or litter are the main methods of virus spread between 
poultry flocks. Besides cormorants and possibly pigeons, wild birds 
have not been indicated as a major threat for introduction of ND in the 
United States.
    Vaccines for ND are available for chickens, turkeys, and pigeons, 
so vaccinated birds must be exposed to a larger dose of vND virus to be 
infected. Unfortunately, ND vaccines do not prevent all infections. In 
many areas of the world, vaccines are used to prevent losses from 
sickness and death, meaning vaccinated birds are still susceptible to 
vND but at a lower death rate than unvaccinated birds. Minnesota has 
never had a case of vND in poultry. However, a less serious form of the 
disease has been identified in wild waterfowl (cormorants) in the state 
in past years. Waterfowl have the ability to spread disease to poultry 
through fecal droppings and secretions of the nose, mouth and eye. As a 
result, poultry producers have taken additional steps to keep their 
birds healthy by increasing biosecurity and implementing vaccination 
programs. Among other measures, one of the most effective ways to 
protect poultry is by making sure they are separated from wild birds.
    Some ND viruses can produce a transitory conjunctivitis in people, 
but the condition has been limited primarily to laboratory workers and 
vaccination teams exposed to large quantities of virus. Poultry and egg 
products are safe to consume.

    What type of surveillance is conducted for each of these diseases 
in commercial poultry and wild birds, and how do agencies collaborate? 
How does the poultry industry, and state and Federal agencies respond?

    Surveillance for diseases in wildlife is usually passive, meaning 
state and Federal wildlife agencies respond to reports of mortality 
events involving either dead or sick birds. For dead bird events more 
attention is paid to multiple birds (>5) dead at the same time and 
location. When wild bird mortality events occur, diagnostic testing may 
be pursued depending on the species involved, time of year, 
circumstances of the event and clinical signs observed. For the health 
of Minnesota poultry and wildlife, it is important that relevant 
government agencies maintain close communications on potential disease 
events. The Minnesota Department of Natural Resources (MN-DNR) staff 
hold positions on the Board of Animal Health's Emergency Disease 
Management Committee, and regularly attend quarterly Board of Animal 
Health meetings to collaborate on current disease events. USDA-Wildlife 
Services will also be involved with meetings on disease issues. Outside 
of those routine meetings, both agencies are at the top of emergency 
notifications to one another if and when diseases are detected. Because 
disease knows no barriers, a harmonized preparedness and response 
effort is Minnesota's best strategy to protect our wild and commercial 
populations. For example, when the MN-DNR are tracking disease in 
cormorants, updates on sampling and diagnostic test results are shared 
with animal health officials.
    No active surveillance programs exist for ND in the U.S.; however, 
the commercial poultry industry closely monitors the effectiveness of 
their vaccination programs and investigates potential field exposures 
through diagnostic testing.
    There are two surveillance programs for avian influenza with USDA 
oversight: the Live Bird Marketing System (LBMS) and the National 
Poultry Improvement Plan (NPIP)
    A Live Bird Market is any facility (including botanica, poultry 
store, or custom slaughter) that sells live poultry for onsite 
slaughter or for offsite ritual use. LPAI viruses have repeatedly been 
isolated from the LBMS in the U.S. In order to track an introduction 
into the LBMS a cooperative State-Federal-Industry surveillance program 
was created. Details are contained in the USDA ``Prevention and Control 
of H5 and H7 Avian Influenza in the Live Bird Marketing System--Uniform 
Standards for a State-Federal-Industry Cooperative Program'' 
publication.
    The National Poultry Improvement Plan (NPIP) is how much of the 
surveillance for avian influenza in commercial and backyard poultry is 
conducted. Surveillance is a cooperative, collaborative effort between 
the poultry industry, State Animal Health Officials (SAHO) and the 
Federal Government. The NPIP is an agency within the USDA, Animal and 
Plant Health Inspection Service (APHIS), Veterinary Services (VS). The 
NPIP is the Federal Government's poultry disease control program 
administered in cooperation with state animal health officials and 
poultry producers. The General Conference Committee (GCC) of the NPIP 
is the Official Federal Advisory Committee to the Secretary of 
Agriculture on matters pertaining to poultry health and includes 
individuals representing the U.S. poultry industry and state agencies.
    The push for a national avian influenza surveillance program began 
in 2002 when H7N2 Low-Pathogenic Avian Influenza (LPAI) was identified 
in North Carolina, Virginia, and West Virginia; costing producers 
hundreds of millions of dollars. At that time, a surveillance program 
was not in place to detect the potential spread of Avian Influenza 
(AI). In response, an LPAI program was created within the NPIP to 
provide an incentive for regular AI surveillance and to protect poultry 
producers through indemnification and compensation should H5/H7 LPAI be 
found. Avian Influenza remains a concern for poultry producers in the 
U.S. The NPIP is the only Federal program responsible for H5/H7 LPAI 
surveillance, response, and containment activities.
    Flocks identified with HPAI are fully indemnified and compensated 
by USDA-APHIS-VS; however, indemnity and compensation funding for H5/H7 
LPAI flocks by USDA-APHIS-VS is often not certain. Disruption of this 
funding for H5/H7 LPAI response can result in loss of confidence and 
trust by the poultry industry and could potentially create a harmful 
impact on future responses to H5/H7 LPAI. This loss of confidence and 
trust discourages poultry producers (commercial, independent growers, 
and small flocks) from fully complying with NPIP testing programs and 
cooperating with state and Federal regulatory authorities, potentially 
risking the poultry industry's significant international trade. Without 
dedicated funding for LPAI indemnity and compensation, there is no 
incentive for producers to participate in the highly successful 
voluntary NPIP programs.
    Surveillance for influenza in poultry in the U.S. occurs on a 
number of different levels. All flock owners are expected to monitor 
their flocks for development of clinical signs suggestive of any 
reportable disease. In Minnesota, as in most states, influenza in 
poultry is a disease that is reportable to the State Animal Health 
Official (SAHO) or State Veterinarian. This is the first level of 
awareness and surveillance. When contacted, the SAHO, in conjunction 
with the attending poultry veterinarian or other responsible party, 
determines the next steps to arrive at an official flock status and 
response activities. Active surveillance activities for influenza are 
outlined in the NPIP Provisions and requires that commercial poultry 
flocks are tested on a routine surveillance schedule to ensure that no 
poultry, eggs or egg products from infected birds enter the food chain. 
All testing for influenza must occur at an authorized laboratory that 
is approved by the state and the NPIP. Many of these laboratories are 
members of the National Animal Health Laboratory Network (NAHLN), which 
is a nationally coordinated network and partnership of Federal, state, 
and university-associated animal health laboratories. They provide the 
diagnostic services to detect high-consequence livestock pathogens.

    How does biosecurity work to keep diseases out of poultry flocks?

    Biosecurity is a critical component of poultry health programs 
designed to prevent disease transmission into or out of a poultry 
flock. Biosecurity programs can not only reduce the possibility of a 
disease introduction but can also help prevent disease transmission and 
spread once an introduction is identified. According to the USDA Report 
on the 2014-2015 Outbreak of Highly Pathogenic Avian Influenza (HPAI) 
in the United States, biosecurity can play an important role in 
stopping the spread of avian influenza in domestic poultry. The report 
states, ``In December 2014, highly pathogenic avian influenza (HPAI) 
was detected in the United States for the first time in 10 years. In 
total, during the 2014-2015 outbreak, there were 211 detections on 
commercial operations and 21 detections on backyard premises (including 
those premises designated as a Dangerous Contact Premises). 
Approximately 7.4 million turkeys and 43 million egg-layers/pullet 
chickens, as well as a limited number of mixed poultry flocks, were 
affected by HPAI and died from the disease or were depopulated as part 
of the response. This outbreak was the largest HPAI outbreak ever 
recorded in the United States and arguably the most significant animal 
health event in U.S. history.''
    The USDA report continues, ``One of the greatest concerns and a 
probable contributing factor to the spread of HPAI was the lack of 
effective farm biosecurity measures. Stringent biosecurity, especially 
during a large-scale response, remained one of the most challenging 
aspects of the response effort.''
    As a result of the 2014-2015 outbreak, many new biosecurity 
materials were developed for the poultry industry to support 
implementation of revised biosecurity recommendations. Expectations for 
preventing or reducing future introductions require increased 
biosecurity measures from those used prior to the outbreak in most 
operations. To standardize biosecurity practices and expectations, USDA 
APHIS published a rule: ``Conditions for Payment of Highly Pathogenic 
Avian Influenza Indemnity Claims.'' This rule clarifies an existing 
policy for the payment of indemnity of eggs and provides a formula for 
the split of indemnity between poultry/egg owners and parties with 
which the owners enter into contracts to raise or care for the eggs or 
poultry. It also requires large owners and contractors to certify that 
at the time of detection of HPAI in their facilities, they had in place 
and were following a biosecurity plan that would prevent the spread of 
avian influenza.
    All sectors of the poultry industry recognized the need to 
incorporate basic biosecurity principles, and thus the National Poultry 
Improvement Plan (NPIP) adopted minimum management practices that all 
producers should be able to follow. Biosecurity measures adopted at the 
2016 NPIP Biennial Conference are intended to be the basic management 
practices needed to prevent the introduction and spread of infectious 
diseases. The 14 Biosecurity Principles require poultry producers and 
companies to have a written biosecurity plan and a person designated as 
the biosecurity coordinator. Auditing of the biosecurity principles is 
based on flock size as outlined in 9 CFR 53.10. Audits shall be 
conducted at least once every 2 years or a sufficient number of times 
during that period by the Official State Agency to ensure the 
participant is compliant. Each audit shall evaluate the biosecurity 
plan's training materials, documentation of implementation of the NPIP 
Biosecurity Principles and the biosecurity coordinator's annual review 
for completeness and compliance with the NPIP Biosecurity Principles.
Conclusion
  <bullet> The U.S. poultry industry, in cooperation with state and 
        Federal agencies, has been proactive with its efforts to 
        prevent another foreign animal disease (FAD) event. These 
        activities include on-going surveillance efforts in all poultry 
        sectors, response planning, and implementation of biosecurity 
        programs to prevent another FAD, such as HPAI or vND. Congress 
        should be aware that current funding has helped support these 
        proactive steps.

  <bullet> Congressional funding to support avian disease surveillance 
        programs, response activities and implementation of farm-level 
        biosecurity programs at the state level is crucial to provide 
        on-going program support.

  <bullet> Maintaining appropriate staffing within the United States 
        Department of Agriculture, Animal and Plant Health Inspection 
        Service, Veterinary Services (USDA-APHIS-VS) is essential. 
        Currently two leadership positions within the National Poultry 
        Improvement Plan are vacant.

  <bullet> Adequate USDA resources and personnel are critical to move 
        quickly and immediately to support SAHO efforts when a FAD such 
        as HPAI or vND is identified.

  <bullet> Funding is needed to support the USDA-APHIS-VS effort to 
        provide a stable indemnity and compensation program for H5/H7 
        LPAI flocks. Congressional appropriation of new, no-year, 
        mandatory fiscal appropriations dedicated for LPAI indemnity 
        and compensation to ensure continued participation in NPIP H5/
        H7 LPAI programs is fundamental to the entire program.

    The Chairman. Thank you very much, Doctor. We appreciate 
your testimony.
    And we will now go to Mr. Erickson. Please begin with your 
testimony from Texas.

STATEMENT OF BRET ERICKSON, SENIOR VICE PRESIDENT FOR BUSINESS 
            AFFAIRS, J&D PRODUCE INC., EDINBURG, TX

    Mr. Erickson. Hello and good morning, Chairman Costa, 
Ranking Member Rouzer, and Committee Members. My name is Bret 
Erickson and I am Senior Vice President at J&D Produce. I have 
worked in agriculture my entire career. Prior to joining J&D I 
was President and CEO of the Texas International Produce 
Association for 6 years, and am quite familiar with the 
challenges you are exploring here today, specifically as it 
relates to the fresh produce industry.
    We are a family-owned business based in Edinburg, Texas in 
the Rio Grande Valley. We are a grower, packer, shipper, and we 
produce almost 40 different types of greens, such as kale, 
chards, collards, beets, and herbs, just to name a few, as well 
as sweet onions, cabbage, and melons.
    We farm approximately 6,000 acres in the Rio Grande Valley, 
with growing and packing operations also in Deming, New Mexico, 
Vidalia, Georgia, Vineland, New Jersey, Peru and Mexico. We are 
a year-round operation and we employee approximately 180 full-
time employees in the U.S. That number swells to over 500 
seasonal employees in full production as we are now, and up to 
750 when you include the harvest crews that are managed by farm 
labor contractors.
    Our business is quite complex and we have several serious 
challenges that prevent us from growing the business as quickly 
as we would like to. Labor being number one. I would be remiss 
if I did not mention how badly we need labor reforms, and I 
must take this opportunity to ask you all to support the Farm 
Workforce Modernization Act. We desperately need these changes, 
as our business and many others like us are suffering from a 
severe labor crisis that threatens our ability to maintain let 
alone grow a sustainable farming business in the United States.
    Our customers include wholesalers and food service 
companies, but our primary business is dealing with retailers 
who sell direct to you, the U.S. consumer. Some of our 
customers include HEB, Wegmans, Publix, Meijer, Kroger, 
Albertsons, and Wal-Mart.
    We utilize imports to complement our overall business to 
supply our customers with product year-round and when we are 
not in production in our domestic locations. We are truly an 
international farming and packing operation, and because of 
that, the flow of our product and consequently the quality and 
freshness of our perishable commodities are in the hands of the 
Federal agencies who are responsible for inspecting product as 
it crosses the border.
    Additionally, the security of our domestic farms, 
particularly in Texas on the border, are at risk of being 
attacked by invasive pests and diseases. In Texas, we have seen 
double-digit increases year over year for the last decade for 
volumes of fresh fruits and vegetables. In the last 12 years, 
we have increased the volumes coming from Mexico 143 percent.
    The increase in imports creates a positive economic impact 
for our country, and means that consumers can purchase whatever 
item they want every day of the year. The downside is that 
ports are overloaded with product. Volumes have exploded and 
new products coming from Mexico and other parts of the world 
bring with them new pests and diseases.
    While this exponential growth in import volumes has 
occurred, Federal agency staffing levels have not, creating 
bottlenecks and delays that range from a few hours to several 
days, at times rendering entire loads of product useless 
because the quality has deteriorated to the point that we can 
no longer send it to our customers.
    Today I am here to ask the Committee to secure additional 
resources that will put more manpower at our ports-of-entry. 
Specifically, we need more USDA APHIS insect identifiers and 
CBP ag specialists. Furthermore, I request that more time and 
attention from USDA APHIS be directed towards training CBP ag 
specialists on insect identifications, and that USDA grant more 
authority to well-trained CBP ag specialists to make 
identifications and make a determination if an insect is good 
or bad.
    The challenges detailed above are just some of the reasons 
I and the produce industry strongly support the Protecting 
America's Food and Agriculture Act of 2019. This legislation, 
sponsored by Representative Filemon Vela, has the support of 
Chairman Costa, Chairman Peterson, Senate Chairman Roberts, and 
Ranking Member Stabenow, and it recognizes the challenge the 
fresh produce industry faces.
    As a domestic-based grower/shipper, I am here to ask for 
your help to be a part of the solution to help keep American 
fruit and vegetable growers in business, and to ensure that 
American agricultural interests are protected from the threat 
of invasive pests and diseases.
    Thank you.
    [The prepared statement of Mr. Erickson follows:]

Prepared Statement of Bret Erickson, Senior Vice President for Business 
                Affairs, J&D Produce Inc., Edinburg, TX
    Hello and good morning Chairman Costa, Ranking Member Rouzer, and 
Committee Members. My name is Bret Erickson and I am Senior Vice 
President at J&D Produce Inc. I have worked in agriculture my entire 
career. Prior to joining J&D, I was President & CEO of the Texas 
International Produce Association for almost 6 years and I am quite 
familiar with the challenges you are exploring here today, specifically 
as it relates to the fresh produce industry.
    We are a family owned business headquartered in Edinburg, Texas in 
the Rio Grande Valley. Our owners, Jimmy & Diane Bassetti moved from 
Vineland, New Jersey to Texas to start the business in 1986. J&D is 
truly an American Dream story. We are a grower/packer/shipper of fresh 
greens, sweet onions, cabbage, and melons. To give you an idea of the 
diversity of crops we grow, we produce almost 40 different types of 
greens such as kale, chards, collards, beets and herbs to name a few.
    We farm approximately 6,000 acres in the Rio Grande Valley. We also 
have growing and packing operations in Deming, New Mexico, Vidalia, 
Georgia, Vineland, New Jersey, Peru, and Mexico. We are a year-round 
operation and we employ approximately 180 full time employees in the 
U.S. That number will swell to over 500 when you include our seasonal 
employees when we are in full production, as we are right now. This 
number is closer to 750 when you include the harvest crews that are 
managed by Farm Labor Contractors.
    Our business is quite complex, and we have several serious 
challenges that prevent us from growing the business as quickly as we 
would like to, labor being number one, but trade, water, food safety, 
and transportation are not far behind. I would be remiss if I did not 
mention how badly we need labor reforms and I must take this 
opportunity to ask you all to support the ``American Farm Workforce 
Modernization Act.'' We desperately need these changes as our business 
and many others like us are suffering from a severe labor crisis that 
threatens our ability to maintain let alone grow a sustainable farming 
business.
    As I mentioned, we have growing and packing operations in Peru and 
Mexico. We own farms in Peru and we have grower partners in both Peru 
and Mexico who we provide seed, supplies, and funding to grow some of 
our crops when our domestic operations are not in production. This is 
an important distinction, as we use imports to complement our overall 
business to supply our customers with product year-round when we are 
not in production in our domestic locations.
    Our customers include wholesalers and foodservice companies, but 
our primary business is dealing with retailers who sell direct to you, 
the U.S. consumer. Some of our customers include HEB, Wegmans, Publix, 
Meijer, Kroger, Albertsons and Wal-Mart to name a few.
    We also export a fair amount of business to some Canadian 
retailers, such as Loblaw and Sobeys. We are truly an international 
farming and packing operation and because of that, the flow of our 
product, and consequently the quality and freshness of our perishable 
commodities are in the hands of the Federal agencies who are 
responsible for inspecting product as it crosses the border. 
Additionally, the security of our domestic farms, particularly in 
Texas, are at risk of being attacked by invasive pests and diseases.
    In Texas, we have seen double digit increases year over year for 
the last decade for volumes of fresh fruits and vegetables. This is a 
bittersweet figure. J&D has increased the volumes of our own imported 
products for several reasons. One, that our business is growing and 
demand for fresh fruits and vegetables continues to grow, why? Simply 
because the population is growing and there are more mouths to feed. 
But we also have to import more product because we don't have the labor 
to harvest the volumes that are demanded by our customers.
    The increase in imports does create a positive economic impact for 
our country. It also means that U.S. consumers are able to purchase 
whatever item they want, be it strawberries, celery, cilantro, or 
cantaloupes every single day of the year. The downside is that the 
ports are overloaded with product, which has grown by leaps and bounds. 
Not only have the volumes exploded, but the variety of products, new 
exciting items that we have not seen before, which are coming from new 
regions of Mexico and other parts of the world bring with them new 
pests and diseases that we have never seen.
    And while this exponential growth in import volumes has occurred, 
Federal agency staffing levels have not grown accordingly, creating 
bottlenecks and delays that can range from a few hours to 4-5 days, at 
times rendering entire loads of product useless or headed to the food 
bank as a donation because the quality has deteriorated to the point we 
can no longer send it to our customers without it being rejected.
    With respect to this hearing today, I am here to ask the Committee 
to find a way to secure additional resources that will put more 
manpower at our ports-of-entry. Specifically, we need more USDA APHIS 
Insect Identifiers and CBP Ag Specialists. Furthermore, I would like to 
request that more time and attention from USDA APHIS be directed 
towards training [CBP] Ag Specialists on insect identifications and 
that USDA grant more authority to well-trained CBP Ag Specialists to 
make identifications and make a determination if an insect is ``good'' 
or ``bad''.
    There have been some improvements over the years as USDA has 
trained and authorized CBP Ag Specialists to make identifications, but 
we need more of this, and we need more insect identifiers and more CBP 
Ag Specialists. Trade volumes will continue to grow at fast pace 
because the demand for food will continue to grow as the population 
grows. And as the population grows, that means that farms turn into 
subdivisions and shopping malls, not to mention the struggles we as 
growers face to find labor and remaining cost competitive in a global 
market place where we pay $12 an hour versus our competitors in other 
countries, who pay $12 or less per day.
    The challenges I detailed above are just some of the reasons I and 
the produce industry strongly support the Protecting America's Food and 
Agriculture Act of 2019. This legislation (H.R. 4482/S. 2107) sponsored 
by Rep. Filemon Vela (D-TX), has the support of Chairman Costa, 
Chairman Peterson, Senate Chairman Roberts and Ranking Member Stabenow 
and it recognizes the challenge the fresh produce industry faces. As 
you may know, the bill authorizes U.S. Customs and Border Protection to 
hire, train, and assign 240 new agricultural specialists a year until 
they meet the requirements established by the Agriculture Resource 
Allocation Model. The bill ensures that the assignment of such 
specialists be done based off need and the predictable surges that 
occur at certain ports-of-entry during certain times of the year. This 
legislation represents a significant step in the right direction.
    As a domestic based grower shipper, it is unfortunate, but it is a 
fact that our ability to grow the business is limited to some degree by 
what happens here in Washington DC. I am here to ask for your help to 
be part of a solution to help keep American fruit and vegetable growers 
in business and to ensure that American agricultural interests are 
protected from the threat of invasive pests and diseases.
    Thank you.
                               Attachment

              Table 1. U.S. Imports of Fresh Fruits and Vegetables from Mexico by Truck, 2007-2018
                                                40,000 Lb. Units
----------------------------------------------------------------------------------------------------------------
                          Texas             Arizona           California         New Mexico           Total
----------------------------------------------------------------------------------------------------------------
          2007             101,025            112,327             43,264              4,378            260,992
          2008             105,522            115,609             45,713              4,304            271,147
          2009             123,777            113,495             49,417              6,938            293,627
          2010             133,039            136,031             53,849              6,462            329,381
          2011             148,331            118,389             54,479              6,496            327,694
          2012             158,968            130,019             60,006             10,154            359,147
          2013             171,064            134,168             58,638             10,355            374,224
          2014             172,648            130,549             57,989              9,594            370,779
          2015             209,817            147,191             64,882              9,484            431,373
          2016             221,662            160,602             68,237             13,254            461,505
          2017             236,397            159,355             73,166             10,581            479,499
          2018             246,143            156,380             70,490             11,008            484,021
----------------------------------------------------------------------------------------------------------------
                                               1 Year Growth Rates
----------------------------------------------------------------------------------------------------------------
     2018/2017                4.1%              ^1.9%              ^3.7%               4.0%               0.9%
----------------------------------------------------------------------------------------------------------------
                                              12 Year Growth Rates
----------------------------------------------------------------------------------------------------------------
     2007-2018              143.6%              39.2%              62.9%             151.5%              85.5%
        Growth
Average Annual               12.0%               3.3%               5.2%              12.6%               7.1%
   Growth Rate
----------------------------------------------------------------------------------------------------------------
Source: Agricultural Marketing Service, USDA.

U.S. Imports of Fresh Fruits and Vegetables from Mexico by Truck, 2007-
        2018
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Agricultural Marketing Service, USDA.

    The Chairman. Thank you very much, Mr. Erickson, and thank 
you for making reference to the legislation that we are trying 
to move forward with. It is important for the produce industry 
in the country, and also a shout out to the Bipartisan 
Agricultural Labor Reform Act. I think we are off to a good 
start there as well.
    I believe, Mr. Reichert, you are next. Please proceed with 
your testimony.

  STATEMENT OF KURT REICHERT, DIRECTOR OF FUMIGATION, WESTERN 
                 INDUSTRIES--NORTH, LLC; D/B/A 
                 WESTERN FUMIGATION, LESTER, PA

    Mr. Reichert. Good morning, Chairman Costa, Ranking Member 
Rouzer, and Members of the Committee. Thank you for the 
invitation to testify before the Committee today.
    My name is Kurt Reichert and I am the Fumigation Director 
at Western Fumigation. I have worked for Western for over 28 
years and I have been a multi-state licensed professional 
applicator since 1991.
    I oversee the activities, which I will talk about here 
today, on a daily basis. I also work closely with many of the 
state and Federal regulatory agencies which govern the 
manufacture, transportation, and use of the fumigants which are 
available to our industry.
    Quarantine inspections are a critical tool in our nation's 
efforts for protecting U.S. agriculture from invasive and non-
native species, a program critical to the American economy.
    Western Fumigation works closely with both the United 
States Customs and Border Protection and the United States 
Department of Agriculture's Animal and Plant Health Inspection 
Service, plant protection, quarantine inspectors to help 
safeguard United States agriculture against the introduction of 
pests of significance.
    With regards to imports, we fumigate perishable commodities 
to eliminate invasive species which may have been hidden in the 
shipment. We also fumigate non-perishable cargo such as 
imported tile, machinery, military equipment, and cocoa beans. 
Export treatments are frequently used for logs destined for 
Europe or Asia, and cars and machinery en route to Australia 
and New Zealand, and citrus and broccoli exported from 
California.
    Fumigation is often the only treatment method which can 
effectively eliminate these pests without damaging the cargo. 
Once an invasive species makes it into the U.S., its further 
spread can be devastating, costly, and unstoppable.
    Over the years, the United States has seen several invasive 
species gain a foothold, causing widespread economic damage to 
domestic agriculture. Most recently we have seen the 
introduction and establishment of the Asian Longhorn Beetle, 
the Brown Marmorated Stink Bug, and the Spotted Lantern Fly. 
These pests have caused immense damage and hardship by damaging 
crops and at times entire farms.
    APHIS, CBP and the various fumigation companies which 
operate at our ports-of-entry are literally on the frontlines 
with respect to stopping invasive species. All invasive pests 
can be tracked back to a port-of-entry where it must have 
slipped by undetected, possibly due to the limited number of 
inspectors being unable to keep up with their core mission with 
the volume of goods entering the port. CBP and APHIS personnel 
are true professionals that are dedicated to their core 
missions, but they are human and can be over-tasked at times.
    CBP and APHIS agriculture inspectors have two powerful 
tools to use in the defense against invasive species. The first 
is by direct inspection of goods and commodities. Direct 
inspection is a targeted physical examination of the specified 
portion of cargo which might be targeted due to the possible 
presence of an invasive species from the exporting country, or 
a hitchhiking pest which may have been inadvertently picked up 
during transit to the United States. But inspectors can only 
examine so many containers or vessels in a single day, and 
inspectors can often not physically examine every single piece 
of cargo in a shipment.
    The second tool is to require mandatory treatments for 
high-risk shipments. Mandatory treatments are required for 
imports from certain countries or regions where a known 
invasive pest is established and prevalent, or if a commodity 
is imported in such a volume as to make a thorough inspection 
impractical.
    Both of these tools require a minimum number of CBP and 
APHIS personnel at each port-of-entry. Proper staffing must be 
in place for inspections during the day, as well as for 
fumigation treatments which occur after normal business hours. 
The increased cost of staffing will often be only a fraction of 
the cost of an effective eradication effort after an invasive 
species has become established.
    We urge Congress to support our land and water ports in 
places like Texas, North Carolina, California, Pennsylvania, 
and New Jersey, which stand as our nation's first and only line 
of defense against invasive species. Current staffing cannot 
reasonably be expected to be able to examine the amount of 
cargo they handle in a thorough manner.
    Treatments can be applied to cargoes from questionable 
regions in lieu of requiring physical inspections by APHIS or 
CBP personnel. This allows APHIS and CBP to be more efficient 
and targeted in their inspection programs until staffing is 
brought up to full strength.
    For these reasons, Western and our partner fumigation 
companies around the U.S. support increased APHIS and CBP 
staffing efforts such as House Resolutions 4482 and 3244, which 
will appropriate funding to better staff our ports-of-entry and 
guard American agriculture against invasive species.
    I want to again thank the Committee for the opportunity to 
testify here. I have additional remarks which have been 
submitted for the record, and I will be happy to answer any 
questions which you may have.
    [The prepared statement of Mr. Reichert follows:]

 Prepared Statement of Kurt Reichert, Director of Fumigation, Western 
      Industries--North, LLC; d/b/a Western Fumigation, Lester, PA
    Good morning, and thank you for the invitation to testify before 
the Subcommittee today. My name is Kurt Reichert and I am the 
Fumigation Director for Western Fumigation. I have worked for Western 
for over 28 years, starting as a fumigation technician and working my 
way up through the company to become a Director. I have been a multi-
state licensed professional applicator since 1991. I oversee the 
activities I will talk about here today on a daily basis. I also work 
closely with many of the state and Federal regulatory agencies which 
govern the manufacture, transportation and use of the fumigants which 
are available to our industry today.
    Western Fumigation is a Division of Western Pest Services, which is 
a full-service Pest Control company based in Parsippany, New Jersey. 
Western was founded in 1928 as a family business, and has deep roots in 
the East Coast from Virginia to New England. Our Fumigation Division 
was spun off in the 1980s to be a standalone Division better suited to 
the unique process and regulatory requirements of import/export 
quarantine treatments.
    Quarantine inspections are a critical tool in our nation's efforts 
for protecting U.S. agriculture from invasive and non-native species, a 
program critical to the American economy. Western Fumigation works 
closely with both the United States Customs and Border Protection (CBP) 
and the United States Department of Agriculture's Animal and Plant 
Health Inspection Service (APHIS) Plant Protection and Quarantine 
Inspectors to help safeguard United States agriculture against the 
introduction of pests of significance.
    With regard to imports, we fumigate perishable commodities such as 
grapes, citrus, blueberries, asparagus, kiwi, pineapples and bananas to 
eliminate invasive species which may be hidden within the shipment. We 
also fumigate non-perishable cargo such as imported tile, machinery, 
military equipment and cocoa beans. Some of these items require 
mandatory fumigation, and some require fumigation if an actionable pest 
is found. Export treatments are frequently required for logs destined 
for Europe or Asia, cars and machinery en route to Australia and New 
Zealand, and citrus and broccoli exported from California.
    Fumigation is often the only treatment method which can effectively 
eliminate these pests without damaging the cargo. Without fumigation, 
the availability of certain imported fruits and vegetables grown in 
South America would be significantly reduced during the winter, 
potentially leading to shortages and high prices for American families.
    Once an invasive species makes it into the U.S., its further spread 
can be devastating, costly and unstoppable. Over the years, the United 
States has seen several invasive species gain a foothold, causing 
widespread economic damage to domestic agriculture. Most recently, we 
have seen the introduction and establishment of the Asian Longhorn 
Beetle, the Brown Marmorated Stink Bug and the Spotted Lanternfly. 
First, these pests have caused immense damage and hardship by damaging 
crops and at times, entire farms. And, even when crops can be salvaged, 
these species have increased costs and reduced the competitiveness of 
U.S. agriculture and industry because foreign countries now require us 
to fumigate U.S. exports to prevent the further world-wide spread of 
these pests.
    APHIS, CBP and the various fumigation companies which operate at 
our U.S. ports-of-entry are literally on the front lines with regards 
to stopping invasive species. All invasive pests can be traced back to 
a port-of-entry where it must have slipped by undetected, possibly due 
to the limited number of inspectors being unable to keep up with the 
volume of goods entering the port. CBP and APHIS personnel are true 
professionals and are dedicated to their core missions, but they are 
human and can be over tasked at times. For example, APHIS Inspectors 
regularly work their day shifts at their home ports and then work as 
late as midnight supervising fumigation operations.
    CBP and APHIS Agricultural Inspectors have two powerful tools to 
use in the defense against invasive species. The first is by direct 
inspection of goods and commodities. Direct inspection is a targeted 
physical examination of a specified portion of a cargo which might be 
targeted due to the possible presence of an invasive species from the 
exporting country, or a hitchhiking pest which may have been 
inadvertently picked up during transit to the United States. But 
inspectors can only examine so many containers or vessels in a single 
day, and inspectors can often not physically examine every single piece 
of cargo in a shipment. The second tool is to require mandatory 
treatments for high risk shipments. Mandatory treatments are required 
for imports from certain countries or regions where a known invasive 
pest is established and prevalent, or if a commodity is imported in 
such a volume as to make thorough inspections impractical.
    Both of these tools require a minimum number of CBP and APHIS 
personnel at each port-of-entry. Proper staffing must be in place for 
inspections during the day, as well as for fumigation treatments which 
occur after normal business hours. The increased cost of staffing will 
often be a fraction of the cost of an effective eradication effort 
after an invasive species becomes established.
    We urge Congress to support our land and water ports in places like 
Texas, North Carolina, California, Pennsylvania and New Jersey which 
stand as our nation's first and only line of defense against invasive 
species. Many of these ports are understaffed to handle the growing 
amount of imported goods which pass through them. Current staffing 
cannot reasonably be expected to be able to examine the amount of cargo 
they handle in a thorough manner. The ever increasing amount of goods 
imported from China are of particular concern, as most of the recent 
invasive species have originated from there.
    Treatments such as fumigation are an important tool in safeguarding 
U.S. agriculture from invasive species, as well as protecting U.S. 
trade with our partners around the world. Treatments can be applied to 
cargoes from questionable regions in lieu of requiring physical 
inspections by APHIS or CBP personnel. This allows APHIS and CBP to be 
more efficient and targeted with their inspection programs until 
staffing is brought up to full strength.
    For these reasons, Western and our partner fumigation companies 
around the U.S. support increased APHIS and CBP staffing efforts such 
as House Resolutions 4482 and 3244 which will appropriate funding to 
better staff our ports-of-entry and guard American agriculture against 
invasive species.
    I again want to thank the Subcommittee for the opportunity to 
testify here today. I have additional remarks which have been submitted 
to the record, but I will be happy to answer any questions which you 
may have at this time.

    The Chairman. We thank you very much, Mr. Reichert, for 
your timely testimony.
    And our last witness before we begin the question period 
with Members of the Subcommittee is with Mr. Gaskamp. Please 
begin.

           STATEMENT OF JOSHUA A. GASKAMP, TECHNICAL 
          CONSULTATION MANAGER AND WILDLIFE AND RANGE 
          CONSULTANT, NOBLE RESEARCH INSTITUTE, LLC, 
                          ARDMORE, OK

    Mr. Gaskamp. Chairman Costa, Ranking Member Rouzer, Members 
of the Committee, thank you for this opportunity to provide 
testimony on behalf on Noble Research Institute.
    Swine are not a species native to the United States. When 
they were introduced as livestock for human consumption, they 
were bred for high fertility and accelerated meat production. 
Unfortunately, if swine were intentionally and unintentionally 
released to live in a feral state, these same traits 
contributed to an uncontrolled population growth and the 
devastating ecological and economic impacts that I will address 
later in my comments.
    Land use changes and transportation and stocking for 
hunting have also contributed to population growth and 
geographic expansion. In the south-central U.S. feral swine 
populations are estimated to grow at a rate of 21 percent per 
year. Feral swine are now present in at least 37 states, 
including the vast majority of states represented by this 
Committee. And the total population is estimated to be more 
than seven million animals.
    Damage caused by feral swine comes in many forms. It is 
widespread and extensive but rarely rigorously quantified. 
Feral swine damage to U.S. agriculture is estimated to be more 
than $1.5 billion annually. However, this commonly cited 
estimate does not include many ecological damages and threats 
to human health. As such, it is likely the true economic damage 
caused by feral swine far exceeds $1.5 billion.
    Examples of impacts on cultivated crops appear regularly, 
including the 2006 E. coli outbreak in California's spinach, in 
which feral swine were responsible. It was estimated that 
spinach farms in California lost as much as $75 million due to 
public fears of consuming spinach.
    Other crops commonly impacted by feral swine include small 
grains, fruits, beans, potatoes, and nuts. Feral swine also 
regularly mingle with cattle, utilizing common water sources 
and feed stations, and rooting and defecating in cattle 
enclosures. The interact with domestic swine in non-confinement 
pork facilities. These interactions result in livestock 
exposure to more than 60 infectious diseases that cause weight 
loss, abortions, and death in domestic livestock.
    Specifically, feral swine commonly harbor Brucellosis, 
Pseudorabies, and African Swine Fever, or ASF. To maintain 
Brucellosis free status for cattle in the global market, any 
time a cow tests positive for Brucella, an epidemiologic 
investigation is required at considerable government expense. 
Similarly, an occurrence of ASF in U.S. livestock would result 
in substantial losses to the industry from international 
markets.
    Feral swine also threaten native wildlife populations, 
including numerous endangered species that compete for food, 
destroy habitat, and predate on these species.
    Entire native ecosystems are impacted by the presence of 
feral swine. Rooting accelerates the establishment and spread 
of invasive plants, decreasing diversity and resilience of 
these ecosystems.
    Feral swine must be controlled to protect our nation's 
agricultural resources. Studies have shown that 70 percent of 
the feral swine population must be removed annually to halt 
population growth. Unfortunately, most conventional trap 
methods remove less than 50 percent of the population. 
Moreover, research suggests that conventional traps may 
actually be responsible for creating what is commonly known 
today as trap-shy pigs.
    Noble Research Institute has investigated strategies to 
capture trap-shy pigs. The result of this research is a fully-
suspended trap that functions much differently than 
conventional traps. Our research demonstrates that the 
suspended trap design has an 88 percent capture rate and it is 
now commercially available under the BoarBuster<SUP>'</SUP> 
product name. Innovative techniques like the BoarBuster will be 
essential to controlling feral swine populations as they become 
more trap shy.
    Education on best management practices that utilize the 
most effective technologies in a strategic manner is vital to 
successfully reducing feral swine populations. State and 
Federal funding has extended the reach of producer education on 
feral swine, but more educational programs are needed as feral 
swine populations expand.
    Funding for continued research is also vital to future 
success in feral swine control. Stimulated by the USDA funded 
grant in 2015, the National Water Research Center and Nobel 
Research Institute partnered to develop performance and 
monitoring tools for the management of feral swine. We 
anticipate that USDA's new Feral Swine Control Pilot will 
result in additional innovative ideas for educating producers 
in increasing control efforts.
    Feral swine populations continue to grow at the expense of 
ag production and native ecosystems. If left unchecked, feral 
swine could have devastating impacts on our nation's food 
supply, ag industry sustainability, and environment.
    Continued support for developing advanced control 
strategies, conducting feral swine research, and educating 
producers on strategic effects and control practices is 
essential if we hope to prevail over this invasive and prolific 
species.
    Thank you for the opportunity to speak today.
    [The prepared statement of Mr. Gaskamp follows:]

Prepared Statement of Joshua A. Gaskamp, Technical Consultation Manager 
   and Wildlife and Range Consultant, Noble Research Institute, LLC, 
                              Ardmore, OK
    Chairman Costa, Ranking Member Rouzer, Members of the Committee, 
thank you for this opportunity to submit a written statement on behalf 
of Noble Research Institute, LLC.
    Lloyd Noble, an oilman and philanthropist, founded Noble Research 
Institute in 1945 to help revitalize agriculture following the Dust 
Bowl. Mr. Noble was a visionary in land stewardship and conservation, 
recognizing that ``. . . the land must continue to provide for our 
food, clothing and shelter long after the oil is gone.'' Today, Noble 
Research Institute is the largest, nonprofit independent agricultural 
research organization in the United States. Among our efforts, we 
conduct agricultural consultation, education for youth and adult, and 
research focused on delivering solutions to great agricultural 
challenges. One of the greatest challenges facing farmers and ranchers 
(``Producers'') today is the negative ecological and economic impact 
caused by wild, invasive and non-native species, including feral swine. 
Noble Research Institute has conducted extensive research on various 
methods for controlling feral swine populations. This research will be 
the focus of my testimony.
Introduction to Feral Swine
    Swine are a non-native species in the United States. The species 
was introduced to North America during the European colonial period in 
the 1600s. Swine eventually became a common form of livestock 
production in the United States. As domesticated livestock, they were 
bred for traits such as high fecundity (i.e., fertility) and 
accelerated meat production. These traits significantly increased the 
quality and quantity of pork available for human consumption.
    Through accidental and, in some cases, intentional release of once-
domesticated animals, combined with the introduction of swine as a game 
species for hunters, populations of feral swine began to develop. The 
same traits that were bred into domesticated swine for increased 
production have led to devastating ecological and economic impacts on 
ecosystems when this species is allowed to live in a feral state.
    Feral swine are the most prolific large mammal in the United 
States. They have an early age of sexual maturity (6-8 months), short 
gestation period (115 days), and the ability for year round breeding 
and farrowing. Feral swine are a highly adaptable species that 
flourishes in a wide range of environments. They are opportunistic 
omnivores that consume an endless variety of plants and animals.
    In addition to their genetic capacity for prolific reproduction, 
certain human interventions over time have also facilitated increased 
populations. Farm programs, such as the Conservation Reserve Program, 
reduced acreage in active agricultural production. This reduced the 
need for crop damage protection programs so feral swine populations in 
those areas were no longer trapped or hunted. At the same time, land 
ownership patterns began to shift with more people becoming absentee 
land owners of acreage not utilized as their primary means of income. 
These unmanaged acres are ideal habitat for feral swine populations. 
Practices intended to increase feral swine populations for recreational 
hunting since the 1930s have also facilitated the spread of feral swine 
in the United States. Intensive management for other game species such 
as deer, including production of food plots and provision of 
supplemental feeding, further favored establishment and growth of feral 
swine populations.
    In the south central region of the United States, specifically 
Texas and Oklahoma, feral swine populations have experienced enormous 
growth in the last decade, increasing at an estimated average annual 
rate of 21% per year. While land use changes impacted population 
increases for feral swine, their geographical expansion has primarily 
been the result of feral swine transportation and stocking facilitated 
by humans for hunting. Feral swine populations now exist in at least 37 
states, including the vast majority of states represented by this 
Committee. The total population in the United States is estimated to be 
more than seven million animals.
Impacts on Agriculture and Natural Resources
Generally
    Feral swine act like rototillers turning soil over in search of 
roots, tubers, insects, and anything else with caloric value. Damage 
caused by feral swine is widespread and extensive but rarely rigorously 
quantified. The most commonly cited estimate of feral swine damages to 
U.S. agriculture is $1.5 billion annually. This estimate includes 
direct removal of crops, destruction through rooting of pastureland, 
damage to fences and harvest equipment, depredation on livestock, and 
livestock loss to disease from feral swine contact. However, this 
estimate did not include altered habitat for native wildlife, 
competition for food sources with livestock and wildlife, water 
contamination, soil degradation and loss, unaccounted disease impacts, 
vehicle collisions, and opportunity costs associated with non-
production due to the likelihood of crop or livestock damage. Examples 
of significant impacts to agriculture appear regularly, including the 
2006 E. coli outbreak in California spinach. Though contaminated 
spinach was only linked to one farm, the source was determined to be 
feral swine. Three people died, 60 contracted a unique type of kidney 
failure and several hundred were sickened. It was estimated that 
spinach farms in California lost as much as $75 million due to public 
fears of consuming spinach. For all these reasons, it is likely that 
the $1.5 billion damage estimate is grossly underestimated.
Crop Damage
    Crops commonly impacted by feral swine include corn, cotton, milo, 
wheat, oats, rice, peanuts, soybeans, potatoes, melons, and pecans. 
Producers in areas with abundant feral swine populations are regularly 
forced to replant portions of their crop after feral swine consume seed 
or otherwise disrupt its establishment within days of planting. Mature 
crops are also commonly impacted. Yield loss regularly occurs in 
various crop species due to direct consumption by feral swine or 
unsuitable harvest conditions caused by feral swine rooting. At Noble 
Research Institute, researchers found pecan harvest in areas rooted by 
feral pigs was 33.7% lower compared to unrooted areas.
Disease
    Livestock exposure to diseases and parasites carried by feral swine 
poses a significant risk for Producers. Feral swine regularly mingle 
with cattle, utilizing common water sources and feeding stations, and 
rooting and defecating in cattle enclosures. Similarly, the social 
behavior of swine results in contact and interaction among feral 
populations and domesticated swine in non-confinement pork production 
facilities.
    Feral swine carry more than 60 infectious diseases that can infect 
humans and/or domestic livestock. Many of these diseases cause weight 
loss, abortions, or death in domestic animals despite having little to 
no impact on feral swine. Specifically, feral swine commonly harbor 
swine brucellosis and pseudorabies virus, both of which can be 
transmitted to domestic pigs. A recent study in Oklahoma and Texas 
found that feral swine tested positive for Brucella spp. antibodies in 
12% of the samples tested. Brucella from feral swine has been 
identified in domestic cattle resulting in false positives in testing 
and additional testing at additional expense in order to maintain 
brucellosis-free status.
    Pseudorabies commonly affects canids (i.e., domestic dogs, wolves, 
coyotes, foxes, etc.) in areas where feral swine prevalence is high. A 
separate study in Oklahoma found that feral swine tested positive for 
pseudorabies antibodies in 24% of the samples tested. Multiple deaths 
from pseudorabies in companion animals have been reported.
    In addition to direct losses to domestic livestock and companion 
animals, disease transmission from feral swine poses significant trade 
risks with the potential to depress livestock markets in the event of a 
widespread outbreak. To maintain brucellosis-free status for cattle in 
the global marketplace, any time a cow tests positive for Brucella, an 
epidemiologic investigation at considerable governmental expense must 
be initiated.
    Similarly, an occurrence of foreign animal diseases such as foot-
and-mouth disease or African swine fever (``ASF'') in U.S. livestock 
would result in substantial losses to the industry from international 
markets. Although ASF would have a small impact on feral swine numbers, 
it could have a devastating impact on domestic pork production. U.S. 
pork exports in 2018 totaled approximately $6.4 billion. If ASF is 
found in U.S. domestic pork, exports could suffer and result in 
catastrophic losses for U.S. pork Producers. Because feral swine are 
reliable reservoirs for many infectious diseases that could harm U.S. 
agriculture, they pose a serious risk to our biosecurity and economic 
sustainability.
Wildlife and Native Ecosystems
    Feral swine negatively affect native wildlife populations by 
competing for food, habitat manipulation, and predation. Though 
predation on livestock species (primarily sheep, goats, and poultry) 
does occur, feral swine are more detrimental to a variety of wildlife 
species. This is due to the fact that wildlife species lack the 
protections that common animal husbandry practices provide for 
livestock. Threatened and endangered species including whooping cranes 
(Grus americana), Kemp's Ridley sea turtles (Lepidochelys kempii), 
interior least terns (Sterna antillarum athalassos) and Attwatter's 
prairie chickens (Tympanuchus cupido attwateri) are all negatively 
impacted by the presence of feral swine. Ground nesting birds, 
amphibians, and reptiles are most susceptible to predation, but many 
small and large mammals are also affected in other ways. Feral swine 
disrupt, destroy and otherwise alter native plant communities. These 
changes to plant community structure and plant species composition 
displaces or destroys the wildlife species that evolved with and depend 
on them.
    In native ecosystems, the disturbance created by feral swine 
rooting accelerates the establishment and spread of invasive plant 
species, while decreasing diversity and resilience of the native plant 
community. Feral swine degrade wetlands by wallowing and reducing 
vegetation along riparian corridors. They are especially attracted to 
wetlands as a means of thermoregulation and parasite control. Research 
in Texas demonstrated that feral swine remain within 25 meters of water 
24% of the time and within 100 meters of water 48% of the time. These 
wetland ecosystems are among the most fragile and imperiled in the 
country, but extremely important biological filters for our nation's 
water supply.
    The extent to which feral swine damage soils is not fully known, 
but, at a minimum, they have impacts comparable to dragging a plow 
through the soil without the subsequent benefit of planting a crop. 
This contributes to erosion, especially on seepage slopes, and leaves 
behind a number of pathogens that may persist in the environment for 
extended periods of time.
Urban Areas
    Due to high densities of feral swine in some regions of the U.S., 
populations are increasingly encroaching on urban areas, negatively 
impacting these environments and increasing potential contact with 
humans. Environmental impacts include rooting damage to golf courses, 
public parks, green spaces, lawns and other landscaped areas. Vehicle 
collisions with feral swine are also becoming more frequent threats to 
human safety. From 2007 to 2017, at least two fatalities occurred in 
Texas due to vehicle collisions with feral swine in the roadway.
Population Cont[r]ol Methods
    Various public policy positions regarding feral swine population 
management have created a complex suite of challenges, strategies, and 
opportunities. Generally, Producers favor eradication of feral swine to 
reduce damages to their respective agricultural enterprises and 
maintain healthy and functioning ecosystems. However, some Producers 
have elected to benefit financially from recreational opportunities 
provided by feral swine on the landscape, e.g., guided and unguided 
hunts. These incentives, in whatever form, for having feral swine on 
the landscape perpetuate their existence and population spread. Due to 
the overwhelmingly high financial and environmental cost of damage 
caused by feral swine, population control strategies are vital to 
protection of landscapes, native ecosystems, domestic animal 
populations and other important agricultural production.
Trapping
    Many techniques that were once effective for removing feral swine 
from the landscape are now obsolete. Research studies have shown that 
more than 70% of the feral swine population must be removed annually to 
actually reduce overall population numbers. The only available 
techniques capable of this level of control are trapping and Wildlife 
Services administered shooting from helicopter.
    Unfortunately, most conventional trapping mechanisms, such as a 
simple box trap or a larger corral trap, can only remove 50% of the 
feral swine population, but typically far less. Moreover, research 
suggests that the conventional do-it-yourself traps that were suggested 
by resource professionals in the past may actually be responsible for 
what Producers and professional trappers today call ``trap-shy'' pigs.
    Feral swine are highly intelligent. They travel in social groups 
referred to as ``sounders.'' When a portion of a sounder is captured in 
a conventional box trap or corral trap, it is commonly the most naive 
feral swine that are captured. The more wary animals remain on the 
landscape. These ``survivor'' animals then breed and contribute to 
future generations of feral swine that have the advantage of maternal 
guidance and are genetically wary. This natural selection for more wary 
populations has resulted in the need for development of more effective 
control systems and novel techniques to increase effectiveness and 
longevity of control.
    Noble Research Institute spent years investigating strategies to 
catch trap-shy feral swine. The current result of this research is a 
fully suspended trap that functions much differently than conventional 
box traps and corral traps. This fully suspended trap design has been 
commercialized and made available to Producers and other customers 
under BoarBuster<SUP>'</SUP> product name. Multiple years of research 
has shown that the fully suspended BoarBuster trap is capable of 
capturing 88% of feral swine in a population. BoarBuster trap-related 
research also revealed a higher capture rate than any other trap 
available on the market. Real-time trap monitoring and activation from 
a smart phone also saves Producers time and enhances the success rate 
for capturing entire sounders. This negates the problem of creating 
more trap-shy feral swine in the breeding population.
    While the BoarBuster trap system has proven to be a very effective 
control mechanism, Producers have a wide variety of control techniques 
to deploy at varying costs. There is no silver bullet to the feral 
swine problem. Agricultural resource professionals have previously 
urged Producers to employ an integrated approach to feral swine 
control, using multiple techniques in unison to achieve a cumulative 
effect. Unfortunately, Producers are not likely to have extensive 
experience with feral swine control when they first encounter damage on 
their farms and ranches. As a result, Producers often gravitate to the 
cheapest and easiest option first and not necessarily the most 
effective option. Education on area-specific best management practices 
that utilize the most effective technologies first is vital to 
successfully controlling the feral swine population. Producers must 
have access to the newest, proven technologies for feral swine control, 
and they must be strategic and adaptive in their practices, not simply 
apply an integrated approach.
Education
    Feral swine experts from research organizations, universities, 
state and Federal wildlife departments and other governmental agencies 
across the nation often collaborate to educate the public about feral 
swine biology, management, and control. This is accomplished primarily 
through county-wide or regional presentations, workshops, 
demonstrations, consultation, publications distributed to landowners, 
and more recently through videos, social media, and websites. State and 
Federal grants have extended the reach of Producer education on feral 
swine, but more coordinated educational programs and delivery are 
needed. As feral swine populations expand, it will be increasingly 
important to ensure Producers are fully educated on the proper 
management and control of this invasive species. Further, as Producers 
shrink in numbers across the United States, non-traditional educational 
methodologies will be necessary to reach land owners that are not 
necessarily connected to agricultural production.
    The continued collaboration and connection among feral swine 
experts is critically important to encourage new ideas and the 
dissemination of information across the U.S. Feral swine experts 
convene annually at the International Wild Pig Conference (even years) 
and the Wildlife Damage Management Conference (odd years) to educate 
one another on the emerging issues in feral swine control. The experts 
share information on the effectiveness of management strategies in each 
state. Some states have successfully halted or slowed feral swine 
population growth because of strategies they adopted or avoided based 
on experiences shared by colleagues in other areas of the country.
Continued Research
    Funding for continued research is also vital to future success in 
feral swine control. As the recipient of a USDA grant in 2015 that 
funded a collaboration between Noble Research Institute and the 
National Wildlife Research Center (``NWRC''), I can personally attest 
to the benefit of Federal funding for feral swine research. Through our 
work, we ultimately developed feral swine abundance estimates for 
measuring performance of management activities using catch per unit of 
effort data. Results of this study are now being used to evaluate the 
performance of feral swine control efforts around the U.S. and to 
monitor population levels in several states. Following the completion 
of this USDA-funded research, the collaborative relationship between 
Noble Research Institute and NWRC continued, allowing our organizations 
to collectively build educational and management tools for Producers.
    Federal funding is also contributing to research on introduction of 
a safe and effective toxicant for feral swine. Toxicants, which are 
already being utilized in other countries to combat feral swine, will 
be yet another tool for feral swine management. But again, they will 
not be a silver bullet to the feral swine problem.
    We anticipate that new funding available through the USDA's Feral 
Swine Control Pilot will result in truly innovative programs designed 
to educate Producers and increase efforts to control feral swine. Ideas 
that achieve marked success will be amplified across other areas of the 
country to further combat the exponential growth of feral swine 
populations. The Feral Swine Control Pilot further stands to benefit 
feral swine control professionals and the general public.
Conclusion
    Despite improved knowledge and innovative solutions being brought 
to the market, feral swine populations continue to grow at the expense 
of agricultural production, wildlife populations and native ecosystems. 
If left unchecked, feral swine could have devastating impacts on our 
nation's food supply, agricultural industry, and environment. Continued 
support for developing advanced feral swine control tools and 
strategies, conducting additional feral swine control research, and 
educating Producers on the most effective strategic and adaptive 
control practices is essential if the United States hopes to prevail 
over this invasive and prolific species.

    The Chairman. We thank you, Mr. Gaskamp for your important 
testimony.
    I notice that we have been joined by the Chairman of the 
House Agriculture Committee, and appropriately so we will defer 
to him for any comments or questions he may want to make at 
this time.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Chairman Costa.
    Dr. Thompson, welcome. I haven't had a chance to interact 
with you directly in this position. I have had a lot of 
experience with your predecessors who did outstanding jobs, and 
I am told that you are going to be better than they are, so we 
will see how that goes.
    Minnesota has been a leader in a lot of different areas. 
The poultry situation, as you mentioned, we learned a lot of 
lessons. And I guess you were the head of the Willmar Lab at 
one point, were you?
    Dr. Thompson. Yes, Members, Minnesota has two labs.
    Mr. Peterson. Yes.
    Dr. Thompson. One is located in Saint Paul and one in 
Willmar, which was well funded after avian influenza.
    Mr. Peterson. Yes. And that was because we learned our 
lesson and we had people taking turkeys to South Dakota to get 
them tested because they couldn't deal with it all, the 
distances and all that. We made a lot of progress and we 
learned a lot about biosecurity that we thought we had a pretty 
good system and it turned out we didn't. We had people working 
at six different turkey farms that were staying together at 
night and not showering and whatever and spreading this stuff. 
We learned a lot of things, and I think the industry is pretty 
much on top of it now as best as we can be.
    The one question I have is, as I understand it, the hog 
industry is kind of learning from what turkeys went through and 
our upgrading their biosecurity to make sure we don't have the 
same kind of things going on within the hog industry. Am I 
right about that?
    Dr. Thompson. Yes. Mr. Chairman, Members, that is very 
correct. In Minnesota we have stood up additional committees, 
taking a look at--and the disease of interest right now is 
African Swine Fever, but it could be foot-and-mouth disease, it 
could be any of a number of diseases. But yes, they are taking 
a look at all the things that have been learned from avian 
influenza. Specifically biosecurity but also surveillance, also 
some of those other things that need to be in place.
    Mr. Peterson. Right. As I understand it, the avian 
influenza thing went pretty fast. As I understand, the African 
Swine Fever is a slower moving virus, so I guess it has the 
potential to get ahead of it, easier than avian influenza? Am I 
correct about that?
    Dr. Thompson. That is a correct statement, Mr. Chairman, 
Members. The unfortunate thing about the way our hog production 
happens in the United States, though, is there is much more 
movement of hogs than there is turkeys, chickens, eggs. If it 
is slow moving and there aren't clinical signs, there might be 
movement of the disease prior to knowing about it.
    Mr. Peterson. Yes. Well, they are trying to do everything 
they can to get on top of it.
    A lot of people aren't aware, we had a TB outbreak up north 
that got transferred from deer to cattle, and we had to go in 
and do a quarantine and we basically took a 30\2\ mile area. 
Your predecessor, the State Veterinarian and the Federal Vet 
were involved and a bunch of us, and we made a decision to 
eradicate all the deer within 30 miles. We put helicopters in 
there and killed every deer and we got it under control and we 
eradicated it. And I don't know how long it took, a couple, 3 
years. Michigan didn't do that and they still have TB because 
they didn't do what needed to be done at the time when it broke 
out, and now they can't get ahead of it. So that is another 
example of why you have to be on the ball with this stuff.
    The only thing that troubles me about your testimony here, 
you say that there are two leadership positions that are vacant 
at USDA APHIS, and we put extra money into this in the farm 
bill. Why are these positions vacant? Do you have any idea?
    Dr. Thompson. Mr. Chairman, Members, I am not sure why 
those two positions are currently vacant. There has been some 
switch up in positions in Veterinary Services. As you all may 
know, Dr. Shere has moved into a different position. We know 
have Dr. Burke Healey heading up Veterinary Services, so there 
has been some movement, but the states are looking at those two 
positions and we would like to have those filled as soon as 
possible.
    Mr. Peterson. Can you see, at this point, any outcome out 
of this $300 million that we put in there? Do you see any 
upgrade in what is going on with APHIS from your position?
    Dr. Thompson. Mr. Chairman, Members, if you are speaking 
specifically of the farm bill funding, there was a call for 
proposals for training and exercise for this first year, and 
all state-related agencies, some universities, and some private 
groups have put in proposals for that money. We are waiting to 
hear back from USDA at this point in time. We are very excited 
about this opportunity.
    Mr. Peterson. And Mr. Gaskamp, is it? Over in Denmark they 
are building a wall. We are into walls in this world. But they 
are building a wall between Denmark and Germany. I actually saw 
the video of it. Because the feral hogs in Germany apparently 
have African Swine Fever and the industry in Denmark is scared 
to death that they are going to transfer these. They are 
actually building a double wall so that these hogs can't 
interact face to face.
    I don't know that we have any indication that we have 
African Swine Fever within the feral hog population in the 
United States. I guess one question, if you are aware of that? 
And the second thing is, how would the feral hog population 
acquire African Swine Fever? Do you have any information about 
that? Do any of you have any information, I guess?
    Mr. Gaskamp. Thank you for the question.
    African Swine Fever in countries where African Swine Fever 
is endemic, it persists in native populations of wild pigs as 
well as feral swine that are in those areas.
    Here in the United States, until we can really get a hold 
of actually controlling feral swine populations, we won't be 
able to have a good way to control African Swine Fever if it 
gets into feral swine populations. I am not an epidemiologist, 
so I don't know exactly how feral swine would get the disease, 
but they definitely can contract it from domestic livestock and 
vice versa.
    Mr. Peterson. Does anybody on the panel know how that 
would, could possibly happen if it could get transferred into 
the wild population?
    Dr. Thompson. Mr. Chairman, Members, one of the pathways 
that I can think of is African Swine Fever virus is very hardy, 
so if you think you are cooking it with salamis and different 
dried meats or cured meats, you might not actually be killing 
the virus. And if somebody throws out a sandwich that has some 
African Swine Fever infected meat in it and feral swine get a 
hold of it, that would be one pathway.
    Mr. Peterson. But we don't have African Swine Fever in the 
United States at this point that we know of, right?
    Dr. Thompson. Correct. That is correct, Mr. Chairman.
    Mr. Peterson. I know we have upped the things at the border 
and so forth trying to stop the stuff from China, but how would 
it--I guess that is one way. I guess it would have to get 
almost into the domestic population first before it got into 
the feral swine population, I would guess, right?
    Dr. Thompson. Mr. Chairman, Members, yes. That is probably 
the most----
    Mr. Peterson. Well, I have taken more time than I should, 
but thank you very much. Thank you all for your testimony, and 
I yield back.
    The Chairman. All right. We thank Chairman Peterson for 
your focus and always your insight as to the challenges we are 
facing on these issues and others.
    I would like to begin with the witness from California, Mr. 
Ortega.
    You noted in your testimony about the challenges you are 
facing with this invasive, non-native species called nutria 
that has also been a problem in other parts of the country.
    My understanding is you have funding for eradication for 2 
years, but what happens after that?
    Mr. Ortega. A serious deficit. No long-term funding has 
been secured. We think the effort will require about $5 million 
annually. Five million dollars currently will support 45 staff 
at the California Department of Fish and Wildlife.
    The Chairman. And the source of that funding is?
    Mr. Ortega. The San Joaquin Delta Conservancy has issued a 
one-time appropriation in the amount of $10 million. CDFW is 
also reallocating staff, biologists, to this effort, so those 
folks should be doing their normal day-to-day jobs, but yes, I 
figure that if we don't secure some long-term funding, we are 
going to have a real hard time controlling this outbreak.
    The Chairman. And are you aware of the experiences in 
Maryland and Louisiana and their eradication efforts and what 
sources of funding that they were able to bring together?
    Mr. Ortega. Yes, there was actually Federal funding 
available here in the East that currently do not extend to 
California through the eradication program.
    The Chairman. Well, that is something we ought to look at 
in terms of a comprehensive effort. If it is applicable in 
Maryland and Louisiana, obviously we think it would be 
appropriate in California. A lot of these efforts are a result 
of cost-sharing anyway, local, state and Federal, so we should 
work on that.
    You noted in your testimony again the impacts on waterways 
and levies and the importance of those waterways to deliver 
water to agriculture and urban water users. Could you talk more 
specifically. Have you had any cost analysis on potential 
impacts on agriculture?
    Mr. Ortega. No specific cost analyses have been conducted. 
The Central Valley is a very flat area and most of the water is 
wheeled through earthen-lined canals. And so the extensive 
burrowing that can occur can really compromise----
    The Chairman. I understand that is hundreds of feet and 
they establish these caves within these levies in which you 
will have colonies of nutria that begin breeding. And as you 
noted, after 4 months and 40 offspring, the propagation of this 
species obviously is very problematic.
    Mr. Ortega. That is right. Absolutely, yes. The burrowing 
is extensive and because of the density in these colonies, one 
example is they pulled a hundred nutria out of a 10 acre pond. 
They are very gregarious and they can attack specific 
infrastructure. If we don't start to get control of these and 
they do migrate into the Sacramento-San Joaquin Delta, I think 
that is the biggest threat that agriculture faces. The Delta is 
a highly managed system to provide water throughout the state.
    The Chairman. Well, Mr. Harder has legislation on that 
effort of which I am a cosponsor and I will continue to work 
with him. Hopefully he will get back here before the Committee 
finishes its hearing.
    Mr. Erickson and Mr. Reichert, you talked about the 
importance of the impact of trade, and I noted that in my 
opening comments. We all here on the Subcommittee believe that 
that is absolutely critical and to ensure that we have enough 
resources in our ports so that inspections are done thoroughly. 
That was part of the problem I had with this tomato seed issue 
in China where we had to try to provide some alternative 
support. And that is why, as you all noted, that Mr. Vela's 
legislation that many of us are cosponsoring to introduce 
Protecting America's Food and Agriculture Act to make sure that 
we can hire more ag inspectors at our ports-of-entry.
    What kind of backlog are you folks seeing due to the lack 
of inspectors, and what impact does that have on specialty crop 
growers and consumers?
    Mr. Erickson. It is not uncommon for--so we are a domestic 
producer but we do import product to complement our business, 
and we, I would say once a month on average perhaps, a couple 
times a month, we run into issues where a load of cilantro or 
broccoli crowns or something coming out of Mexico gets held up 
at the port-of-entry because of insect identification, and the 
local inspectors may not have the authority to identify that 
insect. Then the insect needs to be sent up to Washington, 
D.C., so it takes maybe, occasionally we see shipments that may 
take 3 to 4 to 5 days to receive an insect identification when 
it is something that is out of the ordinary, at which time we 
typically would have to dump the load or send it to the food 
bank. It would no longer be salvageable for us. It is not----
    The Chairman. More examples of that will be important as we 
try to move this legislation forward.
    Mr. Reichert, briefly do you have anything you would like 
to add?
    Mr. Reichert. Well, to follow up on Mr. Erickson's 
experiences we see about the same in the Port of Philadelphia. 
Generally we handle more of the imported commodities. Our CBP 
inspector staff is down by I believe four inspectors. Our APHIS 
inspector count is generally at six. We understand they are 
losing two of their people through a vertical integration. They 
have offers out there now for additional inspectors. Two would 
be the minimal. As Mr. Erickson said, the identifiers are also 
in need. Certain commodities if they cannot be inspected or 
identified locally must be sent down to Baltimore area, and 
that can in the----
    The Chairman. Bottom line is we need more help?
    Mr. Reichert. Yes, we do.
    The Chairman. Okay. I have exceeded my time and I would 
like to defer now to the Ranking Member of the Subcommittee, 
Mr. Rouzer, from North Carolina.
    Mr. Rouzer. Thank you, Mr. Chairman. Again, I thank each of 
you for being here today.
    We are talking about feral swine and their ability to 
harbor any number of diseases. Do we know exactly how many 
different diseases they can harbor? Is it thousands, hundreds 
of thousands, ten, 20?
    Mr. Gaskamp. That is a great question, Ranking Member 
Rouzer.
    We don't know exactly how many diseases swine can actually 
harbor. We know there are about 66 that are important to 
agriculture here in the U.S. That doesn't include some of the 
foreign animal diseases like foot-and-mouth and African Swine 
Fever, a funny story is that we work with a colleague out in 
western Texas at the Texas Institute for Environmental and 
Human Health. He has been very good at exploring new diseases 
that may be harbored in our swine populations, and every time 
he sends us some advice, ``Hey, maybe we ought to start testing 
for this,'' it seems that we find some prevalence of every 
disease we have tested for in feral swine. They are a huge 
reservoir for diseases that could harm U.S. agriculture.
    Mr. Rouzer. Following up on that, there is a great movement 
in the country, free range chickens, free range hogs, whatever 
you want to call it. In this case feral. I have a huge 
population center on the coast and then further inland it is 
all agriculture and I have a tremendous number of hogs, 
turkeys, and chickens that are produced in my district. And 
invariably every single week when I am back home I have two or 
three folks who will come up to me and say, ``I just really 
don't like the way that American agriculture, these factory 
farms, all these hogs put together, all these chickens put 
together, all these turkeys put together, how inhumane it is 
and everything else.'' It seems to me that we need to do a 
better job of talking about the risk with this movement out 
there to move to backyard production agriculture. There is 
after all a reason why we moved away from it. Economics is part 
of it, and sophistication and new techniques and new 
developments, et cetera. But in your circles, is anybody 
talking about this movement and the potential impact in terms 
of promoting and having an environment where you have even more 
infectious diseases that are much more difficult to control?
    Mr. Gaskamp. Absolutely, Ranking Member Rouzer. We have in 
the domestication process of many of these livestock species we 
incorporate these proper animal husbandry practices, and we 
haven't spoken a lot on wildlife species. Those wildlife 
species don't have those animal husbandry practices that 
protect them. When you take livestock species and move them out 
into more free range type scenarios you are putting them more 
at risk just like those wildlife species that are out there.
    Mr. Rouzer. From my education and to my knowledge, swine 
fever has no impact on human health. Is that correct?
    Dr. Thompson. Yes, that is correct. It affects only species 
of swine. There are no other species infected, including 
humans.
    Mr. Rouzer. Can the human body be a carrier of it, I 
assume, like all of us I assume have some type of dormant virus 
that we carry, although it may not show up?
    Dr. Thompson. That is an excellent question. No, the human 
body wouldn't be a carrier itself other than if there is some 
sort of virus that is picked up on clothing, on shoes, on 
things like that. But the body itself, no, the human body would 
not accept that virus.
    Mr. Rouzer. Okay. When you mentioned earlier today in the 
hearing where you throw out food that may be contaminated with 
swine fever, assuming that food is digested or ingested by the 
human body, it has no effect?
    Dr. Thompson. Mr. Chairman, yes, thanks for that 
clarification. No, it wouldn't be the humans eating the African 
Swine Fever. It would be a human having a sandwich that 
contains some of the virus and not eating the sandwich and 
throwing it out to the pigs.
    Mr. Rouzer. Right. But in terms of that portion of the 
sandwich the human ate, no, it does not stay in the human body?
    Dr. Thompson. Correct.
    Mr. Rouzer. Okay. Thank you for that clarification.
    One quick last thing, Mr. Reichert, there is a bill in 
Congress, as you may know, to ban the use of Chlorpyrifos, and 
if I am pronouncing that correctly, but it is a common, 
obviously a common insecticide that is used. There are 115 
cosponsors including some Members of this Committee that are on 
that bill. Is there a real problem with the EPA in terms of 
risk assessment, et cetera as it relates to that insecticide?
    Mr. Reichert. Ranking Member Rouzer, unfortunately I do not 
know the answer to that. My division specifies fumigation only. 
We do have a pest control division, so I could get than answer, 
but I do not know that.
    Mr. Rouzer. Okay, thank you. I yield back.
    The Chairman. Thank you, Ranking Member.
    And the next Member on our list here is Congressman Harder 
from just north of me in the great San Joaquin Valley, and he 
has a piece of legislation that deals with one of these issues 
that we were talking about earlier on non-native invasive 
species. Congressman Harder.
    Mr. Harder. Thank you, Chairman Costa and Ranking Member 
Rouzer.
    I appreciate the opportunity to testify about the threat 
nutria poses to the California Central Valley and I especially 
want to thank Congressman Costs for identifying ways USDA and 
the California Fish and Wildlife Service can work together to 
contain and eradicate these swamp rats.
    For folks who have no idea what a nutria is, all you need 
to know is this is a giant swamp rat which can destroy vital, 
vitally important parts of our agriculture, everything from 
crops, including almond trees, irrigation canals, they can even 
cause flooding by burrowing into water control systems and 
threatening our water infrastructure. And if we don't take 
action now, there could be 250,000 nutria just in California 
within 5 years, because one female can lead to 200 offspring in 
a year, 200. That is why I have introduced a bill that invests 
$7 million now to help our community and our country get ahead 
of this issue before it is too late.
    And to illustrate this, I brought this fantastic prop, 
which is called the Invasion Curve, thanks to the California 
Fish and Wildlife Service. I call it the nutria curve. We can 
also call it the feral hog curve. We will talk about that. And 
essentially what you see here is you see the exponential growth 
of an invasive species. You see that at the beginning you have 
the introduction of an invasive species. You see the first 
detection, then you see when folks are aware, and then when 
public awareness begins, and then finally when eradication is 
all but impossible when all you can do is have local control 
and management. And this is the cost of containment, obviously 
also exponential as the population grows.
    [The chart referred to is located on p. 86.]
    Mr. Harder. This is where we are right now on nutria. We 
are right here. We have detected the problem but eradication is 
still feasible. If we don't combat this problem quickly, pretty 
soon we are going to be right here. By the time the public 
awareness really begins, by the time you see these nutria all 
up in your farm, it is already too late to eradicate the 
problem completely.
    And you see the exact same thing, by the way, with what has 
happened in feral hogs. Feral hogs are actually an example of 
not taking this as seriously as we should have at the 
beginning. In the 1980s, wild pigs were where nutria is today, 
only found in a handful of states. But today they are found in 
35 states, costing $2.5 billion in damage annually. Some 
farmers in southern states lose up to 50 percent of their yield 
just from these pigs, and folks have to worry about 30 to 50 
feral hogs in their backyard attacking their kids.
    And so the farm bill has set aside $75 million over 5 years 
to address this crisis, but I wish what we would have done is 
actually addressed it years earlier, decades earlier, when it 
was still easier to eradicate it.
    And so my goal is to make nutria not the next feral hog 
infestation. We come from a state where there is a lot of 
droughts, floods, wildfires. We need to be able to get ahead of 
disasters, and invasive species are just the next one.
    And I hear a lot of my colleagues talk about fiscal 
responsibility and I couldn't agree more. By getting ahead of 
this problem now when it is still manageable, we are spending 
$7 million to eradicate this problem instead of spending $2.5 
billion every single year like we are on feral hogs. We 
actually end up saving a whole lot of money in the long run 
before they actually get out of control.
    And I want to thank the Administration for taking this 
issue very seriously, working with my office to identify a 
bipartisan bill that addresses the serious problem. And I also 
want to thank the Agriculture Committee for holding this 
hearing on this vitally important issue. We need to make sure, 
because the challenge here, just the last point I make is that 
by the time public awareness begins, eradication is very 
unlikely. And by the time folks really understand the depth of 
this problem, eradication is actually all but impossible. And 
so we have to get started now when we are seeing these invasive 
swamp rats all over. I mean, these things can get up to 30, 40, 
50 pounds. They are huge. And one female, 200 offspring, we 
have to be able to nip it in the bud.
    With that I yield back my time. Thank you so much, Mr. 
Chairman, and Ranking Member, and I look forward to hopefully 
getting our bill across the finish line.
    The Chairman. Well, we look forward to working with you. 
Before, I asked questions of Mr. Ortega who is dealing 
specifically with the problem in our area, and the example of 
the infestation in Maryland and in Louisiana resulted in 
Federal funding to match state and local, and so it is 
appropriate there is a precedent there. And I intend to work 
with you, and I hope other Committee Members, to move on this 
legislation working with the Department of Agriculture, because 
it is a very serious issue, as you noted.
    Okay. Our next Member is Mr. DesJarlais. No, it is, put my 
glasses on.
    Mr. Rouzer. Comer.
    The Chairman. Comer. I am sorry. Mr. Comer is from 
Kentucky.
    Mr. Comer. Thank you.
    The Chairman. Thank you.
    Mr. Comer. Thank you, Chairman.
    And I wanted to begin with talking about the feral hogs as 
well. I represent southern Kentucky and western Kentucky along 
the Mississippi River, and the mind-set in Kentucky is those 
feral hogs are just concentrated along the Mississippi River 
area. My farms are about 4 hours east of there and my brother 
killed one on his farm last year.
    I also wanted to note that just this week the--there was an 
announcement that the Kentucky Division of Fish and Wildlife 
will join the Forest Service in an attempt to kill the feral 
hogs from helicopters, and there was a picture of the--I know 
they had done that before in Kentucky, so Kentucky is serious 
about it. I was Commissioner of Agriculture and this was a big 
issue in several counties along the Mississippi and Ohio River 
parts of Kentucky.
    I was just curious, I will ask Mr. Gaskamp, is that 
something that other states are doing, working with the Fish 
and Wildlife to try to eradicate the feral hog population, and 
does that prove to be a good relationship in every state?
    Mr. Gaskamp. Thank you for the question. Absolutely, 
collaboration is key. When dealing with feral swine 
collaboration is key to get ahead of the problem.
    Aerial gunning is that practice that we refer to is, is 
basically Wildlife Services, USDA Wildlife Services getting in 
helicopters and administering control, lethal control via 
helicopters. That is happening in a lot of states in the South. 
Texas and Oklahoma, Kansas, have very active programs where 
Wildlife Services is flying and working on eradication in that 
regard.
    Mr. Comer. Yes.
    Mr. Gaskamp. In a couple of those states, in Texas and 
Oklahoma, we actually have commercial operators that are also 
selling hunts from helicopters and that sort of thing for the 
public to engage in.
    Aerial gunning has been proven to be one of those more 
effective techniques for removing swine, but those techniques 
need to be strategic in nature, designed for control and not 
for recreation.
    Mr. Comer. Right. Thank you.
    Dr. Thompson, I wanted to ask you, in my district we have 
five poultry processors and ours is the biggest poultry 
dependent district as any in America, in Kentucky. What is the 
status of programs to safeguard the health of poultry to 
prevent any type of livestock disease outbreak? How successful 
are we right now? I know there have been instances even in 
Kentucky and other states where you have had an outbreak of 
West Nile and different things like that.
    Dr. Thompson. And thank you for the question. Mr. Chairman, 
Members, there is a lot of work going on within our poultry 
industries right now. I am most familiar with what is going on 
in Minnesota, of course, but on the level of biosecurity, the 
lessons learned from High-Path Avian Influenza in the past 
years. In addition to that all poultry processors are working 
together with their producers on biosecurity audits.
    Mr. Comer. Yes.
    Dr. Thompson. And as an official state agency we are 
reviewing the audits of individual farms. On many different 
levels there is a lot of work going on right now.
    Mr. Comer. My last question I wanted to ask you, Dr. 
Thompson, pertained to black vultures. This has been a huge 
issue in Kentucky with my cattlemen. Of course, that was a 
protected species. We changed that. I assume we changed that in 
the farm bill. It was supposed to be changed in the farm bill 
last year. What success has Minnesota had. Very quickly, what 
success has Minnesota had with dealing with black vultures?
    Dr. Thompson. And I am afraid I would have to look into 
that. I am not aware of any issues with black vultures in 
Minnesota.
    Mr. Comer. All right.
    Okay. All right. Well, I will just conclude with a 
statement here.
    One concern that I hear from constituents and agencies 
overseeing the vulture issue in Kentucky, which is a huge issue 
with livestock producers, is that the Federal Government is not 
the most helpful when it comes to this. I know that that may 
come as a surprise to many of my farmer friends. I hear from 
several cattle producers that Fish and Wildlife Services keeps 
USDA and landowners from being able to manage this problem 
independently from the government. This is a classic example of 
government getting in its own way, and I believe this is an 
issue with a simple solution. I hope we can resolve it in a 
fast way, but I believe that farmers would be the best people 
to be able to resolve this issue on their farms, and I hope 
that is something that we can talk about as we move forward in 
trying to eradicate predatory species, especially the black 
vultures.
    But, Mr. Chairman, my time is out. I yield back.
    The Chairman. All right. I thank the gentleman, and I will 
now refer to the gentlewoman from the wonderful State of 
Connecticut, Representative Hayes.
    Mrs. Hayes. Thank you, Chairman Costa, for holding this 
important hearing, and thank you to all the witnesses for being 
here today.
    I don't have a visual, but I look forward to working with 
my colleagues on both sides of the aisle to get ahead of 
eradicating these species that are damaging many of our 
agricultural sectors.
    In Connecticut, my district in particular, it is home to a 
variety of greenhouses and poultry farms. According to the 
USDA, the greenhouse industry is the fastest growing 
agricultural sector in my state. The value of this sector to 
Connecticut's economy is estimated at $3.5 billion, according 
to the University of Connecticut.
    There are roughly 10.5 million square feet of greenhouse 
space in Connecticut that is used to cultivate climate-
controlled food crops, bedding plants, seasonal plants, 
vegetables, and herb plants.
    When it comes to poultry, Connecticut always leads the way. 
Henry Saglio, a pioneer in the poultry industry, hailed from 
Connecticut. He is a global leader in the industry and owner of 
Arbor Acres Chicken Farms. At Arbor Acres he developed breeding 
chickens for the world and played a pivotal role in making 
chicken America's most-consumed meat. His chickens would go on 
to be associated with products ranging from Campbell's Soup to 
Perdue. Not surprisingly, for a time chickens were the state's 
main export.
    In keeping in line with our rich history in poultry, the 
College of Agriculture, Health and Natural Resources at the 
University of Connecticut has a poultry farm and resource unit 
within their School of Animal Health.
    For these reasons, it is particularly important to me to 
work diligently to help farmers protect their poultry and 
greenhouses against wild, invasive, and non-native species. 
With that in mind, I would like to discuss greenhouses and then 
shift to poultry.
    Mr. Reichert, my district is a major producer of nursery, 
greenhouse, and floriculture products. At Western Fumigation, 
how do you address pest risks for imports and are they handled 
in the same way for fruits and other products? And then 
finally, are there any special considerations given to food 
versus non-food products?
    Mr. Reichert. Yes, thank you, Representative Hayes.
    As far as the pest risk assessment, those are generally 
handled through the USDA. Any time a new product or country 
wants to bring a new product into the U.S., they do have to 
apply for clearance. USDA will issue a pest risk assessment 
which will be put out to industry for comment, after which they 
will assign certain treatments based on the risk of an imported 
product. And it can be edible commodity or not edible 
commodity. Generally we just deal with the edible commodities. 
Most of the non-commodities are inspected prior to admission.
    Mrs. Hayes. Thank you.
    Dr. Thompson, your state has a vibrant poultry sector as 
well. We are located east of you, and as you discussed earlier, 
diseases spread by migratory birds. They tend to go west to 
east. How do you coordinate with other State Veterinarians, in 
say New England, so that those of us on the Atlantic Flyway can 
stay up to date and prepare for what is heading our way?
    Dr. Thompson. Thank you for that question. Mr. Chairman, 
Members, there are a variety of different ways that we 
communicate across states. Most importantly, I would bring up 
United States Animal Health Association. It is an association 
of all state regulatory officials, and specifically animal 
health officials. As part of that organization, we also have 
the National Assembly which is made up of only state animal 
health officials.
    Certainly, in my view, the best way to communicate with 
each other is picking up the telephone and calling somebody.
    Mrs. Hayes. Imagine that. Do you see the USDA taking a 
leadership role in convening some sort of discussions around 
those, like communication, best practices to make sure that we 
are ahead of any potential outbreaks or spreads?
    Dr. Thompson. Yes. That is a very good question. USDA does 
convene meetings on an ongoing basis depending on the disease 
and depending on the species.
    Mrs. Hayes. Thank you. That is all I have, Chairman Costa. 
I yield back. Thank you.
    The Chairman. Yes. All right, thank you very much, 
Representative Hayes.
    Our next Member is the gentleman from Minnesota, Mr. 
Hagedorn.
    Mr. Hagedorn. Thank you, Mr. Chairman, Ranking Member 
Rouzer. It is a pleasure to be here. I thank the witnesses for 
their testimony.
    First I would like to associate myself with Ranking Member 
Rouzer's comments about everything that you are doing is very 
important, but the number one important thing for agriculture 
right now is to get the United States-Mexico-Canada Free Trade 
Agreement through. It is very critical. It is going to help us 
build momentum for other deals with China and others. I say if 
we can't get a deal done with our best friends to the north and 
south, who expects the President and others to get something 
done with China? To my thinking that has to be the focus of 
this Committee and everyone else as we move out of here.
    Mr. Gaskamp, so we have had people from agriculture and 
others come up and talk with us about African Swine Fever, and 
I have always impressed upon them we should probably be doing 
more like they do in other countries, like Taiwan, to try to 
keep products out of their country coming from China. We even 
have a situation now where people check the box with customs 
and border security to say they have been on hog farms in 
China. They fly into our country. They are not even sometimes 
talked to, let alone investigated to see if they have any 
products or anything that would cause harm to us.
    Chairman Peterson brought up the point, though, about how 
would it get in the country, and we have talked about that. But 
I have said, it is one thing to try to protect the United 
States from African Swine Fever, but what about Mexico and 
Canada, particularly Mexico? We have a bit of a porous border 
there. Is it possible that we could get it just from these 
feral hogs being infected in Mexico, running over the border? I 
take it that they don't really pay attention to our borders, 
correct?
    Mr. Gaskamp. Thank you for the question. That is correct. 
We have done research just in, I mean, Oklahoma-Texas border is 
not the same border as the U.S.-Mexico border, but feral swine 
do not pay attention to boundaries, especially water 
boundaries.
    Feral swine, unfortunately they do, contrary to a lot of 
popular belief, feral swine do have home ranges. They don't 
just--they are not nomadic, roaming the landscape endlessly. 
Most of their geographic expansion has been the product of 
recreational hunting, increasing populations in areas for 
recreational hunting, and so fortunately an effort like that to 
keep, if African Swine Fever were to get into Mexico, for 
example, we could focus efforts along that border in order to 
keep it from moving. Now, you still have the issue of 
transportation on shoes and in bologna and all those things.
    Mr. Hagedorn. Sure.
    That is good to know. Thank you.
    Dr. Thompson, nice to see you today. Thank you for being 
here. If we ended up with a case of African Swine Fever in the 
State of Minnesota, which we hope never happens, it would be 
pretty devastating, right? It wouldn't just be our hog farmers, 
but it would be our crop farmers, our grain farmers, implement 
dealer, seed corn, everybody. It would be devastating to our 
economy. If that happened, though, I take it you have a plan or 
you have been working with people that have a plan on how to 
contain it? Can you share a little bit about that and who you 
might be working with in other states or the Federal Government 
in order to implement that?
    Dr. Thompson. Yes, thank you for that question. Members, 
for that I could go on for a long time to talk about how much 
planning we have been going through, Representative----
    Mr. Hagedorn. We only have a minute, 38.
    Dr. Thompson. Certainly, we have a variety of different 
committees that we have set up within the state, and very 
importantly when you talk about hog production, it is not only 
about production within the state but our systems that our hog 
systems that are located in Minnesota have connections and move 
pigs and move feed and move sows and move all sorts of things 
with other states.
    What we are looking at this as is a regional approach. We 
have pulled in, importantly, Iowa, but also other states within 
our region to start talking about and continuing to work on our 
plans of what is going to happen.
    In addition to that, very recently there was a nationwide 
ASF exercise, which I believe was 15 states highly involved 
with hog production we are involved with. It was a 3 day 
exercise. We looked at things like what does a stop-movement 
mean, how are we going to permit things from state to state, 
and some of those important issues. But I can tell you at any 
point in time during the week there is something going on 
within the Minnesota Board of Animal Health related to African 
Swine Fever.
    Mr. Hagedorn. Okay. Thank very much. With that I yield 
back.
    The Chairman. Gentleman yields back, and the next Member on 
the list is Mrs. Hartzler from Missouri, right?
    Mrs. Hartzler. Yes, absolutely.
    The Chairman. The ``Show Me State.''
    Mrs. Hartzler. That is right. Thank you, Mr. Chairman, and 
thank you, Mr. Gaskamp and all of you for being here.
    I grew up on a hog farm and so I am very, very supportive 
of pork production and very concerned about the feral swine 
issue that is all across our country, even in my district and 
part of south Missouri there. I am very interested in your 
testimony. You talked about the effectiveness of the BoarBuster 
suspended trap system. I have had a chance to see that. The 
Missouri Department of Conservation is recommending that as the 
eradication method. They are opposed to the hunting that some 
people are doing.
    What is your opinion about hunting?
    Mr. Gaskamp. Thank you for the question. Specific to feral 
swine, I am a hunter and feral pigs are fun to hunt.
    Mrs. Hartzler. Yes.
    Mr. Gaskamp. They really are and, however, the cultural 
mind-set around hunting for that particular species, for feral 
swine in particular, has increased its abundance, just like 
conservation efforts for native wildlife species. We promote 
populations from hunting. That mentality that has gone into 
feral swine management where, why would I travel 8 hours across 
the country to go on a pig hunt when I can own them right here 
in my back yard, or hunt them right here in my back yard. That 
mentality has increased populations across the country.
    Hunting still proves to be an effective control strategy in 
very limited cases where populations are very small, but in 
general we do not consider hunting a population control method.
    Mrs. Hartzler. Yes. Okay. You mentioned that toxicants are 
being used in other countries, but yet you say that we need 
more Federal funding to contribute to research on toxicants, so 
how come we can't just use the toxicants that other countries 
are using?
    Mr. Gaskamp. Well, so right now Australia is using 
toxicants for feral swine. They have about as many feral swine 
as they have people on the continent. There are a number of 
toxicants that we have been testing here in the United States. 
The primary challenges associated with toxicants are making 
those safe for humans to use, but more importantly, making them 
species specific so they don't affect other species, including 
humans. If a toxicant is administered, we can't be impacting 
native populations of wildlife.
    Mrs. Hartzler. You would say that the ones being used in 
Australia aren't really researched enough to make sure that 
they are safe for humans and other species?
    Mr. Gaskamp. Sure. Differences in Australia are they don't 
have a lot of omnivorous species. In the United States we do. 
The omnivorous species that Australia has are also other 
invasive species.
    Mrs. Hartzler. Okay.
    Mr. Gaskamp. In the U.S. we have black bears that could be 
impacted as well as others.
    Mrs. Hartzler. Last question with the feral swine. As you 
mentioned in your testimony, they are the most prolific large 
animal in the United States, early age of sexual maturity 6 to 
8 months, short gestation period, only 115 days for year-round 
breeding and farrowing. I have heard there has been some 
efforts trying to look at sterilization, and can you talk to 
those efforts in trying to stop----
    Mr. Gaskamp. I am not aware of any particular reproductive 
inhibitors, is the terminology we use in that space. I am not 
familiar with any reproductive inhibitors that are available or 
close to being available. They pose a lot of the same risks or 
challenges that toxicants do, making them specific to feral 
swine only. And there is--but there is work being done in 
several universities across the South trying to identify and 
develop those reproductive inhibitors.
    Mrs. Hartzler. Great. Well, thank you so much.
    Mr. Reichert, I was interested in your testimony about the 
fumigants and the testing that is important as we come into the 
ports. I was just wondering from a practical standpoint, can 
something be considered organic if it has been fumigated?
    Mr. Reichert. Thank you for the question, but no, there are 
no fumigants that are approved for use on organics.
    Mrs. Hartzler. Is that an issue with the growing demand for 
organics? Are we exposing ourselves to risk bringing in fruits 
and vegetables from other countries not fumigating them and 
bringing them in?
    Mr. Reichert. That certainly is a risk. The USDA does tend 
to focus on those for inspection when they come in, but again, 
they only inspect a certain amount of each lot of produce that 
is brought in, so they are not inspecting every single piece 
and things can be missed.
    Mrs. Hartzler. Just how much does it cost to fumigate one 
container?
    Mr. Reichert. It is generally between the $500 to $1,000 
range for our charges and then there are additional charges for 
the USDA.
    Mrs. Hartzler. Okay, great. Thank you very much for the 
information.
    I yield back.
    The Chairman. The gentlewoman yields back.
    And our next Member is Mr. Marshall from Kansas.
    Mr. Marshall. Thank you, Mr. Chairman. And my question is 
going to be directed to Mr. Gaskamp and Mr. Ortega, I am 
guessing.
    My concern is about a different invasive species. It is a 
plant invasive species. And I see you both have some grassland 
expertise.
    In Kansas our major rivers are lined with salt cedars. At 
least, that is what we locals call them. Salt cedars soak up 
hundreds, maybe thousands of gallons of water per day. I think 
of Rattlesnake Creek which flows into the Quivira Wildlife 
Refuge, and we are having some flow issues in that particular 
creek. I think of the Arkansas River. Some people call it the 
Arkansas River, but we call it the Arkansas River. It flows out 
of Colorado and across Kansas, and large portions of that river 
typically doesn't have water in it anymore, and it is also 
lined with salts cedars.
    Throughout the prairies now, grasslands, traditional red 
cedars have taken over many, many areas. I have talked to 
farmers who have mowed down cedars, and creeks that have never 
ran before started running again.
    Any experience on the impact of these on the water and 
long-term solutions? We mow the salt cedars down. It is real 
expensive to do. They grow back.
    Josh, Mr. Gaskamp, any experience with salt cedars and red 
cedars?
    Mr. Gaskamp. Thank you for the question. I have limited 
experience. I have more experience with the eastern red cedar. 
It is a native plant that is encroaching on rangelands across 
the southern Great Plains. We consider it invasive because it 
was, back in history it was relegated to steep drainages and 
things like that.
    Mr. Marshall. Right.
    Mr. Gaskamp. The suppression of prescribed fire has brought 
on that species, has grown the potential for it to invade 
grasslands. And so there is movement in a lot of the rangeland 
areas to re-implement prescribed fire back in our landscape. It 
is a process that our rangelands evolved with, fire and 
grazing, and so that is one way to deal with invasive red 
cedar.
    As far as the salt cedars, I have less experience with 
those. I do know that they establish from just clippings, so 
mowing them actually spreads them even more, and it is a very 
serious issue. There has been work done. I am not sure who has 
done the work, but to identify biological solutions of pests 
that does hinder its growth.
    Mr. Marshall. Thank you. Mr. Ortega, any experience with 
either of those?
    Mr. Ortega. Not specifically, but we do deal with invasive 
species of plants very regularly and I agree with the 
gentleman. You have to hit it hard with mechanically, 
chemically, and fire is probably the most cost-effective 
strategy.
    Mr. Marshall. Okay. Any other in the panel with experience 
with the plants? Okay.
    All right. Thank you so much, Mr. Chairman, and I yield 
back.
    The Chairman. All right. Everyone who wanted to participate 
this morning has had that opportunity to do so, and I will 
allow the Ranking Member to make any closing remarks before I 
close the hearing.
    Mr. Rouzer. Well, thank you, Mr. Chairman. I want to thank 
all of our witnesses for being here today. It was very helpful 
and instructive for me, and I appreciate you taking the time to 
share your expertise.
    Mr. Chairman, I will yield back.
    The Chairman. All right. I thank the Ranking Member Rouzer 
for your cooperation, and your staff always along with our 
staff, who did a very good job this morning.
    The witnesses came well prepared and focused on areas that 
normally the Subcommittee doesn't always get an opportunity to 
really weigh in on, and that is the impacts that invasive 
species, both native and non-native species, have on 
agriculture economy throughout the country, and as it relates 
to the foreign markets that we obviously are actively engaged 
in and have to deal with as it relates to phytosanitary 
standards and with our efforts to export. Of course we also 
import and it is a two-way street. I think the takeaways 
besides the specific comments that members, those of you who 
testified this morning, are--I would urge this Committee and 
the full Committee, if they are not cosponsors of Mr. Vela's 
legislation that focuses on improving staffing within the 
inspection services and also within the USDA, to look at that 
legislation carefully. It is worth supporting and it has a lot 
of merit.
    And in addition, while Mr. Harder's legislation deals with 
the invasive species of nutria, and specifically right now in 
California, we know with the invasions in Maryland and 
Louisiana that this very aggressive swamp rat, as Mr. Harder 
likes to refer to it, can in fact be a real problem in other 
areas of the country. And it deserves support as well, and we 
will be working with both authors on those pieces of 
legislation.
    Having said that, I want to thank again those who testified 
this morning and your cooperation with the Committee and we 
will look forward to continue to work with you. And if there 
are any follow up questions by Members of the Subcommittee, 
obviously we will forward them to you for your response.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplemental written responses from 
witnesses to any question posed by a Member.
    And, so at this point in time, hearing no objection, this 
hearing of the Subcommittee on Livestock and Foreign 
Agriculture is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Letter by Hon. Jim Costa, a Representative in Congress from 
California; on Behalf of James D. Ogsbury, Executive Director, Western 
                         Governors' Association
November 12, 2019

 
 
 
Hon. Jim Costa,                      Hon. David Rouzer,
Chairman,                            Ranking Minority Member,
Subcommittee on Livestock and        Subcommittee on Livestock and
 Foreign Agriculture,                 Foreign Agriculture,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chairman Costa and Ranking Member Rouzer:

    In advance of the Subcommittee's November 14 hearing on 
``Safeguarding American Agriculture from Wild, Invasive, and Non-Native 
Species,'' attached please find two Western Governors' items related to 
biosecurity and invasive species management:

  <bullet> Western Governors' Association Policy Resolution 2019-06 
        (http://www.westgov.org/images/editor/WGA_PR_2019-
        06_Biosecurity_and_Invasive_
        Species.pdf), Biosecurity and Invasive Species Management; and

  <bullet> the Western Governors' Biosecurity and Invasive Species 
        Initiative Special Report (http://westgov.org/images/editor/
        2019_WGA_BISI_REPORTvF.pdf).

    I request that you include these documents in the permanent record 
of the hearing, as they articulate Western Governors' policy positions 
and recommendations on this important issue.
    Please contact me if you have any questions or require further 
information. In the meantime, with warm regards and best wishes, I am
            Respectfully,
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
James D. Ogsbury,
Executive Director.
                              attachment 1
Policy Resolution 2019-06
Biosecurity and Invasive Species Management
A. Background
  1.  Per Executive Order 13751, ``invasive species'' means ``with 
            regard to a particular ecosystem, a non-native organism 
            whose introduction causes or is likely to cause economic or 
            environmental harm or harm to human, animal, or plant 
            health.'' This definition can include aquatic and 
            terrestrial plants and animals, forest and agricultural 
            pests, and pathogens.

  2.  The 2017-2027 Hawai`i Interagency Biosecurity Plan defines 
            biosecurity as ``the set of measures taken to manage the 
            risk from invasive species to the economy, environment, and 
            health and lifestyle of the people.'' This includes pre-
            border measures, border measures, post-border measures, and 
            measures that increase public awareness about invasive 
            species.

  3.  The Plant Protection Act of 2000 (Pub. L. 106-224) defines 
            ``biological control'' (biocontrol) as the use of 
            biological control organisms as an ``enemy, antagonist, or 
            competitor used to control a plant pest or noxious weed.'' 
            When used properly, biocontrol can be an effective tool in 
            efforts to manage and eradicate invasive species.

  4.  States have different definitions of biosecurity, biological 
            control and invasive species. They also may use regulatory 
            and non-regulatory terms that are related to, but not 
            synonymous with, the term invasive species, including pest, 
            nuisance species, noxious weed, and injurious wildlife.

  5.  Invasive species have substantial negative effects on ecosystems, 
            economies, and communities in the West. Studies have found 
            that invasive species cost the U.S. more than $120 billion 
            ever year, and the National Wildlife Federation estimates 
            that 42 percent of threatened or endangered species are at 
            risk due to invasive species. Invasive annual grasses such 
            as cheatgrass, medusahead, fountain grass, and ventenata 
            pose a major threat to western rangelands by increasing the 
            risk of wildfire, outcompeting native grasses, and 
            diminishing soil and water quality. Aquatic nuisance 
            species, including invasive quagga and zebra mussels, 
            decrease water quantity and quality, impair native 
            wildlife, harm hydroelectric and irrigation systems, and 
            can impede maritime transport by fouling vessel hulls. 
            Invasive pathogens affect human health and welfare, and 
            invasive species, such as mosquitoes, can vector human 
            diseases. Invasive species damage multiple types of 
            environments, from virgin forests to urban tree canopies. 
            Invasive species harm a wide variety of economies dependent 
            on natural resources, including agriculture, ranching, 
            tourism, energy production and transmission, and forest 
            products. Invasive species threaten many native plants 
            central to western life and the cultures of Native 
            Americans, Native Hawai'ians, Alaska Natives, and other 
            indigenous peoples.

  6.  The spread of invasive species results from a combination of 
            human activities, susceptibility of invaded environments, 
            climate change, biology of the invading species, and 
            dispersal. These characteristics are not dictated by 
            geopolitical boundaries, but rather by ecosystem-level 
            factors, which cross state and national borders. 
            Scientists, private landowners, and state and Federal land 
            managers across the West have expressed the need to develop 
            a more aggressive and cohesive strategy for invasive 
            species management that includes prevention, monitoring, 
            control, and eradication.

  7.  The impacts of invasive species on natural resources and human 
            health and welfare are similar in scope and intensity to 
            the threats posed by wildfire. Wildfire management on 
            Federal, state, Tribal, and local land is coordinated 
            through a sophisticated planning and response network, 
            which includes the National Interagency Fire Center (NIFC).

  8.  Many invasive species were introduced, or their distribution was 
            expanded, due to inadequate Federal and state regulations 
            dealing with interstate transport, international trade and 
            interstate commerce, and a lack of communication and 
            coordination between land management agencies.

  9.  Early Detection and Rapid Response (EDRR) is a coordinated set of 
            actions to find and eradicate potential invasive species in 
            a specific location before they spread and cause harm. The 
            Incident Command System (ICS) is a management system 
            designed to enable effective and efficient incident 
            management, including invasive species rapid response, by 
            integrating a combination of facilities, equipment, 
            personnel, procedures, and communications operating within 
            a common organizational structure.

  10. In the West, biosecurity and invasive species management is the 
            responsibility of a wide network of state, Federal, and 
            local agencies. Federal agencies manage invasive species on 
            Federal lands and waters under a complex system of mandates 
            and authorities.

  11. Cooperative agreements, grants, and procurement contracts between 
            Federal agencies and state and local invasive species 
            management authorities are effective in establishing 
            structured partnerships for collaborative invasive species 
            management. The use of cooperative agreements lessens the 
            burden on local Federal land managers, while increasing the 
            efficiency of invasive species management programs 
            utilizing local collaborative goal setting. Additionally, 
            cooperative agreements simplify project-based contracting 
            utilizing the authorities of state and local government 
            agencies. This can be extremely useful, especially where 
            infestations extend across multiple landownerships or EDRR 
            is the management objective.

  12. Good Neighbor Authority (GNA) allows states to enter into 
            agreements with the U.S. Forest Service (USFS) or Bureau of 
            Land Management (BLM) permitting them to perform various 
            land management activities on Federal lands. These tools 
            have been successfully used by forest and rangeland 
            managers to achieve various land management objectives 
            across Federal, state and local government, and privately-
            owned lands

  13. U.S. Department of Agriculture (USDA) regulation of interstate 
            movement of commodities via airlines is focused on the 
            protection of agricultural industries in the contiguous 
            United States. This is particularly evident in Hawai`i, 
            where baggage destined for the U.S. mainland is subject to 
            Federal inspection, while baggage moving from the mainland 
            to Hawai`i is not.

  14. Environmental DNA (eDNA) is DNA present in an environmental 
            sample, as differentiated from traditional sampling of DNA 
            directly from an intact organism. eDNA frequently is 
            thought of as DNA in tissue and cells that have been shed 
            by an organism but can also refer to DNA within an intact 
            organism, if that organism is collected in the 
            environmental sample. eDNA can be used to detect a wide 
            range of organisms, including those that are endangered or 
            invasive, and be used for both research and monitoring 
            purposes.

  15. The West includes a number of highly important seaports on the 
            U.S. mainland and across the Pacific region. Maritime 
            vessels represent a primary pathway for the movement of 
            aquatic invasive species. With the passage of the Vessel 
            Incidental Discharge Act in 2018, regulations regarding 
            ballast water and other discharges are centralized under 
            Section 312 of the Clean Water Act with the Environmental 
            Protection Agency setting environmental standards, the U.S. 
            Coast Guard (USCG) setting vessel requirements to meet 
            those standards, and the USCG and interested states 
            enforcing those requirements.

  16. State invasive species councils and invasive plant councils 
            provide policy level direction, planning, and coordination 
            for state-level biosecurity and invasive species prevention 
            and management actions in the West. Councils are led by 
            state agencies, nonprofit organizations, industry, private 
            landowners, and public-private partnerships. These groups 
            empower those engaged in the prevention, detection, and 
            eradication of invasive species, and serve as forums for 
            invasive species education, communication, and strategic 
            planning. Invasive species councils can collaborate on 
            regional-level issues and benefit from mechanisms that help 
            them to coordinate and solve cross-boundary, cross-
            jurisdictional challenges.
B. Governors' Policy Statement
  1.  Western Governors support the creation of a Western Invasive 
            Species Council (WISC) to help enhance coordination between 
            existing state invasive species councils, improve 
            communication and collaboration on regional biosecurity and 
            invasive species control efforts, and to advocate for 
            regional needs at the Federal level. The WISC should be 
            initially coordinated through the Western Governors' 
            Association and should work to address cross-boundary and 
            cross-jurisdictional challenges identified in this 
            resolution.

  2.  Western Governors urge Congress and the Administration to support 
            state, territorial, and Tribal invasive species prevention, 
            control and management programs and redouble efforts on 
            Federal lands. This should be accomplished through 
            accountability and oversight of programs administered by 
            the USDA, the U.S. Department of the Interior, the U.S. 
            Department of Defense, the USCG, and the National Oceanic 
            and Atmospheric Administration. These programs provide 
            valuable services in the detection and elimination of 
            invasive species, as well as coordination, public outreach, 
            and communication.

  3.  Western Governors support research as needed to provide 
            understanding of invasive species life potential range 
            distribution, and to develop geographically-appropriate 
            control measures. Western Governors urge Congress and the 
            Administration to support much-needed research on 
            biosecurity and invasive species, including programs under 
            the National Institute of Food and Agriculture and to 
            facilitate funding mechanisms that enable land grant 
            universities to conduct research and development of new 
            pesticides. Institutions conducting research on 
            biosecurity, biocontrol and invasive species control 
            methods should look for opportunities to pool funding 
            resources and exchange information across administrative 
            lines. Invasive species managers and policymakers should be 
            encouraged to develop new decision-making tools and 
            economic analyses, as well as build and improve upon the 
            decision-making tools and analyses currently in use. 
            Invasive species managers should strive to incorporate 
            economic analyses and regional-level, science-based 
            decision-making tools into management decisions.

  4.  Western Governors strongly encourage expansion and creation of 
            partnerships--such as invasive species councils with 
            representation from local weed and pest districts, 
            conservation districts, county governments, nonprofit and 
            industry organizations, local stakeholders, state, island, 
            Tribal, Federal, regional and international agencies--
            committed to preventing the spread of invasive species, 
            averting new unauthorized introductions, responding rapidly 
            to new introductions, and working together to find creative 
            regional approaches for protecting and restoring natural, 
            agriculture, power and water conveyance infrastructure, and 
            recreational resources. Federal agencies should build a 
            more sophisticated and centralized biosecurity and invasive 
            species management network, including a National 
            Biosecurity and Invasive Species Management Center based on 
            the model of the NIFC.

  5.  Congress and the Federal Government should ensure that invasive 
            species funding, including support for emergency response, 
            is sustainable, flexible and able to be maximized by 
            Federal, state and local agencies with pooled resources and 
            collaborative funding mechanisms. Federal funding, 
            cooperative agreements grants, and procurement contracts 
            for state and local biosecurity and invasive species 
            management should be structured in a deliberate and 
            transparent way that allows for the greatest amount of 
            flexibility and long-term planning. When possible, Federal 
            agencies should look for collaborative projects and funding 
            opportunities that multiply state resources and support 
            state-led biosecurity and invasive species management 
            projects.

  6.  Western Governors call upon Congress to promote state-directed 
            programs to combat invasive species. Regional leadership 
            and state-directed programs provide place-based solutions 
            tailored to unique regional or local conditions in land and 
            aquatic ecosystems. The Federal role should be one of 
            partnership and policy-making that strengthen states' on-
            the-ground efforts and mitigates risks associated with the 
            movement of invasive species between states.

  7.  Federal agencies are encouraged to expand the use of cooperative 
            agreements with state and local governments and should 
            ensure that they are approved in a timely manner and in 
            collaboration with implementing state agencies. Federal 
            agencies can also support invasive species management 
            efforts by encouraging contract recipients to coordinate 
            with state and local invasive species management agencies, 
            regulatory programs, and cooperative weed and invasive 
            species management areas. State invasive species managers 
            should consider using Good Neighbor Authority on USFS and 
            BLM lands for cross-boundary collaborative invasive species 
            control, management and eradication programs.

  8.  Federal actions should support state biosecurity and invasive 
            species management efforts by ensuring the timely approval 
            of state permits for biosecurity, quarantine, biocontrol, 
            and rapid response actions. Federal agencies should consult 
            with Governors early and substantively regarding 
            biosecurity or invasive species management decisions that 
            affect state resources and state actions.

  9.  Federal agencies should identify individuals within district and 
            region offices that can be contacted and assist in the 
            planning and implementation of local cross-boundary 
            invasive species management programs.

  10. The threats that invasive species pose to western landscapes and 
            communities are serious and should be met with a 
            sophisticated and coordinated response commensurate with 
            the level of their impacts.

  11. Prevention is the most efficient and cost-effective method of 
            invasive species management. Effective biosecurity, 
            prevention, and containment methods can mitigate the need 
            for more expensive and burdensome control and eradication 
            programs. Prevention strategies should be coordinated 
            across state, national, and international lines. Federal 
            and state agencies should increase the use of innovative 
            biosecurity prevention and detection programs, including 
            increased use of electronic manifesting in interstate 
            shipments for the purposes of inspection, and the use of 
            canine detection resources.

  12. Western Governors support the EDRR framework as a method to limit 
            or eliminate new introductions and existing species 
            expansion. Programs for the control and/or eradication of 
            invasive species must result in more on-the-ground 
            prevention, management and eradication. The ICS should be 
            evaluated for use in instances of fast-spreading invasives 
            and used as part of EDRR; state, Federal, and local 
            agencies can opt to practice and implement the ICS as part 
            of rapid response. The Federal Emergency Management Agency 
            can support these efforts by working with western states to 
            create an ICS training module for invasive species rapid 
            response. The Executive Branch can support state-led rapid 
            response programs by: (1) increasing Federal funding for 
            state-led aquatic invasive species rapid response programs, 
            including those that provide mechanisms for flexible, long-
            term support of state early detection rapid response 
            efforts; (2) streamlining Federal permitting and approval 
            processes for treatment and management actions for new 
            mussel detections; (3) creating a single Federal authority 
            for aquatic invasive species treatment permitting and 
            approval in freshwater systems; and (4) simplifying 
            reporting on new invasive mussel infestations by creating a 
            single Federal point of contact for new mussel detections.

  13. Federal agencies should support states' effort to identify, study 
            and approve the use of biological control organisms. 
            Federal permitting models should be structured to ensure 
            biocontrol can be utilized by states in a safe and timely 
            manner. Biocontrol research is encouraged at a regional 
            level, with biocontrol research information being 
            encouraged to move freely between institutions and across 
            state lines. Invasive species managers in the West would 
            benefit from the creation of a new, state-of-the-art 
            biological control facility, as well as a collaborative, 
            multi-agency plan for maintaining and staffing new 
            biocontrol facilities at a level that more adequately meets 
            the expanding needs of the region. Furthermore, effective 
            biocontrol, biosecurity, and invasive species research 
            depends upon a highly-skilled workforce. State and Federal 
            agencies should collaborate with universities to support 
            programs essential to biosecurity and invasive species 
            management, such as botany, zoology, plant pathology, 
            taxonomy, systematics, and related fields.

  14. The containment of invasive quagga and zebra mussels at infested 
            waters in the West depends upon the collaboration and 
            mutual effort of Federal, state and local agencies. Many 
            state-led containment programs benefit from Federal 
            cooperation and funding, and state and Federal agencies 
            should be encouraged to sustain and expand these effective 
            partnerships as necessary. However, to adequately protect 
            the West from the movement of aquatic invasive species, 
            Federal agencies must be able to act as full partners in 
            invasive species containment efforts and must have the 
            funding and authorities necessary to contain invasive 
            species within lands and waters under their jurisdiction. 
            To this end, Federal agencies, including the National Park 
            Service and BLM, should be vested with clear authority to 
            manage watercraft upon their departure from infested 
            waterbodies under Federal jurisdiction.

  15. Integrated pest management, biocontrol, outcome-based grazing, 
            and targeted grazing can be effective tools to control the 
            spread of invasive annual grasses. Federal, state, and 
            local agencies should view invasive annual grasses as a 
            regional threat and strive to identify and implement cross-
            boundary projects to control invasive annual grasses at a 
            regional level. Such projects should include those 
            utilizing alternative management techniques such as 
            outcome-based grazing.

  16. Agricultural industries in the Pacific Islands need to be 
            similarly protected from the risk of interstate movement of 
            invasive species as the contiguous U.S. mainland. USDA 
            quarantines and commodity inspections should incorporate 
            the priorities of the West, including noncontiguous states 
            and territorial islands in the western region. This 
            includes maintaining Federal quarantines on pests that have 
            not yet reached the West, like the emerald ash borer, and 
            adopting policies that adequately protect Pacific states 
            and territories, such as inspection of baggage moving from 
            the contiguous U.S. to non-contiguous areas.

  17. State, Federal and local agencies and regional coordinating 
            groups should develop and implement a set of best practices 
            for conducting eDNA monitoring and incorporating positive 
            detection results into rapid response strategies.

  18. To effectively prevent, contain, and control invasive species, 
            Federal, state and local invasive species managers need 
            Federal laws that support on-the-ground action. Western 
            Governors support a states-led review of Federal 
            biosecurity and invasive species statutes, including the 
            Lacey Act and the National Invasive Species Act, to 
            evaluate how they support on-the-ground management, 
            identify any gaps in their application, and ensure that 
            their structure and implementation are able to address 21st 
            century biosecurity and invasive species challenges. Of 
            particular interest are opportunities to expand the 
            taxonomic scope of the Lacey Act to benefit U.S. 
            biosecurity.

  19. As directed by the Vessel Incidental Discharge Act, the U.S. 
            Coast Guard and the Environmental Protection Agency should 
            consult with Western Governors and work closely and 
            collaboratively with states on the implementation of that 
            act to ensure that state and regional aquatic resource 
            protection needs are met across the West and the Pacific. 
            Federal and state partners should collaborate on the 
            development of evidence-based risk assessments and should 
            work together to assess the efficacy of policies and tools 
            that may be used in mitigating the impact of various types 
            of discharges, including hull biofouling. Western Governors 
            believe that protecting the diversity of marine habitats in 
            western states and Pacific territories is best accomplished 
            by working with states that have the greatest knowledge of 
            their ecosystems and invasive risks.

  20. Accurate, standardized, and accessible geospatial data is 
            essential to biosecurity and invasive species management in 
            the West. Western Governors support efforts to standardize 
            and centralize invasive species occurrence data, streamline 
            the exchange of data between the nation's major invasive 
            species data aggregators, and increase the accessibility of 
            data to Federal, state, and local land and resource 
            managers.
C. Governors' Management Directive
  1.  The Governors direct WGA staff to work with Congressional 
            committees of jurisdiction, the Executive Branch, and other 
            entities, where appropriate, to achieve the objectives of 
            this resolution.

  2.  Furthermore, the Governors direct WGA staff to consult with the 
            Staff Advisory Council regarding its efforts to realize the 
            objectives of this resolution and to keep the Governors 
            apprised of its progress in this regard.

          Western Governors enact new policy resolutions and amend 
        existing resolutions on a bi-annual basis. Please consult 
        westgov.org/resolutions for the most current copy of a 
        resolution and a list of all current WGA policy resolutions.
                              attachment 2
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Special Report
Biosecurity and Invasive Species Initiative
The Chairman's Initiative of Hawai`i Governor David Ige
2019
    Dear Friends and Colleagues,

    Life in the West is built on our unique landscapes: our natural 
resources, our agricultural production, and our communities. The West 
is a region of great diversity, from the dense rainforests of the 
Pacific Islands to the sprawling sagebrush sea of the Great Basin and 
beyond. A respect for, and reliance on, our natural environment gives 
meaning to western life and shape to the western character. The 
diversity of these resources forms the breadth of western culture and 
fuels some of our most important economic sectors, such as agriculture, 
ranching, recreation, and tourism.
    But the natural resources that define life in the West are under 
attack: Invasive species, including plants, animals, and pathogens, 
pose a significant threat to the western experience. Every day, 
populations of invasive species such as fire ants, fire-prone grasses, 
saltcedar, and tree-boring beetles expand into new territory, damaging 
and degrading native ecosystems. New invasive species are transported 
across borders daily, with each invader bringing the potential for 
permanent harm to the region.
    The damage done by invasive species is real, and their impacts on 
western ecosystems, economies and communities can be staggering. 
According to the National Wildlife Federation, approximately 42 percent 
of threatened or endangered species are at risk due to invasive 
species. The West has more federally-listed threatened and endangered 
species than any other region of the U.S. One study estimates that 
invasive species costs the U.S. more than $120 billion every year. A 
single species, the red imported fire ant (Solenopsis invicta), costs 
the mainland U.S. billions of dollars in economic damage each year and 
would cost Hawai`i hundreds of millions of dollars annually if it were 
to be introduced into the state.
    These invaders also threaten our culture. Here in Hawai`i, Rapid 
`Ohi`a Death, an invasive forest pathogen, continues to diminish 
populations of the native `Ohi`a, a tree at the heart of Hawai`i's 
culture and a foundational species of our native forests. This is a 
story familiar throughout the West, as multi-generational ranching 
communities face pressure from non-native annual grasses and Native 
American communities reliant on native salmon are negatively affected 
by aquatic nuisance species.
    We are not helpless in the face of these invasions. Biosecurity--
measures taken to manage the risk from invasive species to economies, 
environments, health and lifestyles--is an essential element in the 
fight against invasive species. Throughout the West, a network of 
state, Federal, Tribal and local biosecurity agencies strive to protect 
resources from new invading species. Simultaneously, a broad coalition 
of stakeholders work to monitor, control and eradicate invasive species 
once they have been established.
    My goal in launching the Western Governors' Biosecurity and 
Invasive Species Initiative was to examine the efforts of the West's 
dedicated biosecurity and invasive species professionals and to 
identify areas where Western Governors could support and enhance their 
work. To accomplish this goal, the Western Governors' Association 
hosted a series of workshops throughout the West, which brought 
regional leaders together to discuss how invasive species affect life 
in the region, how established species can be better managed, and how 
biosecurity practices can be improved to limit new introductions. These 
workshops were followed by webinars focusing on discrete issues arising 
from the workshops.
    This report's findings, recommendations, best practices and case 
studies are the culmination of that process. I encourage you to use 
this document as a bipartisan policy roadmap on the issue and to work 
with Western Governors as they implement the recommendations through 
the WGA Working Lands Roundtable and the Western Invasive Species 
Council.
    Thank you for joining me on this journey over the last year. I am 
grateful for all the hard work and investments made by our state and 
Federal partners, industry, private landowners and non-governmental 
organizations. I look forward to collaborating on the solutions to one 
of the most pressing environmental issues of our time.
            Sincerely,
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
David Y. Ige,
Governor, State of Hawai`i.

    Dear Friend of the West,

    As national politics have become more polarized--as our Federal 
Government has become more dysfunctional--people throughout the country 
(and of all political stripes) have increasingly looked to states and 
their governors for bipartisan leadership and solutions to problems 
facing our nation and region.
    Western Governors have risen to that challenge in a big way.
    Through the Western Governors' Association, the Governors have 
developed deliberative policy and generated creative ideas to sustain 
and develop the economies and environments of the great American West. 
I commend your attention to their detailed, substantive and policy-rich 
resolutions on energy, water, forest fires, species conservation, 
public lands management and a host of other critical resource issues. 
Though these detailed resolutions articulate measured and thoughtful 
principles, Western Governors are men and women of action. As valuable 
as their policy pronouncements are, the Governors prefer to get things 
done.
    It was with this mentality that WGA Chair and Hawai`i Governor 
David Ige launched the Western Governors' Biosecurity and Invasive 
Species Initiative. The Initiative has mobilized Western Governors to 
leverage their influence and resources to more aggressively confront 
the scourge of invasive species. The impacts of invasive species in the 
West are as pervasive as they are under-reported. The spread of noxious 
weeds threatens ranching communities and fuels wildfires. Invasive 
species can radically alter habitat, compounding threats to wildlife 
and endangering species. The competition that non-native species pose 
to native game impacts hunting and fishing. Industries across the 
West--including agriculture, forestry and tourism--are struggling to 
eradicate, contain and mitigate the insidious impacts of these 
invaders.
    Governor Ige's Initiative builds on a significant body of work 
executed by the Association in recent years. In 2016, for example, 
Western Governors formed the WGA Invasive Species Advisory Group, which 
provides technical assistance to inform our work on this critical 
issue. In the last year, the Association conducted the WGA Invasive 
Species Data Management Workshop, which produced new regional guidance 
for the interagency exchange of invasive species occurrence data. In 
2018, WGA published a compendium of the Top 50 Invasive Species in the 
West, a first-of-its-kind regional invasive species prioritization 
tool. And we continue to work collaboratively with the Department of 
the Interior to combat the spread of invasive quagga and zebra mussels 
in the West.
    The Western Governors' Biosecurity and Invasive Species Initiative 
represents an even greater commitment of resources and attention to 
this issue and these ongoing efforts. This report--which communicates 
specific recommendations and distills information generated by 
Initiative workshops, webinars and other channels--will help guide 
WGA's work on invasive species for years to come.
    Thank you for your consideration of the report's findings and for 
your interest in the work of Western Governors.
            Appreciatively,
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Jim Ogsbury,
WGA Executive Director.
Executive Summary
    The spread of invasive and non-native species affects nearly every 
aspect of life in the West. As invading species replace native plants 
and wildlife, the ecosystems, economies and communities that depend on 
the West's natural resources are damaged and diminished, sometimes 
permanently. Improving biosecurity and invasive species management 
practices is essential to protecting the West from new invading 
species, reducing the effects of established species, and restoring the 
region's working lands and native ecosystems.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Hawai`i Governor David Ige launched the Biosecurity and 
        Invasive Species Initiative as his central policy effort as WGA 
        Chair.

    Hawai`i Governor David Ige, Chair of the Western Governors' 
Association, launched the Biosecurity and Invasive Species Initiative 
in July 2018 in response to this challenge. The Initiative focuses on 
the impacts that nuisance species, pests and pathogens have on 
ecosystems, forests, rangelands, watersheds and infrastructure in the 
West, and examines the role that biosecurity plays in addressing these 
risks.
    The Biosecurity and Invasive Species Initiative commenced with an 
exploration of these issues through workshops hosted by Western 
Governors Brian Sandoval in Nevada, Matt Mead in Wyoming, Steve Bullock 
in Montana, and David Ige in Hawai`i. The workshops, which were live-
streamed to reach the widest possible audience, assembled leaders in 
biosecurity and invasive species management to discuss the challenges 
that invasive species pose to the West and identify opportunities for 
Western Governors to address those challenges.
    The workshops were followed by webinars that examined discrete 
issues surrounding invasive species management and control. Webinars 
examined several topics, including the effects of invasive species on 
fisheries, the role of conservation districts in invasive species 
management, and impacts of invasive species on Pacific Islands forests 
and ecosystems.
    This report presents the findings of the Initiative and recommends 
actions Governors can take to achieve the following goals:
    Protect the West from the introduction of new invasive species 
through enhanced biosecurity practices, preparedness, and planning. 
State and Federal agencies should develop state and regional level 
biosecurity plans and utilize new and emerging biosecurity 
technologies. A regional biocontrol research center should be 
established, and interagency collaboration on biocontrol research, 
permitting, and utilization should be improved and streamlined.
    Improve cross-boundary collaboration and coordination for the 
management of established and emerging invasive species. State, Federal 
and local agencies should strengthen existing invasive species 
coordination mechanisms and build new collaborative structures to 
improve invasive species management at a regional scale, including a 
new Western Invasive Species Council. Rapid response practices can be 
enhanced by expanding the use of the Incident Command System, 
conducting regular practice exercises, and establishing a Federal 
center dedicated to biosecurity and invasive species management.
    Empower state and Federal agencies to manage invasive species by 
aligning Federal laws, regulations, and funding mechanisms with states' 
needs. State and Federal agencies should have the funding and 
authorities necessary to effectively manage established and emerging 
species. Federal statutes and regulations should be structured to 
provide states greater flexibility with respect to invasive species 
funding, permitting, and rapid response. Federal regulations should 
reflect the broad diversity of habitat types and uses in the West. 
Where necessary, Federal law should make provisions to effectively 
protect all states, whether their habitats include arctic tundra, 
rangeland, or tropical forests.
    Support and utilize biosecurity research, technology and planning 
tools. Research and innovation are essential components of invasive 
species management in the West. State and Federal agencies should 
identify and seize opportunities to pool research funds, coordinate the 
employment of new technology, and develop new monitoring, analytical, 
and decision-making tools. Enhanced use of electronic manifesting for 
commodity shipments, detector dogs, in-water vessel cleaning, and other 
tools can increase our effectiveness in mitigating invasive species 
impacts.
    Standardize and mobilize invasive species data. Invasive species 
managers need access to accurate regional invasive species occurrence 
data to address invasive species at a landscape scale. However, 
technological barriers often prevent large amounts of useful invasive 
species occurrence data from being shared. As part of the Initiative, 
Western Governors will lead an effort to improve the mechanisms by 
which interagency invasive species data are standardized, stored and 
exchanged in the West.
    The Western Governors' Biosecurity and Invasive Species Initiative 
has provided a valuable regional forum to examine one of the most 
pressing natural resource issues in the West. The following report 
describes WGA's invasive species work in greater detail and will guide 
the Association's ongoing efforts.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Initiative workshops were hosted by, from top, Western 
        Governors Brian Sandoval of Nevada, Matt Mead of Wyoming and 
        Steve Bullock of Montana.
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Background
    The effects of invasive species on life in the West are as broad 
and diverse as the region itself. Nearly every acre of land and body of 
water is either host to an invading pest or pathogen or at risk of 
being invaded. The impacts of these invaders are sometimes easily 
overlooked; at other times they are clear, inescapable and devastating. 
Invasive species cause substantial cumulative harm to the West's 
natural and built environments, as well as to the communities and 
economies that depend upon those environments.
    Global economic losses caused by biological invaders were estimated 
at more than $1.4 trillion as far back as 2002.\1\ Another study 
highlighted that, in the U.S., nearly 50,000 foreign species were 
responsible for $120 billion in major environmental damages and losses 
annually.\2\ This estimate represents economic losses from 
environmental damages only; it does not capture substantial control 
costs or public health impacts. As much as \1/4\ of the U.S. 
agricultural gross national product is lost due to foreign pests \3\ 
and as much as 42 percent of the species on threatened or endangered 
species lists are at risk primarily because of alien invasive 
species.\4\
---------------------------------------------------------------------------
    \1\ Pimentel, D., McNair, S., Janecka, J., Wightman, J., Simmonds, 
C., O'Connell, C., . . . & Tsomondo, T. (2001). Economic and 
environmental threats of alien plant, animal, and microbe invasions. 
Agriculture, Ecosystems & Environment, 84(1), 1-20.
    \2\ Pimentel, D., Zuniga, R., & Morrison, D. (2005). Update on the 
environmental and economic costs associated with alien-invasive species 
in the United States. Ecological economics, 52(3), 273-288.
    \3\ Simberloff, D. (1996). Impacts of introduced species in the 
United States. Consequences, 2(2), 13-22.
    \4\ Wilcove, D.S., Rothstein, D., Dubow, J., Phillips, A., & Losos, 
E. (1998). Quantifying threats to imperiled species in the United 
States. BioScience, 48(8), 607-615.
---------------------------------------------------------------------------
    These estimates, however, may not fully reflect the toll of 
invasive species. Quantifying the effects of invasive species can be 
challenging because of the complexities of modern economies and the 
difficulty of monetizing biodiversity and ecosystem service benefits. 
Not only do invasive species impact local resources, they can combine 
with other environmental stressors, such as drought or climate change, 
to further diminish native ecosystems. These factors contribute to a 
lack of up-to-date regional-level economic impact studies and risk 
assessments, an information gap that can hamper land managers' ability 
to incorporate invasive species impacts into management decisions.
    Some invasive species infestations have grown to such an extent 
that they fundamentally change the landscape. For more than a century, 
for example, invasive cheatgrass has spread throughout the West. It is 
now present in every western state and, in some places, has permanently 
altered ecosystems. As little as one percent of cheatgrass groundcover 
can double the wildfire risk in an area; by some estimates cheatgrass 
covers more than 15 percent of the ground in 31 percent of the Great 
Basin.\5\ These conditions contributed to the 2018 Martin Fire, which, 
at more than 435,000 acres, was the largest wildfire in Nevada's 
history. In addition to increasing wildfire risk, cheatgrass reduces 
forage, outcompetes native vegetation, and diminishes habitat for 
native wildlife, including the greater sage-grouse. In Hawai`i, 
watershed forests are threatened by plants including Himalayan ginger, 
strawberry guava, and miconia. Miconia alone is estimated to cause 
roughly $700M in damage annually to Hawai`i's forests.\6\
---------------------------------------------------------------------------
    \5\ Bradley, B.A., Curtis, C.A., Fusco, E.J., Abatzoglou, J.T., 
Balch, J.K., Dadashi, S., & Tuanmu, M.N. (2018). Cheatgrass (Bromus 
tectorum) distribution in the intermountain Western United States and 
its relationship to fire frequency, seasonality, and ignitions. 
Biological invasions, 20(6), 1493-1506.
    \6\ Burnett, K., Kaiser, B., & Roumasset, J. (2007). Economic 
lessons from control efforts for an invasive species: Miconia 
calvescens in Hawaii. Journal of Forest Economics, 13(2-3), 151-167.
---------------------------------------------------------------------------
    Aquatic invasive species, such as quagga and zebra mussels, can 
pose similar landscape-level threats. These invasive mussels arrived in 
North America in the 1980s, and have since spread to nearly every major 
waterway in the U.S. They have caused substantial damage to water 
delivery systems, hydroelectric facilities, agriculture, recreational 
boating and fishing, and native wildlife. Once established in a 
waterbody the mussels are expensive to control and virtually impossible 
to eradicate. The damage to North American power plants and municipal 
drinking water systems can reach as high as $1 billion per year.\7\ If 
the mussels spread to the Columbia River Basin--the last major 
uninfested water system in the continental U.S.--the control costs in 
the Basin alone could reach $500 million annually.\8\
---------------------------------------------------------------------------
    \7\ Connelly, N.A., O'Neill, C.R., Knuth, B.A., & Brown, T.L. 
(2007). Economic impacts of zebra mussels on drinking water treatment 
and electric power generation facilities. Environmental Management, 
40(1), 105-112; Pimentel, D. (2005). Aquatic nuisance species in the 
New York State Canal and Hudson River systems and the Great Lakes 
Basin: an economic and environmental assessment. Environmental 
Management, 35(5), 692-702.
    \8\ https://www.nwcouncil.org/fish-and-wildlife/fw-independent-
advisory-committees/independent-economic-advisory-board/economic-risk-
associated-with-the-potential-establishment-of-zebra-and-quagga-
mussels-in-the-columbia-river-basin.
---------------------------------------------------------------------------
    Many other pests and pathogens continue to harm western 
communities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          A shoe encrusted with invasive mussels vividly illustrates 
        the impact of the rapidly spreading invasive species.

    Since it first emerged in the U.S. in 1999, West Nile virus has 
infected at least 17,737 people and caused 1,654 deaths.\9\ Chronic 
wasting disease, an emerging infectious disease that is fatal to free-
ranging and captive deer and elk, has been discovered in 24 states and 
continues to spread.\10\ In Hawai`i, invasive fungal pathogens are 
resulting in Rapid `Ohi`a Death, a vast die-off of endemic `Ohi`a trees 
that are crucial to Hawai`i's ecosystems and culture. The emerald ash 
borer has killed hundreds of millions of ash trees in North America and 
has caused lasting damage to native and urban forests since 2002.\11\ 
In Guam, the coconut rhinoceros beetle caused the native fadang tree, 
once the most abundant tree in Guam's forest, to be placed on the 
endangered species list in 2015.\12\ The beetle was detected in Hawai`i 
in 2013 in the area around Pearl Harbor and has been contained to that 
area thus far. The beetle is now threatening the native coconut palm, a 
tree central to the environment, economy, and culture of Guam, Hawai`i 
and other Pacific Islands.
---------------------------------------------------------------------------
    \9\ Barrett, A.D. (2014). Economic burden of West Nile virus in the 
United States. The American Journal of Tropical Medicine and Hygiene, 
90(3), 389.
    \10\ Carlson, C.M., Hopkins, M.C., Nguyen, N.T., Richards, B.J., 
Walsh, D.P., & Walter, W.D. (2018). Chronic Wasting Disease: Status, 
Science, and Management Support by the U.S. Geological Survey. U.S. 
Department of the Interior, U.S. Geological Survey.
    \11\ http://www.emeraldashborer.info/.
    \12\ https://cnas-re.uog.edu/crb/.
---------------------------------------------------------------------------
    This short list is merely illustrative of the harm that invasive 
species are causing in the region.
    In the West, biosecurity and invasive species management are the 
responsibility of a large network of state and Federal agencies, as 
well as stakeholders that include industry, nonprofit organizations and 
conservation groups, private landowners and private citizens. Each of 
these entities operates under a different set of laws, regulations, and 
authorities. Their capacities vary, as do their incentives, interests 
and objectives. Such a diverse network offers opportunities to 
implement creative and flexible biosecurity and invasive species 
management practices, but its decentralized nature creates challenges 
in developing and implementing sophisticated regional management 
strategies.
    It is with these challenges in mind that WGA Chairman Hawai`i 
Governor David Ige launched the Biosecurity and Invasive Species 
Initiative. Hawai`i is often called ``the invasive species capital of 
the world,'' not only because of the threats that invasive species pose 
to its native ecosystems, but also due to the groundbreaking and 
innovative work the state is undertaking to confront these threats. 
With the Initiative, WGA has drawn on Hawai`i's experience and 
harnessed Western Governors' unique ability to assemble state and 
Federal experts and a broad group of stakeholders to foster a 
bipartisan dialogue to improve regional coordination and collaboration 
to protect the West from invasive species.
    Through workshops, webinars, surveys and ongoing dialogue with 
stakeholders, Western Governors have made genuine progress on this 
formidable challenge. The Initiative has produced a new set of 
recommendations, best practices, technical tools, and collaborative 
frameworks to confront this pressing environmental issue and help 
preserve the West's natural heritage and resource economies for 
generations to come.
Findings and Recommendations
    The Western Governors' Biosecurity and Invasive Species Initiative 
assembled a wide variety of stakeholders over the past year to find new 
solutions to one of the oldest and most challenging environmental 
issues in the West. Surveys, workshops and a webinar series elicited a 
diverse set of perspectives from Federal, state, local and Tribal 
governments, researchers, higher education, industry, non-governmental 
organizations (NGOs) and conservation groups, private landowners and 
citizens.
    The comments, perspectives and opinions expressed by these 
stakeholders have been synthesized into these findings and 
recommendations, which are organized into key recommendations. Each 
recommendation includes steps that Governors, Congress, Federal 
agencies, and regional coordinating groups might take to improve 
biosecurity and invasive species management practices in the West. Also 
included are case studies highlighting specific invasive species and 
their associated management challenges and opportunities.

    Recommendation: Protect the West from the introduction of new 
invasive species through enhanced biosecurity practices, preparedness 
and planning.

    Biosecurity is the most cost-effective method of invasive species 
control. Stopping new invading species before they are introduced not 
only prevents any impacts on economic activities, it also protects 
natural resources and human health. Federal, state, Tribal and local 
agencies, as well as industry and private landowners, work diligently 
throughout the West to prevent the introduction of new invasive 
species. While many of these biosecurity programs work effectively, 
there is often a lack of communication between state, Federal, and 
local program managers, as well as a lack of regional interagency 
coordination. Biosecurity managers in the West should develop state and 
regional biosecurity plans, improve coordination and increase 
collaborative funding on biosecurity and biocontrol research projects, 
and increase the development and implementation of new biosecurity 
technologies.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                               Biosecurity
 
        The set of measures taken to manage the risk from invasive
     species to economies, environments, and health and quality of life
     for citizens.
------------------------------------------------------------------------

    Improve regional biosecurity planning. In January 2017, the Hawai`i 
Invasive Species Council adopted the Hawai`i Interagency Biosecurity 
Plan: 2017-2027. This plan provides state agencies in Hawai`i with a 
coordinated path forward to increase support for local agriculture, 
protect the state's environment, and provide safeguards for the health 
and lifestyle of Hawai`i's people.
    Other western states should consider following the Hawai`i model by 
developing state-level biosecurity plans. These plans could be used as 
the foundation to develop a first-of-its-kind biosecurity plan for the 
western region. Such a plan could help further prevent movement of 
invasive species by standardizing and regularizing biosecurity 
practices between state, Federal and local governments in the West.
    Increase international collaboration. The Initiative demonstrated 
that effective communication and collaboration of biosecurity and 
invasive species management across administrative boundaries is an 
evolving process. Cross-boundary communication presents a challenge to 
Federal, state and local agencies, but the challenge is even greater 
for international collaboration to address invasive species.
    State and Federal agencies should examine how they collaborate 
internationally on biosecurity and invasive species management issues 
and, when possible, consider developing formal and enduring agreements 
and communication structures with other countries. Improved 
international coordination on biosecurity and invasive species 
management has the potential to increase the effectiveness of 
monitoring, early detection and rapid response, and control and 
eradication programs.
    Create regional reciprocity between states for U.S. Department of 
Agriculture (USDA) baggage inspections. USDA regulation of interstate 
movement of airline baggage is focused on the protection of 
agricultural industries in the contiguous United States. This is 
particularly evident in Hawai`i, where baggage destined for the U.S. 
mainland is subject to Federal inspection, while baggage moving from 
the mainland to Hawai`i is not. Agricultural industries in the Pacific 
Islands need to be similarly protected from the risk of interstate 
movement of invasive species. USDA quarantines and airline baggage 
inspections should incorporate the priorities of non-contiguous states 
and territorial islands in the western region. This includes 
maintaining Federal quarantines on pests (such as the emerald ash 
borer) that have not yet reached the West, and adopting policies that 
adequately protect Pacific states and territories, such as inspection 
of baggage moving from the contiguous U.S. to noncontiguous areas.
  Workshop
  The Prevention, Control, and Management of Established Species
  Lake Tahoe, Nevada (Sept. 17-18, 2018)
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Nevada Gov. Brian Sandoval noted in his keynote that invasive 
        species ``can interrupt the very social fabric of the West.''

          The Biosecurity and Invasive Species Initiative workshop 
        series kicked off on the shores of Lake Tahoe in Stateline, 
        Nevada. The workshop focused on cross-boundary collaboration 
        and efforts to control, manage, and eradicate established 
        invasive species in Lake Tahoe and throughout the region.
          Nevada Governor Brian Sandoval delivered a keynote in which 
        he reminded the audience of what is at stake in the fight 
        against invasive species, asserting that ``Invasive species 
        impact nearly every economic sector that depends upon western 
        working lands, and by doing so they can interrupt the very 
        social fabric of the West.'' The Governor added that ``invasive 
        species are an underlying cause of many challenges in the West, 
        including the record 2018 wildfire in Nevada that swept across 
        439,000 acres, in many cases fueled by invasive cheatgrass. 
        That area will now be an area where invasive species will 
        flourish again.''
          WGA Executive Director Jim Ogsbury also spoke and highlighted 
        how ``Western Governors are using their convening power and 
        energy to confront the scourge of invasive species. The impacts 
        of invasive species in the West are as pervasive as they are 
        underreported.''
          The keynotes were augmented by a series of roundtables over 2 
        days moderated by California Secretary for Natural Resources 
        John Laird. Panelists from state and Federal agencies, 
        nonprofits, industry, and academia discussed issues such as: 
        the relationship between invasive species, wildfire, and 
        vegetation management; the economic impacts of invasive species 
        and tourism; and the implementation of new research and 
        technology in invasive species management.

    Increase use of innovative biosecurity prevention and detection 
programs. Western states should invest in tools and technology that 
increase the likelihood of interception and bolster the efforts of 
limited personnel. The use of electronic manifesting for imported goods 
allows agricultural inspectors to focus on those commodities designated 
as high-risk for carrying invasive species. Similarly, the use of 
detection dogs can greatly enhance interdiction efforts. A pre-
departure detection dog program for brown tree snakes on Guam, managed 
by USDA Wildlife Services, has saved Hawai`i and the mainland U.S. 
billions of dollars in damages and can serve as a model for the 
interdiction of other invasive species.
    Enhance regional biocontrol coordination. Biological control 
(biocontrol) can be an important component of invasive species control 
and integrated pest management strategies. Effective biological control 
is only possible through thorough and deliberate research, as well as 
effective interstate and Federal-state communication and collaboration. 
Federal decisions related to the use of biocontrol should only be made 
after Federal agencies engage in substantive consultation with 
implementing state agencies. The effectiveness and utilization of this 
important management tool could be improved by:

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
        Biological Control (biocontrol) is the reduction of pest
     populations by natural enemies (predators, parasites or diseases).
------------------------------------------------------------------------

  <bullet> Creating a regional biocontrol research center. For invasive 
        species that have established beyond land managers' ability to 
        conduct manual removal, biological control represents the most 
        cost-effective, and often only, option for large-scale 
        mitigation of invasive species. Invasive species do not 
        recognize state boundaries, and neither should research and 
        control efforts. Invasive species managers in the West would 
        benefit from the creation of a new, state-of-the-art biological 
        control facility, as well as a collaborative, multi-agency plan 
        for maintaining and staffing new biocontrol facilities at a 
        level that more adequately meets the expanding needs of the 
        region.

  <bullet> Establishing an interagency working group to improve 
        coordination and increase information exchange for biocontrol 
        research, permitting and utilization. As part of the Western 
        Invasive Species Council (see below), Western Governors will 
        convene a working group to explore the status of biological 
        control research, permitting and utilization in the West. This 
        working group comprised of representatives from state and 
        Federal agencies, academia, and private industry will examine 
        how stakeholders can better work together to promote the 
        development and utilization of safe and effective biocontrol 
        methods. The working group will also examine how biological 
        control actions are permitted by Federal agencies and how 
        states can exercise a more active role in permitting decisions.

    Recommendation: Improve cross-boundary collaboration and 
coordination for the management of established and emerging invasive 
species in the West.

    The management of emerging and established invasive species is 
conducted by a large network of public agencies, industry, private 
entities and NGOs. These entities often work to manage, control or 
eradicate invasive species for the benefit of specific resources such 
as wildlife, grazing, water, or hazardous fuel reduction. Many invasive 
species managers are also restricted, either by statute or by habit, to 
only implementing invasive species management at the level of their 
districts, management units, or specific area of geographic 
responsibility.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
        Executive Order 13112 ``invasive species'' means ``with regard
     to a particular ecosystem, a non-native organism whose introduction
     causes or is likely to cause economic or environmental harm or harm
     to human, animal, or plant health. States may have different
     definitions, as well as regulatory and non-regulatory terms that
     are related to but not synonymous with the term, including pests,
     noxious weeds and injurious wildlife.''
------------------------------------------------------------------------

    Invasive species are often not viewed as the cross-cutting, 
interdisciplinary resource threat that they truly are. States, Federal 
agencies, regional coordinating groups, and local invasive species 
managers should manage invasive species at a regional level by 
improving formal invasive species management coordination mechanisms 
and developing new and innovative ways to address key aquatic and 
terrestrial species. They also should utilize existing innovative tools 
for cross boundary management, such as Good Neighbor Authority and the 
Incident Command System.
    State and Federal invasive species managers would benefit from the 
creation of new coordination mechanisms for invasive species policy 
development, as well as the planning, implementation, and monitoring of 
regional management actions. To this end, the following coordination 
instruments should be created:
    Western Invasive Species Council: State invasive species councils 
and invasive plant councils provide policy level direction, planning 
and coordination for state-level biosecurity and invasive species 
prevention and management actions in the West. Councils are led by 
state agencies, nonprofit organizations, industry, private landowners, 
and public-private partnerships. These groups empower those engaged in 
the prevention, detection, and eradication of invasive species, and 
serve as forums for invasive species education, communication, and 
strategic planning. Invasive species councils collaborate on regional-
level issues and benefit from mechanisms that help coordinate and solve 
cross-boundary, cross-jurisdictional challenges.
    Western Governors support the creation of a Western Invasive 
Species Council (WISC) to enhance coordination among existing state 
invasive species councils, improve communication and collaboration on 
regional biosecurity and invasive species control efforts, and to 
advocate for regional needs at the Federal level. The Council should 
initially be coordinated through the WGA and work to address cross-
boundary and cross-jurisdictional challenges identified through the 
Initiative.
    A National Biosecurity and Invasive Species Management Center to 
streamline and centralize Federal invasive species management: 
Throughout the Initiative, stakeholders often compared the threats 
posed by invasive species to the threats posed by wildfire. Like 
wildfire, invasive species move rapidly once established, can have 
devastating effects on landscapes and communities, negatively affect 
public health, and require a sophisticated response from a wide variety 
of Federal, state and local agencies. Although invasive species present 
a landscape-level threat comparable to wildfire in terms of scope, 
scale and economic impact, Federal coordination mechanisms for 
biosecurity and invasive species management receive only a fraction of 
the Federal funding of wildfire coordination.
  Workshop
  WGA Working Lands Roundtable: Invasive Species and Restoration
  Cheyenne, Wyoming (Oct. 11-12, 2018)
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          The Working Lands Roundtable attracted regional experts such 
        as Bob Budd of the Wyoming Wildlife and Natural Resource Trust.

          The Initiative's second workshop was conducted as part of 
        WGA's Working Lands Roundtable, an effort to examine 
        crosscutting policy issues and engage a broad coalition of 
        stakeholders to advance WGA Chair Initiatives and other policy 
        priorities. The focus of the event in Cheyenne, Wyoming was on 
        efforts to restore western lands after invasive species 
        infestations have been controlled and eradicated.
          In his opening remarks, Wyoming Governor Matt Mead encouraged 
        participants to work within the WGA framework, which ``is 
        sincere about finding solutions and doing it in a bipartisan 
        way.'' He reminded attendees ``you are sitting here today 
        involved in a process that will work through the Western 
        Governors and have potential for change in Congress. Time here 
        is well spent because it can make a difference. This is a place 
        where answers can be found. This is not a place where 
        bipartisanship is just a talking point.''
          USDA Under Secretary for Natural Resources and Environment 
        Jim Hubbard participated in a panel on Restoration Challenges 
        in Fire-affected Landscapes. Hubbard observed how collaboration 
        with states is a central component of the new USDA Shared 
        Stewardship Initiative. ``The Shared Stewardship notion is that 
        the Forest Service is going to sit down with states through 
        Governors' offices and see what our shared priorities are.'' 
        The goal ``is to have a discussion about where to make 
        investments and, as much as possible, have mutual priorities'' 
        for active management of western forests and rangelands.
          The event also included a discussion on best practices and 
        policy tools to help restore native western ecosystems and 
        working lands after invasive species infestations. Additional 
        panels examined rangeland restoration, post-fire restoration, 
        and livestock and wildlife disease management.

    The National Interagency Fire Center (NIFC) in Boise, Idaho, 
coordinates wildfire response throughout the U.S. Through NIFC, 
Federal, state and local agencies develop regional wildfire 
preparedness strategies, coordinate wildfire response actions, and pool 
intelligence gathering and predictive services.
    To improve national interagency communication and collaboration on 
biosecurity and invasive species management, a National Interagency 
Biosecurity and Invasive Species Management Center should be created on 
the model of NIFC. Such a center should act as a nerve center for 
coordinating invasive species prevention, early detection and rapid 
response, and eradication efforts. The center should house 
representatives from all relevant Federal land management agencies, as 
well as interested states, local, and Tribal agency representatives.
    Develop new approaches to regional species. The spread of 
cheatgrass and other invasive annual grasses has become a critical 
threat to healthy western rangelands. These invaders fuel 
uncharacteristic wildfire, harm watersheds, outcompete native 
vegetation, and diminish wildlife habitat on a large scale. Similarly, 
invasive quagga and zebra mussels fundamentally alter infested 
waterbodies, diminishing water quality and quantity, imperiling native 
species, and driving up the cost of boating, irrigation and 
hydroelectric power generation. As an outcome of this initiative, WGA 
will work with the Western Invasive Species Council to:

  <bullet> Work with state, Federal and private entities to identify 
        and implement cross-boundary projects to control invasive 
        annual grasses at a regional level. Such projects should 
        include those using alternative management techniques such as 
        outcome-based grazing.

  <bullet> Continue efforts to improve the interagency management of 
        invasive quagga and zebra mussels in the West by hosting a WGA 
        Invasive Mussels Leadership Forum. The goal of the forum will 
        be to collectively determine common interagency priorities for 
        the prevention and containment of invasive mussels in the West 
        and identify a shared interagency strategy to address these 
        priorities.

    Utilize and expand the Incident Command System. The Incident 
Command System (ICS) can be a powerful tool for rapid response to new 
invasive species introductions. Federal, state and local agencies have 
increasingly been using ICS for rapid response efforts. Utilization of 
the system could be improved by the following practices:

  <bullet> Increasing state, Federal and local interagency preparedness 
        training exercises. The effective use of ICS depends upon 
        practice and preparedness training by emergency responders in 
        advance of incidents. State, Federal, local and Tribal agencies 
        can opt to practice and implement the ICS as part of rapid 
        response and strive to prepare for these responses through 
        increased interagency training and preparedness exercises.

  <bullet> Creating an aquatic invasive species (AIS) ICS module. To 
        improve and standardize interagency response to new invasive 
        species introductions, the Federal Emergency Management Agency 
        (FEMA) should work with states to develop a new ICS training 
        module for AIS rapid response.

    Identify and expand use of Good Neighbor Authority. Good Neighbor 
Authority (GNA) allows states to enter into cooperative agreements with 
certain Federal agencies permitting them to perform various land 
management activities on Federal lands. These tools have been 
successfully used by forest and rangeland managers to achieve various 
management objectives across Federal, state and local government, and 
privately-owned lands. State and Federal invasive species managers 
should learn from these successes and consider using GNA for cross-
boundary collaborative invasive species control, management and 
eradication programs.
    Utilize effective partnerships. Regional interagency stakeholder 
groups are key to the success of biosecurity and invasive species 
management in the West. When possible, policy-makers and invasive 
species managers should rely on these groups' expertise and 
collaborative frameworks.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Hawai`i Gov. David Ige described his state's battle against 
        invasive species as not only the ``right thing'' to do but work 
        that makes ``economic sense.''

    Recommendation: Empower state and Federal agencies to manage 
invasive species.

    State and local agencies--including conservation districts, 
collaborative weed management areas, and collaborative invasive species 
management areas--are key players in the fight against invasive 
species. These institutions are the tip of the invasive species 
response spear, providing the resources, local expertise, and on-the-
ground results necessary to control the spread of invasive species in 
the West. These agencies not only manage invasive species on lands and 
waters under their own jurisdiction, but also often provide direct and 
indirect support to Federal invasive species management programs.
    Whenever possible, Congress and the Executive Branch should support 
the efforts of state and local groups. Federal agencies should 
recognize the role these groups play in protecting Federal resources, 
and Federal funding mechanisms should be structured so that these 
groups have sustainable, predictable and flexible long-term funding for 
invasive species management actions. Congress and the Executive Branch 
should engage in early and substantive consultation on biosecurity and 
invasive species management decisions that affect state resources.
  Workshop
  Early Detection and Rapid Response
  Helena, Montana (Nov. 14, 2018)
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Rayola Jacobsen took part in the Montana workshop, which 
        included a focus on rapid respond to new infestations.

          The third Initiative workshop focused on efforts to monitor 
        for the introduction of new invasive species and rapidly 
        respond once new infestations are detected. Panels at the event 
        in Helena, Montana, moderated by Invasive Species Action 
        Network Executive Director Leah Elwell, also examined topics 
        like regional collaborative groups for invasive mussel 
        containment, international coordination on feral swine 
        management, and the use of emerging environmental DNA 
        technologies.
          In his keynote, Montana Governor Steve Bullock identified 
        invasive species and their associated impacts as one of the 
        ``great environmental and economic threats to western 
        landscapes.''
          ``This is not a local problem, but a global problem, one that 
        can impact virtually every facet of natural resource 
        management,'' said Gov. Bullock. ``Fortunately, I think that 
        view is starting to change and it's one that we can continue to 
        broaden through WGA. Land managers, policy makers, and the 
        general public are really working to discuss the broad 
        implications of invasive species on the western landscape.''
          WGA Executive Director Jim Ogsbury opened the workshop by 
        saying ``we are here to drive towards affirmative, positive 
        action. We are here to devise and lay the groundwork for 
        implementation of on-the-ground solutions to the scourge of 
        invasive species in the West. Because, as we have seen time and 
        again, no one is more capable than Western Governors to 
        approach land management challenges in a methodical, practical, 
        effective and bipartisan way.''

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
        Examples of effective collaborative and cooperative invasive
     species management programs include: the National Fish and Wildlife
     Foundation's Pulling Together Initiative; the Natural Resources
     Conservation Service's Working Lands for Wildlife Program; the U.S.
     Fish and Wildlife Service's Partners for Fish and Wildlife Program;
     and interagency collaborative programs under the U.S. Forest
     Service (USFS) State and Private Forestry Program.
------------------------------------------------------------------------

    Federal agencies should also be provided with the full suite of 
authorities necessary to control and contain the movement of invasive 
species in lands and waters under their jurisdiction.
    Provide necessary Federal authorities. The containment of invasive 
quagga and zebra mussels at infested waters in the West depends on the 
mutual effort of Federal, state and local agencies. Many state-led 
containment programs benefit from Federal cooperation and funding; 
state and Federal agencies should be encouraged to sustain and expand 
these effective partnerships. However, to adequately protect the West 
from the movement of aquatic invasive species, Federal agencies must 
act as full partners in invasive species containment efforts and have 
the funding and authorities necessary to contain invasive species 
within lands and waters under their jurisdiction. To this end, Federal 
agencies, including the National Park Service and the Bureau of Land 
Management, should be vested with clear authority to manage watercraft 
upon their departure from infested waterbodies under Federal 
jurisdiction.
    Consult with states on biosecurity decisions. Congress and Federal 
agencies must ensure early and substantive consultation with states 
regarding biosecurity and invasive species management decisions that 
affect state resources, including:

  <bullet> Federal pest quarantine decisions can affect state 
        ecosystems, economies and public health. USDA's Animal and 
        Plant Health Inspection Service should consider effects on 
        state resources and strive to engage with states in early and 
        substantive consultation when making pest quarantine decisions.

  <bullet> State and local agencies are leaders in on-the-ground 
        biosecurity and invasive species management. Federal funding, 
        cooperative agreements, grants, and procurement contracts for 
        state and local biosecurity and invasive species management 
        should be structured in a deliberate and transparent way that 
        provides for the greatest amount of flexibility and long-term 
        planning.

    Review Federal biosecurity and invasive species statutes. Federal, 
state and local invasive species managers need Federal laws that 
support on-the-ground action to prevent, contain and control invasive 
species. Western Governors encourage the Western Invasive Species 
Council to lead a state review of Federal biosecurity and invasive 
species statutes--including the Lacey Act, the National Invasive 
Species Act, and the Nonindigenous Aquatic Nuisance Prevention and 
Control Act--to evaluate how they support on-the-ground management, 
identify gaps in their application, and ensure their structure and 
implementation addresses 21st century biosecurity and invasive species 
challenges. Of particular interest: opportunities to expand the 
taxonomic scope of the Lacey Act to benefit U.S. biosecurity.
    Utilize cooperative agreements. Cooperative agreements, grants and 
procurement contracts between Federal agencies and state and local 
invasive species management authorities establish structured 
partnerships for collaborative invasive species management. Cooperative 
agreements lessen the burden on local Federal land managers, while 
increasing the efficiency of invasive species management programs and 
enabling local collaborative goal setting. Additionally, these 
agreements simplify project-based contracting by using the authorities 
of state and local government agencies. This can be extremely useful 
where infestations extend across multiple landownerships or the 
management objective is early detection and rapid response.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Springer Kaye of the Big Island Invasive Species Committee 
        makes a point during a panel on Integrated Pest Management.

    Federal agencies should be encouraged to expand the use of 
cooperative agreements with state and local governments and ensure that 
they are approved in a timely manner and in collaboration with 
implementing agencies. Federal agencies can also support invasive 
species management efforts by encouraging contract recipients to 
coordinate with state and local invasive species management agencies, 
regulatory programs, and cooperative weed and invasive species 
management areas.
    Provide collaborative and flexible funding. Formal and informal 
collaborative efforts involving Federal, state, local and Tribal 
governments, researchers, higher education, industry, NGOs, 
conservation groups, and private landowners are a source of place-based 
expertise and responsive invasive species management actions. Invasive 
species managers should participate in inter-agency programs and 
collaborations that include private landowners and implement cross-
boundary biosecurity invasive species management actions. Congress and 
the Executive Branch should support these programs and ensure that they 
benefit from long-term, stable and flexible funding that bolsters 
state, local and private invasive species management efforts.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
        The Bureau of Reclamation defines environmental DNA (eDNA) as
     ``DNA present in an environmental sample, as differentiated from
     traditional sampling of DNA directly from an intact organism. eDNA
     frequently is thought of as DNA in tissue and cells that have been
     shed by an organism but can also refer to DNA within an intact
     organism (usually microscopic), if that organism is collected in
     the environmental sample. For eDNA analysis, samples are collected
     from the environment and DNA is then extracted from the full sample
     or some fraction of it.
        eDNA assays allow surveillance for the presence of an organism
     in an environment without having to collect the whole organism
     itself . . . Because the purified eDNA is a mixture representing
     multiple species and individuals present in the environment, this
     technique can be used to detect a wide range of organisms,
     including those that are endangered or invasive, and be used for
     both research and monitoring purposes.'' (source: https://
     www.usbr.gov/mussels/docs/eDNA.pdf)
------------------------------------------------------------------------

  Workshop
  Biosecurity and Agriculture
  Kohala Coast, Hawai`i (Dec. 9-10, 2018)
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Jules Kuo of the Hawai`i Department of Natural Resources took 
        part in the panel ``Pre-Border Detection and Prevention 
        Strategies.''

          The Initiative's final workshop was held on the Kohala Coast 
        of Hawai`i. The event began with a field trip to the Pu`u 
        Wa`awa`a Forest Reserve, where participants learned about the 
        detrimental impacts that invasive species have on watersheds as 
        well as some of the ways that the Hawai`i Department of Lands 
        and Natural Resource is reducing those impacts through invasive 
        species removal, hazard fuel control, and native tree planting.
          Hawai`i Gov. David Ige opened the workshop the next day by 
        highlighting his state's significant work to battle invasive 
        species as not only the ``right thing,'' but work that makes 
        ``economic sense.''
          The Governor observed that ``too often, we focus on managing 
        and eradicating invasive species once they are established. 
        However, it is more effective and cost-efficient to prevent 
        these harmful invaders from entering our lands in the first 
        place. That is why enhancing border biosecurity is a key 
        component to invasive species management.''
          Panelists then participated in a discussion of pressing 
        issues related to biosecurity and invasive species management 
        in agriculture, with panels on pre-border prevention and 
        detection strategies, the economic impacts of invasive species 
        on agriculture, and the use of biocontrols.
          Moderator John Laird, California Secretary for Natural 
        Resources, offered closing remarks reflecting on the Initiative 
        workshop series. ``One goal of the workshops has been to 
        broaden the conversation about invasive species, their impacts, 
        and the work being done to prevent their movement. By that 
        measure, I feel that these workshops have been an outstanding 
        success.'' Laird added: ``The work of preventing, controlling, 
        and eradicating invasive species will never end, and neither 
        will the work of improving the way that agencies collaborate to 
        address these risks.''

    Coordinate state and Federal aquatic invasive species inspection, 
decontamination and quarantine programs. Aquatic invasive species 
coordination groups have worked with the National Sea Grant Law Center 
(See [Case Study]) to develop a set of best practices for aquatic 
invasive species containment. These efforts have improved interagency 
communication and coordination on such containment in the West. Federal 
agencies should work to promote and implement these best practices in 
invasive species response efforts.
    Support state-led rapid response programs. Prevention and 
containment are the most effective methods to control the spread of 
invasive species, particularly invasive quagga and zebra mussels. Once 
a species is no longer contained, however, state-led rapid response 
programs represent key efforts to control their spread. Congress and 
the Executive Branch can support state-led rapid response programs by 
taking the following steps:

  <bullet> Increasing Federal funding for state-led aquatic invasive 
        species rapid response programs, including those that provide 
        for flexible, long-term support of state early detection rapid 
        response efforts;

  <bullet> Streamlining Federal permitting and approval processes for 
        treatment and management actions for new mussel detections;

  <bullet> Creating a single Federal authority for aquatic invasive 
        species treatment permitting and approval in freshwater 
        systems;

  <bullet> Simplifying reporting on new invasive mussel infestations in 
        states by creating a single Federal point of contact for new 
        mussel detections.
  Case Study
  National Sea Grant Law Center
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          nsglc.olemiss.edu/.

          The National Sea Grant Law Center at the University of 
        Mississippi School of Law is a nationally-recognized resource 
        for information on aquatic invasive species (AIS) laws and 
        policies. The Law Center has undertaken extensive research on 
        ballast water management in the Great Lakes and published 
        articles related to genetic biocontrol of invasive species and 
        the impact of climate change on marine invasions.
          The Law Center began conducting dreissenid mussel law and 
        policy work in 2012. That year, Oregon Sea Grant, in 
        partnership with the Law Center, U.S. Fish and Wildlife 
        Service, and the Western Regional Panel on Aquatic Nuisance 
        Species, secured funding from the National Sea Grant College 
        Program to support a ``Collaborative Learning Workshop for 
        Assistant Attorneys General, Aquatic Invasive Species 
        Coordinators, and Law Enforcement Officials'' in Phoenix, 
        Arizona.
          To enhance collaborative learning during the Phoenix 
        workshop, and to answer questions state agencies and AIS 
        Coordinators had about authorities for watercraft inspections, 
        decontaminations and quarantine, a team of Law Center staff and 
        law students identified key legal issues that needed to be 
        addressed in the region. Background papers were drafted for 
        workshop attendees, which were further developed into five 
        articles published in the Arizona Journal of Environmental Law 
        and Policy. The law review articles covered a range of topics 
        including the Lacey Act, 4th Amendment search and seizure 
        issues, and state privacy laws.
          Following the Phoenix workshop, the Law Center, in 
        collaboration with the Association of Fish and Wildlife 
        Agencies (AFWA), led efforts to develop a model legal framework 
        for watercraft inspection and decontamination (WID) programs. 
        In April 2014, the Law Center and the AFWA released 
        ``Preventing the Spread of Aquatic Invasive Species by 
        Recreational Boats: Model Legislative Provisions & Guidance to 
        Promote Reciprocity among State Watercraft Inspection and 
        Decontamination Programs.'' The ``Model Regulation for State 
        Watercraft and Inspection Programs'' was released in December 
        2016 and the ``Model Memorandum of Understanding [MOU] for 
        Watercraft Inspection and Decontamination Programs'' in 
        December 2018. With the publication of the Model MOU, 
        policymakers and regulators now have access to a model legal 
        framework identifying model WID provisions from legislation 
        through implementation.
          To assist state natural resource managers and policy-makers 
        in identifying commonalties, differences, and gaps among 
        states, the Law Center undertook a review of each state's WID 
        laws and regulations to see how each state's program compared 
        to the authorities set forth in the Model State Legislative 
        Provisions and Model Regulation. This companion report, updated 
        in December 2018, contains a summary of the Law Center findings 
        for all 50 states and detailed state-by-state comparisons for 
        the 19 states with WID programs. This analysis has provided 
        crucial information in support of state legal reform efforts to 
        address identified gaps. In 2017, for example, 12 states and 
        the Tahoe Regional Planning Commission engaged in legal reform 
        efforts related to their WID programs.
          To support this policy work, the Law Center conducts 
        extensive legal research and provides technical assistance to 
        western state partners. The Law Center maintains a compilation 
        of AIS laws and regulations relevant to WID programs in the 
        western United States. The Law Center prepares summary 
        documents to inform legal reform efforts upon request. For 
        example, in July 2016, the Law Center prepared a memo on state 
        ``Clean, Drain, and Dry'' provisions and related requirements 
        to inform discussions of the Western Association of Fish and 
        Wildlife Agencies (WAFWA), which subsequently led to WAFWA 
        adopting a resolution on drain plugs and vegetation removal.
          The Law Center also conducts and publishes scholarly research 
        related to invasive species. In addition to the law review 
        articles mentioned above, in 2016, Law Center attorneys 
        authored a law review article entitled ``Working Together to 
        Combat Invasive Species Threats: Strategies for Facilitating 
        Cooperation between the National Park Service and the States.'' 
        This article was included in a special issue of the Natural 
        Resources Journal commemorating the 50th Anniversary of the 
        National Park Service. In 2014, the Law Center director 
        contributed a chapter in Climate Change Impacts on Ocean and 
        Coastal Law: U.S. and International Perspectives entitled 
        ``Confronting the Marine Invasive Species Threat: Practical and 
        Legal Challenges.''

    Work collaboratively with states to implement the Vessel Incidental 
Discharge Act. The U.S. Coast Guard and the Environmental Protection 
Agency should consult with Western Governors and states on 
implementation of the Vessel Incidental Discharge Act to ensure aquatic 
resource protection needs are met across the West and the Pacific. 
Federal and state partners should collaborate on the development of 
evidence-based risk assessments and assess the efficacy of policies and 
tools to mitigate the impact of various discharges, including hull 
biofouling. Protecting marine habitats in western states and Pacific 
territories is best accomplished by working with states that have the 
greatest knowledge of their ecosystems and invasive risks.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          WGA Executive Director Jim Ogsbury highlighted the Western 
        Governors' collaboration to ``confront the scourge of invasive 
        species.''

    Recommendation: Support and utilize new biosecurity research, 
technology and planning tools.

    Research and technology development are essential components of 
biosecurity and invasive species management. Emerging technologies may 
lead to solutions for some of the West's most intractable challenges. 
By utilizing new research, technology and planning tools, invasive 
species managers can dramatically increase the effectiveness and cost-
efficiency of invasive species management actions.
    State and Federal agencies can support biosecurity and invasive 
species research by encouraging invasive species workforce development, 
pooling research funding, and improving biocontrol information 
exchange. Invasive species managers can implement new research and 
technology by encouraging the development of modeling, risk-assessment 
and decision-making tools, as well as improved regional invasive 
species economic impact analyses.
    Improve and utilize environmental DNA monitoring. Monitoring 
environmental DNA (eDNA) can be an effective tool to assess new aquatic 
invasive species introductions. State, Federal and local agencies and 
regional coordinating groups should develop and implement a set of best 
practices for conducting eDNA monitoring and incorporating positive 
detection results into rapid response strategies.
    Encourage biosecurity and invasive species education and workforce 
development. Effective biosecurity and invasive species management 
depends on a dedicated and highly-skilled workforce. State and Federal 
agencies should collaborate with universities to support programs 
essential to biosecurity and invasive species management, such as 
botany, zoology, plant pathology, taxonomy, and systematics.
    Take advantage of new research and technology. Emerging research 
and technology can dramatically increase the efficiency and 
effectiveness of biosecurity and invasive species management actions. 
When possible, state and Federal agencies should evaluate and utilize 
emerging technologies in areas such as remote sensing and monitoring, 
unmanned aircraft, use of artificial intelligence for species 
identification, and the use of innovative targeted grazing practices. 
Congress should continue to support research as a fundamental component 
of effective invasive species management.
    Pool research funding. Institutions conducting research on 
biosecurity, biocontrol and invasive species control methods should 
look for opportunities to pool funding resources and exchange 
information across administrative lines. By pooling resources, state, 
Federal and private researchers can decrease redundancy and increase 
the efficiency of research funding. Pests and pathogens that affect 
wildlife at a regional scale, such as chronic wasting disease and elk 
hoof disease, present unique threats to western resources that would 
benefit from pooled resources and collaborative research efforts.
    Encourage the development and use of decision-making tools. 
Biosecurity and invasive species decision-making tools help land 
managers examine invasive species management issues at a regional level 
and make sound, science-based decisions. Examples of these tools 
include risk-assessments, modeling programs, and prioritization tools 
such as the WGA Top 50 Invasive Species in the West.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
        WGA Top 50 Invasive Species in the West. Individual states have
     developed invasive species risk assessments within their
     boundaries, but previously no such list existed for the entire
     western region. WGA surveyed invasive species coordinators in its
     member states and territories to develop the ``Top 50 Invasive
     Species in the West,'' a first-ever regional prioritization tool.
------------------------------------------------------------------------

    Invasive species managers and policymakers should be encouraged to 
develop new decision-making tools, as well as build and improve upon 
the decision-making tools now in use. Invasive species managers should 
strive to incorporate regional-level, science-based decision-making 
tools into management decisions.
    Develop and utilize economic assessments. The costs associated with 
invasive species management, both in terms of lost economic activity 
and control costs, are substantial but often poorly understood. 
Biosecurity and invasive species managers need to understand these 
costs in order to develop effective prevention and control strategies. 
Too few regional-level biosecurity and invasive species economic impact 
studies exist, however, and existing analyses are often too 
infrequently updated to reflect changing conditions.
    State and Federal land managers should be encouraged to develop new 
biosecurity and invasive species economic analysis tools and implement 
these tools into management decisions. When possible, state and Federal 
agencies should pool resources to develop regional-level invasive 
species economic impact assessments.
    Support National Institute of Food and Agriculture programs. The 
USDA National Institute of Food and Agriculture (NIFA) operates several 
agricultural, biosecurity and biocontrol research programs that 
facilitate state efforts to prevent the introduction of new invasive 
species. The programs are focused on detection and diagnostics, 
regulatory systems support, and development and deployment of new pest 
management systems and protection technologies.
    Among these programs are the Tactical Sciences Initiative, which 
develops and deploys tools to protect food and agriculture production 
systems against threats from pests, diseases, contaminants and 
disasters. Congress and the Executive Branch should continue to support 
and expand needed research on biosecurity and invasive species, 
including work accomplished under NIFA such as the Tactical Sciences 
Initiative.

    Recommendation: Standardize and mobilize invasive species data.

    High-quality information is essential in the fight against invasive 
species in the West. Land managers, conservation groups, industry and 
private landowners need access to accurate, up-to-date regional 
invasive species occurrence data. Technological barriers often prevent 
large amounts of useful invasive species occurrence data from being 
shared. Western Governors are leading an effort to improve how 
interagency invasive species data is standardized, stored and exchanged 
in the West.
    Standardize Invasive Species Data. On March 14-15, 2018, WGA held a 
workshop that focused on the interagency management and exchange of 
invasive species occurrence data in the West. The WGA Invasive Species 
Data Management Workshop in Denver, Colorado, convened 27 
representatives from state and Federal agencies, NGOs, industry, and 
other groups. The goal of the workshop was to develop a set of 
agreements to improve the reporting, exchange and utilization of 
invasive species occurrence data by state and Federal agencies, 
invasive species data aggregators, private landowners, industry, and 
other stakeholders. The workshop outcomes were memorialized in the 
workshop's Findings and Recommendations document.
    Western Governors encourage all public and private invasive species 
data managers to consider the findings and recommendations developed at 
the WGA Invasive Species Data Management Workshop, and to record, 
store, and exchange invasive species occurrence data using common 
regional standards and formats whenever possible.
    Mobilize Invasive Species Data. As an outcome of the Initiative, 
Western Governors will lead a new ``Invasive Species Data Mobilization 
Campaign'' to increase the availability of invasive species occurrence 
data to all land managers in the West. Through the campaign, WGA will 
work with Federal, state, local and Tribal governments, researchers, 
higher education, industry, NGOs and conservation groups, private 
landowners and citizens. The goal will be to encourage stakeholders to 
enter data that is not recorded using a common standard or is not 
shared or recorded using a common data aggregating platform into 
existing invasive species data management platforms as described in the 
Findings and Recommendations document.
Webinars

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Giant Salvinia.

    Webinar: Biosecurity and Invasive Species Initiative Launch.

    WGA Chair and Hawai`i Governor David Ige highlighted the importance 
of invasive species management in the West and the Initiative's goals 
and deliverables. WGA Policy Advisor Bill Whitacre then moderated a 
discussion with leaders in invasive species data management that 
showcased the outcomes of the WGA Invasive Species Data Management 
Workshop, an effort to improve the interagency exchange of invasive 
species occurrence data in the West.
    Moderator: Bill Whitacre, WGA Policy Advisor. Panelists: Chuck 
Bargeron, Associate Director for Invasive Species and Information 
Technology, University of Georgia; Pam Fuller, Program Leader, 
Nonindigenous Aquatic Species Database, USGS; Stinger Guala, Director 
of Biodiversity Information Serving Our Nation, USGS; Jamie Reaser, 
Executive Director, National Invasive Species Council; Lori Scott, 
Interim President & CEO, NatureServe.

    Comments included:

          ``We've developed the Hawai`i Interagency Biosecurity Plan to 
        establish a path forward to a more secure future where Hawai`i 
        is better protected from new invasive species threats, and to 
        better mitigate our current threats.''
                                                    Governor David Ige.
          ``All invasive species management is local. When you start 
        telling the story about these problems, you need to make sure 
        that the data is available at a larger level in order to paint 
        an accurate picture of what the problem is and what the next 
        one might be.''
                                                        Chuck Bargeron.
          ``We try to provide the national view of aquatic species: 
        where they are, where they have been, and where they're moving. 
        We also keep track of pathway information. We are trying to 
        serve land managers with this information.''
                                                            Pam Fuller.
          ``BISON (Biodiversity Information Serving Our Nation) is the 
        place to go for a geographically and taxonomically 
        comprehensive overview. That's why the data management piece is 
        important to us; we're trying to do national-scale views of 
        where the deepest problems are in invasive species.''
                                                         Stinger Guala.
          ``There's a step beyond just sharing the data. There's a 
        necessary collaboration around the development and open access 
        to the decision support tools that move the data in a direction 
        needed by decision-makers, whether in policy or land 
        management.''
                                                          Jamie Reaser.
          ``In building this integrated system, we're thinking about 
        data standards not only for moving data back and forth, but 
        moving data in a way that doesn't end up ballooning on 
        itself.''
                                                            Lori Scott.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Native salmon.

    Webinar: Invasive Species Impacts on Fisheries.

    Land managers and invasive species experts discussed the impacts of 
invasive species on fisheries in the Pacific Northwest. Speakers from 
Washington highlighted the management challenges related to northern 
pike in the Columbia River Basin. Panelists also discussed the effects 
of non-native predation of salmon in Alaska.
    Moderator: Justin Bush, Executive Coordinator with the Washington 
Invasive Species Council. Panelists: Joe Maroney, Director of Fishery 
and Water Resources, Kalispel Tribe of Indians; Parker Bradley, 
Invasive Species Research Biologist, Alaska Department of Fish & Game; 
Laura Robinson, Program Liaison Coordinator, Northwest Power & 
Conservation Council.

    Comments included:

          ``Predation of northern pike has really wide-reaching 
        impacts. In the Columbia River Basin, over $1 billion has been 
        invested in salmon recovery over the last 2 decades. This 
        investment and the progress made towards recovery of those 
        species are directly threatened if northern pike continue to 
        spread downstream of the Columbia River and they begin to prey 
        on salmon and steelhead.''
                                                           Justin Bush.
          ``Managers local to the Columbia River Basin need to be 
        concerned about what they're going to do (about northern pike). 
        It's better to do something now than to do something later 
        because the costs associated will be significantly less.''
                                                           Joe Maroney.
          ``We have evidence that pike specifically target salmon. When 
        pike are introduced to a new area that also have salmon, often 
        they will target salmonids, and when those populations become 
        depleted or extirpated then they'll shift their diet over to 
        other species of fish . . . finally they'll move on to 
        invertebrates because that is all that is left.''
                                                        Parker Bradley.
          ``Working across jurisdictions allows for really wonderful 
        things like coordination and collaboration, but it can also 
        make reaching an agreement difficult. An invasive species in 
        one state could be a game fish in another.''
                                                        Laura Robinson.

    Webinar: Conservation Districts and Invasive Species Management.

    Representatives from conservation districts in Hawai`i, Oregon and 
New Mexico discussed innovative, cross-boundary efforts to manage 
invasive species. Panelists also highlighted how Natural Resources 
Conservation Service (NRCS) programs and funding can facilitate 
invasive species management on private land.
    Moderator: Travis Thomason, Director Pacific Islands Area, NRCS. 
Panelists: Mae Nakahata, Director, Maui County Soil and Water 
Conservation District; Michelle Delepine, Invasive Species Program 
Manager, West Multnomah Soil and Water Conservation District; Lindsey 
Karr, WeedWise Specialist, Clackamas Soil and Water Conservation 
District; Debbie Hughes, Executive Director, New Mexico Association of 
Conservation Districts.

    Comments included:

          ``I learned from experience that if I wanted to be successful 
        with any conservation program, whether it be Federal, state, or 
        local, it needed to be done hand-in-hand with conservation 
        districts.''
                                                       Travis Thomason.
          ``Conservation districts help provide immediate boots on the 
        ground who are aware of local risks. It is important to be able 
        to take immediate action when circumstances change.''
                                                          Mae Nakahata.
          ``Garlic mustard is considered an ecosystem modifier. It has 
        been documented to cause ecosystem imbalance where it becomes 
        established. It is a highly elastic plant that adapts easily to 
        different growing conditions and climate.''
                                                     Michelle Delepine.
          ``Conservation district partnerships can help address gaps in 
        management. Invasive weeds don't pay attention to property 
        lines. Public land managers will often treat a weed only for it 
        to be re-infested by a neighboring property on private land. 
        Conservation districts can step in and work with private 
        landowners to address this challenge.''
                                                          Lindsey Karr.
          ``Many of the ranches we work on are checkerboard ranches of 
        private, state and Federal land. Being able to use farm bill 
        funding on BLM and USFS land has made a huge difference in 
        being able to leverage resources and form partnerships.''
                                                         Debbie Hughes.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Coconut Rhinoceros Beetle.

    Webinar: Innovative Approaches to Addressing Forest Health & 
Invasive Species in the Pacific Islands.

    Invasive species can have particularly devastating effects on 
specialized island ecosystems and economies. Panelists discussed the 
unique challenges related to invasive species prevention and control in 
the U.S. Pacific Islands.
    Moderator: Bill Whitacre, WGA Policy Advisor. Panelists: Susan 
Cordell, Director, Institute of Pacific Islands Forestry, U.S. Forest 
Service; Pua Michael, Head Forester, Division of Forestry, Palau Bureau 
of Agriculture; DJ Sene, American Samoa Community College, Agriculture, 
Community and Natural Resources Division; Chelsa Muna-Brecht, Director, 
Guam Department of Agriculture.

    Comments included:

          ``Many island species are highly endemic and have lost their 
        ability to compete with invasive species. These systems are 
        more vulnerable to invasion from the get-go. Once an invasive 
        species becomes established, it can create cascading effects 
        system-wide.''
                                                         Susan Cordell.
          ``Our Congress passed a `Green Fee,' which is a tax built 
        into the ticket price to come to Palau. The fund helps support 
        marine and terrestrial environments. The funds are working 
        really well, and we are now looking at ways to expand outside 
        of protected areas to prevent invasive species from entering 
        sensitive areas.''
                                                           Pua Michael.
          ``Increased funding would be a great help not just for more 
        personnel, but for additional training and workshops with our 
        sister islands and the U.S. mainland. Having other managers or 
        researchers visit American Samoa or other islands to share 
        knowledge and resources would help us to better tackle issues 
        together.''
                                                               DJ Sene.
          ``Our top three forest species from 2002 are now facing 
        annihilation from the Coconut Rhinoceros Beetle and Asian Cycad 
        Scale, two invasive species. You need to think about what 
        losing your top three species will do to your landscape, let 
        alone your ecosystem.''
                                                    Chelsa Muna-Brecht.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Emerald Ash Borer.

    Webinar: Exploring the State-APHIS Relationship.

    Panelists focused on how the Animal and Plant Health Inspection 
Service (APHIS) collaborates with western states to prevent the spread 
of invasive species. Participants from Hawai`i highlighted the role of 
state authority in regulating the movement of pests and plants and 
explored strategies to improve coordination between Federal and state 
regulations. The discussion also included regulations affecting the 
movement of forest pests in the West.
    Moderator: Bill Whitacre, WGA Policy Advisor. Panelists: Andrea 
Huberty, Director, Plant Health Programs, Plant Protection and 
Quarantine, APHIS; Rob Hauff, State Protection Forester, Hawaii Dept. 
of Land & Natural Resources; Jonathan Ho, Acting Manager, Plant 
Quarantine Branch, Hawaii Dept. of Agriculture; Bob Simpson, President, 
Greenwood Global Consulting.

    Comments included:

          ``Through increased conversations between states and APHIS, 
        agencies have the opportunity to share what their capacities 
        and challenges are in managing biosecurity and pests, and model 
        an example for future efforts.''
                                                         Bill Whitacre.
          ``Our actions need to be based on risk, and we can only 
        implement the least drastic action that is feasible and 
        adequate to address that risk. We want to make sure we are only 
        stepping into states' issues when there is an extraordinary 
        emergency in front of us.''
                                                        Andrea Huberty.
          ``The preemption issue we have with the Plant Protection Act 
        is that it requires us to act at both the state and Federal 
        level if we are going to protect Hawaii from additional 
        invasions of this pest. Both require information to demonstrate 
        the potential damage caused by additional introductions. This 
        is an especially difficult issue when you're trying to protect 
        an endemic species that only exists on a remote archipelago.''
                                                             Rob Hauff.
          ``We are preempted from inspecting foreign commerce. Hawaii 
        has gotten a few pests that were not invasive in their native 
        range, but upon entering Hawai`i they became a pest. The state 
        has the ability to regulate things that aren't necessarily a 
        pest yet, but not necessarily through the Plant Protection 
        Act.''
                                                           Jonathan Ho.
          ``From European colonization to 1930, over 300 years, America 
        lost only two tree species to invasive species: the American 
        Chestnut and the American Elm. Loss of the Chestnut almost 
        decimated eastern forests. This led to near extinction of the 
        eastern black bear, turkey, and white-tailed deer. Today, 25% 
        of all trees greater than 1" in diameter have a great chance of 
        expiring by 2027 due to invasive species. This means that over 
        the next 50 years we are expected to lose over 20 tree 
        species.''
                                                           Bob Simpson.

    Webinar: Species Distribution Modeling and Scenario Planning.

    Decision support tools and scenario planning strategies can help 
land managers plan for and react to uncertain future conditions. 
Panelists discussed a collaborative effort between the U.S. Geological 
Survey and National Park Service to develop species distribution models 
for high-priority invasive plants. Panelists also reported on a 
research project that pairs scenario planning with quantitative 
modeling to explore potential effects of climate scenarios and 
management alternatives on rangelands in South Dakota.
    Moderator: Jeff Morisette, Science Coordinator with the National 
Invasive Species Council Secretariat. Panelists: Terri Hogan, Invasive 
Plant Program Manager, National Park Service; Catherine Jarnevich, 
Ecologist, U.S. Geological Survey; Greg Haubrich, Noxious Weed 
Coordinator, Washington Department of Agriculture; and Brian Miller, 
Research Ecologist, U.S. Geological Survey.

    Comments included:

          ``I want to look at the issue of private, state, and Federal 
        collaboration. People focus on where their mandate mission 
        takes them, which makes a lot of sense, but one of the 
        opportunities that WGA brings through these webinars and future 
        work is to leverage the work that is being done across those 
        various jurisdictions.''
                                                        Jeff Morisette.
          ``Land managers need tools to help make strategic decisions 
        about where to focus their limited resources to best address 
        invasive plant control.''
                                                           Terri Hogan.
          ``We used modeling to create maps where cheatgrass may 
        actually be on the landscape. The Forest Service was then able 
        to use the maps to first get funding, and then to guide aerial 
        herbicide application to try to control cheatgrass in the post-
        burn landscape.''
                                                   Catherine Jarnevich.
          ``With the 23 major invasive species in Washington, if we had 
        let them expand to their potential, we would be looking at $1.3 
        billion in losses per year and loss of up to 8,000 jobs.''
                                                         Greg Haubrich.
          ``Something we're able to find with quantitative ecological 
        modeling is being able to identify some tradeoffs. For example, 
        having a lower density of livestock on a landscape may provide 
        a buffer in forage for dry years, but allows for increased 
        growth of cool-season exotic grasses.''
                                                          Brian Miller.
State Programs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Zebra Mussels. USFWS photo.
Colorado
    Colorado has the largest mandatory watercraft inspection and 
decontamination station network in the nation. The network prevents the 
introduction of zebra and quagga mussels, as well as other aquatic 
invasive species, into the nation's headwaters to protect natural 
resources and the critical water storage and supply infrastructure 
necessary for municipal, agricultural and industrial uses.
    Following the detection of quagga mussels in Lake Mead more than a 
decade ago, Colorado quickly implemented a multi-jurisdictional network 
focused on halting the single largest pathway of invasive mussel 
spread--recreational watercraft. Education is a cornerstone of the 
invasive species program, but the state also requires professional 
inspection and decontamination of all motorized or trailered watercraft 
entering the state, and those that launch on high-risk waters.
    Colorado's robust lake and reservoir sampling and monitoring 
program exceeds regional standards for early detection monitoring. 
While states without these kinds of networks continue to detect new 
invasions of zebra or quagga mussels, Colorado has remained negative 
for invasive mussel infestations.
    The state also developed the Regional WID Data Sharing System, now 
the main method of communication among inspection stations and 
managers. The system is now performing watercraft inspection and 
decontamination in ten western states, as well as for numerous local 
governments, national parks, and private industry. It consists of a 
mobile application for field personnel, a website for managers and a 
shared database. The system, which sends out real time alerts when 
infested watercraft are moving into uninfested waters, has directly 
resulted in more interceptions preventing new invasions.
    Colorado has additionally provided leadership by chairing the 
Western Regional Panel on Aquatic Nuisance Species, the main 
coordinating body for western aquatic invasive species programs and is 
focused on the multi-state implementation of the Quagga Zebra Action 
Plan for Western Waters.
Hawai`i
    The State of Hawai`i adopted its first interagency biosecurity plan 
in 2017, presenting a comprehensive gap analysis of biosecurity 
policies, personnel, and infrastructure alongside a 10 year 
implementation plan of 147 action items to address gaps identified. The 
Hawai`i model takes a broad view of biosecurity, examining needs in 
pre-border risk mitigation, border interception, and post-border 
detection and response.
    Interagency Scope: The Hawai`i Interagency Biosecurity Plan (HIBP) 
recognizes that dealing with invasive species is a team effort. Plan 
development was led by the Hawai`i Department of Agriculture (HDOA) and 
the Hawai`i Invasive Species Council (HISC), with input from the 
Department of Land and Natural Resources (DLNR), Department of Health 
(DOH), University of Hawai`i (UH), Department of Transportation (DOT) 
and Department of Business, Economic Development, and Tourism (DBEDT). 
Critically, plan development included several workshops for industry 
representatives and members of the public, including farmers, 
nurseries, air and sea transportation companies, and commodity 
consolidators.
    Gap Analysis: The HIBP identified a number of critical policy, 
infrastructure, and capacity gaps in Hawai`i, including:

  <bullet> A need for new biocontrol research facilities for both 
        pathogens and insects;

  <bullet> A need for modern databases for import manifests, ballast 
        water inspections, and data collection to inform risk 
        assessments;

  <bullet> Policy gaps regarding the regulation of biofouling on vessel 
        hulls;

  <bullet> Adequate funds and standardized policies for emergency 
        response; [and]

  <bullet> The need for increased operating funds and staffing. While 
        Hawai`i's economy and visitor industry rebounded from the 2008 
        economic downturn, staff numbers at HDOA, DOH, and other 
        important agencies had not similarly rebounded from a reduction 
        in force.
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Long-term Goals: The 2027 biosecurity vision described in the HIBP 
would effectively protect Hawai`i's agriculture, natural resources, 
economy, and way of life from the risks associated with invasive 
species. Key components of biosecurity in 2027 include:

  <bullet> New state and Federal biocontrol laboratories, capable of 
        serving regional biocontrol needs;

  <bullet> Fully implemented electronic manifesting for incoming cargo, 
        allowing for commodity and pathway risk analyses built on 
        interception databases;

  <bullet> Transitional inspection facilities to allow biosecure 
        agricultural inspections away from busy port areas;

  <bullet> State policies on ballast water and biofouling allowing for 
        in-water cleaning and standardized reporting;

  <bullet> Emergency response plans and training based on Incident 
        Command Systems; [and]

  <bullet> Fully restored DOH Vector Control Branch, doubled capacity 
        for agricultural inspection and pest response.
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Paper manifests for incoming cargo will soon be replaced with 
        electronic manifesting that speeds up import while more 
        effectively directing limited inspection resources. (photo: 
        HDOA).

    Progress to Date: Agency staff provide status updates every 6 
months on each of the 147 action items in the HIBP. By January of 2019 
half of the action items in the plan had been initiated, primarily 
those actions that could be completed with existing staff and funding. 
Remaining years in the implementation window will focus on increasing 
staff and enhancing facilities. To date:

  <bullet> DOH Vector Control Branch has been restored;

  <bullet> Additional positions provided to HDOA for import risk 
        assessments;

  <bullet> Electronic manifest and import database development in final 
        stages at HDOA;

  <bullet> UH has added a number of extension agents focusing on the 
        nursery industry;

  <bullet> Funds provided for biocontrol facility planning, detector 
        dog program restoration, and construction of ungulate exclusion 
        fences; [and]

  <bullet> Increased funding provided to HISC for interagency project 
        support. The HIBP and biannual progress reports are available 
        online at http://dlnr.hawaii.gov/hisc/plans/hibp/.
Montana
    The Montana Invasive Species Council (MISC) identifies and 
coordinates independent science advisory panels to inform state efforts 
based on the current status, trends, and emerging technology related to 
invasive species management.
    Environmental DNA (eDNA) was identified as the first area for 
further exploration, specific to invasive dreissenid mussels. The use 
of eDNA to detect the presence of invasive mussel DNA in the 
environment holds both promise and uncertainty. eDNA technology is 
evolving rapidly and may in the future surpass traditional methods for 
efficiency and confidence. However, natural resource managers across 
the West have struggled with how best to utilize information provided 
from eDNA results in real-time management applications as well as 
having confidence in the method and results.
    An international panel of six technical experts was assembled to 
evaluate the value of eDNA for dreissenid mussel early detection and 
provide guidance to managers regarding its use. The panel also 
responded to questions related to the state of the science, sampling in 
the field, lab analysis, interpreting results, and management 
implications. A workshop attended by MISC members, stakeholders, and 
partners provided an opportunity for discussion of those questions and 
answers and for panelists to identify the challenges and formulate 
recommendations for the use of eDNA.
    Panelists agreed on a set of nine recommendations spanning areas 
such as communications planning, confirmation of results, and 
appropriate applications of eDNA. WRP has since formed a subcommittee 
to address the panel recommendations.
Utah

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          The Utah Division of Wildlife Resources is working with the 
        Arizona Game and Fish Department and the National Park Service 
        at Lake Powell.

    The Utah Division of Wildlife Resources (UDWR) has worked 
cooperatively with Arizona Game and Fish Department and the National 
Park Service since 2013 to conduct watercraft inspection and 
decontamination activities as part of a containment program for 
invasive quagga mussels at Lake Powell.
    The agencies reported in 2018 that they had inspected nearly 70,000 
watercraft destined for other waterbodies, decontaminating nearly 4,500 
boats. Lower lake levels and an expanding mussel population resulted in 
floating adult mussels in the water column--something not observed 
previously.
    Upon inspection, adult mussels were frequently found in sea 
strainer devices aboard watercraft, necessitating the quarantine of 
dozens of boats in Utah and surrounding states. Through collective 
knowledge and creativity, UDWR was able to rapidly modify and adapt 
standard inspection and decontamination protocols used throughout the 
West to combat these new developments.
    The changes quickly resulted in improved inspections and 
decontaminations, a significant decrease in the number of boats found 
with mussels aboard upon subsequent inspections, and spawned a 
partnership between UDWR, the Bureau of Reclamation, and the National 
Park Service to conduct research studies examining the viability of 
both larval and adult mussels passing through different types of 
ballast pumps. Study results indicated that adult mussels can easily 
survive passage through ballast pumps, spurring further research 
studies and critical analysis of current decontamination protocols.
Washington
    Washington's approach to invasive species has five key aspects. The 
state focuses on collaboration and works with many groups, including 
tribes, agencies, industry and academia.
    Education: The state created Washington Pest Watch--a citizen 
science initiative led by agencies and universities that enables 
citizens to report sightings, which are delivered immediately to 
responders.
    Prevention: There are state boat inspection stations at two Ports-
of-Entry. Increased funding enables the state to keep stations open 
longer and add a mussel-sniffing dog. To further increase protection, 
the state created agreements with the National Park Service and a 
county sheriff's office to give officers the state's authority to 
inspect boats; arrest drivers for not stopping at the inspection 
stations; enforce clean, drain, dry requirements; and issue 
decontamination orders.
    Early Detection and Rapid Response: The state has created a 
collaborative to improve readiness for urban forest pests. This 
collaborative is developing a plan that will clarify response roles 
between cities and state and Federal agencies in protecting 
Washington's more than 200 cities from invasive insects and infectious 
diseases that could decimate forests.
    Containment: To prepare for invasive mussels, Washington is holding 
a first-in-the-West field exercise with on-the-ground response, 
containment, watercraft inspection & decontamination, rapid monitoring 
and assessment, and mock treatment.
    Long-Term Management: Washington State and Canada created an action 
plan for European green crab that delivers a coordinated response in 
the Salish Sea and guides research and management in both 
jurisdictions. In addition, Washington created a collaborative to 
address flowering rush by sharing best practices and developing an 
action plan for basin-wide management.

    On the Web: Find Initiative resources and join the conversation at 
westgov.org.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The work of the Western Governors' Biosecurity and Invasive Species 
Initiative focused on the impacts that nuisance species, pests and 
pathogens have on ecosystems, forests, rangelands, watersheds and 
infrastructure in the West. The Initiative examined the role that 
biosecurity plays in addressing these risks and identified emerging 
issues to develop policy recommendations, best practices and technical 
tools to address those challenges. To ensure the conversation reached 
the widest possible audience, WGA launched an online resource that 
includes videos of all workshops and webinars. We've also created the 
Initiative Appendix, a document that delivers expanded detail on the 
conversations at each workshop and webinar.

    Workshops.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    WGA hosted four regional Initiative workshops that attracted nearly 
300 attendees combined. The workshops were live-streamed via YouTube 
and Facebook, amassing more than 7,300 views during the Initiative's 
first year. Workshops were hosted by Western Governors Brian Sandoval 
in Nevada, Matt Mead in Wyoming, Steve Bullock in Montana and David Ige 
in Hawai`i.
    All workshops may be viewed on WGA's website or YouTube Channel.

    Webinars.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Initiative was launched with a webinar, hosted by WGA Chair and 
Hawaii Gov. David Ige, that featured a discussion on how to improve the 
interagency exchange of invasive species occurrence data. Additional 
webinars included topics such as ``Invasive Species Impacts on 
Fisheries,'' ``Conservation Districts and Invasive Species 
Management,'' ``Exploring the State-[APHIS] Relationship,'' ``Species 
Distribution Modeling and Scenario Planning,'' and ``Innovative 
Approaches to Addressing Forest Health and Invasive Species in the 
Pacific Islands.''
    All webinars may be viewed on WGA's website or YouTube Channel.

          The Western Governors' Association would like to thank the 
        following for their support of the Biosecurity and Invasive 
        Species Initiative.
Initiative Sponsor
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Workshop Signature Sponsor
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Federal Partners
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Participants
    WGA appreciates the time and effort that workshop panelists 
provided to the Initiative.

 
 
 
                         Panelists and Speakers
 
           Lake Tahoe, Nevada Workshop, September 17-18, 2018
 
    The Honorable Brian Sandoval, Governor, State of Nevada
    John Laird, California Secretary for Natural Resources, California
    Amy Berry, Chief Executive Officer, Tahoe Fund
    Meghan Brown, Deputy Administrator-Plant Industry, Nevada Department
 of Agriculture
    Nicole Cartwright, Executive Director, Tahoe Resource Conservation
 District
    Sudeep Chandra, Associate Professor, University of Nevada Reno
    Cindy Gustafson, Chief Executive Officer, North Lake Tahoe Resort
 Association
    Lisa Heki, Project Leader, Lahontan National Fish Hatchery Complex,
 U.S. Fish and Wildlife Service
    Karen Jetter, Research Economist, University of California Davis,
 Agricultural Issues Center
    Doug Johnson, Executive Director, California Invasive Plant Council
    John Kabashima, University of California Cooperative Extension,
 Emeritus
    Kacey K.C., State Forester, State of Nevada
    Elizabeth Leger, Associate Professor, University of Nevada Reno
    Jeff Marsolais, Forest Supervisor, Lake Tahoe Basin Management Unit,
 U.S. Forest Service
    Ken Mayer, Fire and Invasive Initiative Coordinator, Western
 Association of Fish and Wildlife Agencies
    Laura Megill, Aquatic Invasive Species Coordinator, Nevada
 Department of Wildlife
    Don Neal, Director of Environmental Services, Southern California
 Edison
    Heath Packard, Director of Government & Public Relations, Island
 Conservation
    Jesse Patterson, Chief Strategy Officer, League to Save Lake Tahoe
    Paul Petersen, Fire Management Officer, Nevada Bureau of Land
 Management Office
    Roland Quitugua, Extension Biosecurity Associate, University of Guam
 Extension and Outreach
    Julie Regan, External Affairs Chief, Tahoe Regional Planning Agency
    Jon C. Sjoberg, Chief of Fisheries, Nevada Department of Wildlife
    Sheri Smith, Regional Entomologist, Pacific Southwest Region, U.S.
 Forest Service
    Katie Steiger-Meister, Public Affairs Specialist, U.S. Fish and
 Wildlife Service
    Martha Volkoff, Environmental Program Manager, California Department
 of Fish and Wildlife
    Dennis Zabaglo, Aquatic Resources Program Manager, Tahoe Regional
 Planning Agency Cheyenne, Wyoming,
 
            WGA Working Lands Roundtable, October 11-12, 2018
 
    The Honorable Matt Mead, Governor of Wyoming
    Jim Hubbard, Under Secretary for Natural Resources and Environment,
 U.S. Department of Agriculture
    Doug Miyamoto, Director, Wyoming Department of Agriculture
    Willow Bish, Wildlife Biologist, Wyoming Game and Fish Department
    Bob Budd, Executive Director, Wyoming Wildlife and Natural Resource
 Trust
    Bill Crapser, State Forester, State of Wyoming
    Jessica Crowder, Policy Director, Western Landowners Alliance
    Randy Crowl, Manager, Colorado Seed Lab, Colorado State University
    Daniel Denipah, Forest Development Restoration Manager, Santa Clara
 Pueblo
    Curtis Elke, Idaho State Conservationist, Natural Resources
 Conservation Service
    Colleen Faber, Environmental Health & Safety Supervisor, Anadarko
    Mary Farnsworth, Deputy Regional Forester, Intermountain Region,
 U.S. Forest Service
    Bobbie Frank, Executive Director, Wyoming Association of
 Conservation Districts
    Garth Fuller, Eastern Oregon Manager, The Nature Conservancy
    Don Hijar, Owner, Pawnee Buttes Seed Inc. Matt Holloran, Principal,
 Operational Conservation LLC
    Camille Hopkins, Wildlife Disease Coordinator, Ecosystems Mission
 Area, U.S. Geological Survey
    Shara Howie, Program Manager, NatureServe
    Gwyn McKee, President, Great Plains Wildlife Consulting
    Peggy Olwell, Plant Conservation Program Lead, Bureau of Land
 Management
    Dave Pellatz, Executive Director, Thunder Basin Grassland Prairie
 Ecosystem Association
    Barry Perryman, Professor, University of Nevada--Reno
    Jolie Pollet, Division Chief, Fire Planning and Fuels Management,
 Bureau of Land Management
    Lisa Reynolds, Assistant Attorney General, State of Colorado
    Brenda Richards, Coordinator, Idaho Rangeland Conservation
 Partnership
    John Ruhs, Assistant Director, Fire and Aviation, Bureau of Land
 Management
    Derek Sebastian, Western Area Sales Manager--Vegetation Management,
 Bayer U.S.
    Scott Smith, Deputy Director of External Operations, Wyoming Game
 and Fish Department
    Tom Spezze, Senior Director of Conservation--Western U.S., National
 Wild Turkey Federation
    Peter Stahl, Professor of Soil Ecology, University of Wyoming
    Scott Talbott, Director, Wyoming Game and Fish Department
    Jeremy Maestas, Sagebrush Ecosystem Specialist, Natural Resources
 Conservation Service
    Michael Miller, Senior Wildlife Veterinarian, Colorado Department of
 Wildlife
    Kurt VerCauteren, Feral Swine and Ungulate Project Leader, National
 Wildlife Research Center
    Noreen Walsh, Director, Mountain-Prairie Region, U.S. Fish and
 Wildlife Service
    Jeff Whitney, State Forester, State of Arizona
 
               Helena, Montana Workshop, November 14, 2018
 
    The Honorable Steve Bullock, Governor, State of Montana
    Leah Elwell, Executive Director, Invasive Species Action Network
    Gary Adams, Montana State Plant Health Director, U.S. Department of
 Agriculture, Animal and Plant Health Inspection Service
    Jon Amberg, Fish Biologist Researcher, U.S. Geological Survey
    Josh Atwood, Invasive Species Coordinator, Hawai`i Invasive Species
 Council
    Hans Bodenhamer, Northern Rocky Mountain Grotto
    Ryan Brook, Associate Professor, University of Saskatchewan
    Elizabeth Brown, Invasive Species Coordinator, Colorado Parks &
 Wildlife
    Dave Burch, State Weed Coordinator, Montana Department of
 Agriculture
    Justin Bush, Executive Coordinator, Washington Invasive Species
 Council
    Leigh Greenwood, Forest Health Program Director, The Nature
 Conservancy
    Justin Hossfeld, President, Sunlight Ranches
    Mike Ielmini, National Invasive Species Program Leader, U.S. Forest
 Service
    Rayola Jacobsen, Invasive Species Coordinator, Bruneau River & Soil
 Conservation District
    Chuck Laudner, Senior Advisor for Congressional and Legislative
 Affairs, National Park Service
    Jane Mangold, Associate Professor and Extension Invasive Plant
 Specialist, Montana State University
    Christy Martin, Program Manager & Public Information Officer,
 University of Hawaii-Pacific Cooperative Studies Unit, Coordinating
 Group on Alien Pest Species
    Brian Mealor, Director and Associate Professor, Sheridan Research
 and Extension Center
    Dale Nolte, National Feral Swine Program Manager, U.S. Department of
 Agriculture, Animal and Plant Health Inspection Service, Wildlife
 Services
    John Steuber, Montana State Director, U.S. Department of
 Agriculture, Animal and Plant Health Inspection Service, Wildlife
 Services
    Tahnee Szymanski, Assistant State Veterinarian, Montana Department
 of Livestock
    Erin Raney, Aquatic Invasive Species Coordinator, Arizona Game and
 Fish Department
    Helmuth Rogg, Director of Plant Program Area, Oregon Department of
 Agriculture
    Steve Tyrrel, Central & Eastern Montana Invasive Species Team
    John Vore, Game Management Bureau Chief, Montana Fish, Wildlife &
 Parks
    Germaine White, Information and Education Program Manager,
 Confederated Salish & Kootenai Tribes
    Tom Woolf, Aquatic Invasive Species Bureau Chief, Montana Fish,
 Wildlife & Parks
 
               Kohala Coast, Hawai`i, December 9-10, 2018
 
    The Honorable David Ige, Governor of Hawai`i
    John Laird, Secretary for Natural Resources, State of California
    Josh Atwood, Program Supervisor, Hawai`i Invasive Species Council
    Patty Baiao, U.S. Program Manager, Island Conservation
    Matt Baur, Associate Director, Western Integrated Pest Management
 Center
    Kimberly Burnett, Associate Specialist, University of Hawai`i
 Economic Research Organization
    Suzanne Case, Chair, Hawai`i Department of Land and Natural
 Resources
    Scott Enright, Chair, Hawai`i Department of Agriculture
    Josh Fisher, Invasive Species Biologist, U.S. Fish & Wildlife
 Service
    Mark Fox, Director of External Affairs, The Nature Conservancy,
 Hawai`i Program
    Vernon Harrington, State Plant Health Director, U.S. Department of
 Agriculture, Animal and Plant Health Inspection Service
    Robert Hauff, State Protection Forester, Hawai`i Department of Land
 & Natural Resources
    Jonathan Ho, Plant Quarantine Branch Manager, Hawai`i Department of
 Agriculture
    Flint Hughes, Ecologist, Institute of Pacific Island Forestry, U.S.
 Forest Service
    Tracy Johnson, Research Entomologist, Pacific Southwest Research
 Station, U.S. Forest Service
    Springer Kaye, Program Manager, Big Island Invasive Species
 Committee
    Jules Kuo, Ballast Water and Biofouling Coordinator, Division of
 Aquatic Resources, Hawai`i Department of Land & Natural Resources
    Chris Manfredi, President, Hawai`i Coffee Association
    Christy Martin, Program Manager & Public Information Officer,
 University of Hawai`i-Pacific Cooperative Studies Unit, Coordinating
 Group on Alien Pest Species
    Michelle Montgomery, Program Specialist, Hawai`i Ant Lab
    Darcy Oishi, Biocontrol Section Chief, Hawai`i Department of
 Agriculture
    Roland Quitugua, Extension Biosecurity Associate, University of Guam
 Extension and Outreach
    Joel Price, Biological Control Entomologist, Oregon Department of
 Agriculture
    David Smith, Administrator, Division of Forestry and Wildlife,
 Hawai`i Department of Land & Natural Resources
    Cas Vanderwoude, Research Manager, Hawai`i Ant Lab
    Warren Watanabe, Executive Director, Maui County Farm Bureau
 

    We would also like to thank the groups and organizations who 
participated in workshops, webinars, and initiative surveys over the 
past year:

 
 
 
    3 Quarter Circle Land & Water Co. Inc.
    A&B Diversified
    Ag Association Management Services, Inc.
    Alaska Department of Fish and Game
    Altar Valley Conservation Alliance
    American Samoa Community College
    American Samoa Department of Agriculture
    Anadarko Petroleum Corporation
    Ann Walker Consulting
    Aquatic Nuisance Species Task Force
    Arizona Department of Forestry and Fire Management
    Arizona Game and Fish Department
    Bayer U.S.
    Bear Lake Watch
    Big Island Invasive Species Committee
    Bonneville Power Administration
    Boone and Crockett Club
    California Department of Fish and Wildlife
    California Invasive Plant Council
    California Natural Resources Agency
    California State Lands Commission
    California State Parks
    Cardno
    Clackamas Soil and Water Conservation District
    Colorado Attorney General's Office
    Colorado Department of Agriculture
    Colorado Department of Wildlife
    Colorado Parks and Wildlife
    Colorado State University
    Confederated Salish & Kootenai Tribes
    Council of Western State Foresters/
    Western Forestry Leadership Coalition
    Eastern Nevada Landscape Coalition
    East-West Center
    Ecosystem Research Group, LLC
    Edison International
    ESRI
    Fort Belknap Indian Community
    Great Plains Wildlife Consulting
    Greenwood Global Consulting
    Guam Department of Agriculture
    Hawai`i Ant Lab
    Hawai`i Coffee Association
    Hawai`i Department of Agriculture
    Hawai`i Department of Land and Natural Resources
    Hawai`i Invasive Species Council
    Idaho Office of Species Conservation
    Idaho Rangeland Conservation Partnership
    Idaho State Department of Agriculture
    Integrated Ag Services
    Intermountain West Joint Venture
    Invasive Species Action Network
    Island Conservation
    Kauai Invasive Species Committee
    Laramie County Conservation District
    League to Save Lake Tahoe
    Lonesome Pines Land & Cattle Co.
    Maui County Farm Bureau
    Maui County Soil and Water Conservation District
    Maui Invasive Species Committee
    Montana Department of Agriculture
    Montana Department of Livestock
    Montana Department of Natural Resources and Conservation
    Montana Department of Transportation
    Montana Fish Wildlife and Parks
    Montana Invasive Species Council
    Montana State University
    Montana Trout Unlimited
    National Association of Conservation Districts
    National Interagency Fire Center
    National Invasive Species Council Secretariat
    National Oceanic and Atmospheric Administration
    National States Geographic Information Council
    National Wild Turkey Federation
    National Wildlife Research Center
    NatureServe
    Nevada Department of Agriculture
    Nevada Department of Conservation and Natural Resources
    Nevada Department of Wildlife
    Nevada Division of Forestry
    Nevada Division of State Lands
    Nevada Tahoe Conservation District
    New Mexico Association of Conservation Districts
    New Mexico State University
    NIC Inc.
    North Dakota Game and Fish Department
    North Lake Tahoe Resort Association
    Northern Rocky Mountain Grotto/Bigfork High School Cave Club
    Northwest Power & Conservation Council
    Oahu Invasive Species Committee
    Off-Road Business Association
    Operational Conservation LLC
    Oregon Department of Agriculture
    Oregon Department of Fish and Wildlife
    Oregon Invasive Species Council
    Palau Bureau of Agriculture
    Partners for Conservation
    Pawnee Buttes Seed
    Placer County
    Research Corporation of the University of Hawai`i
    RiversEdge West
    Rosebud County Weed District
    Ruckelshaus Institute, University of Wyoming
    Santa Clara Pueblo Forestry
    Sonoma Water
    Southern California Edison
    Sunlight Ranch
    Sustainable Rangelands Roundtable
    Tahoe Chamber of Commerce
    Tahoe Fund
    Tahoe Regional Planning Agency
    Tahoe Resource Conservation District
    The National Audubon Society
    The Nature Conservancy
    Thunder Basin Grasslands Prairie Ecosystem Association
    U.S. Air Force, Colorado State University--Center for Environmental
 Management of Military Lands
    U.S. Department of Agriculture
 
      <bullet> Agricultural Research Service
 
      <bullet> Animal and Plant Health Inspection Service
 
      <bullet> Natural Resources Conservation Service
 
      <bullet> U.S. Forest Service
 
    U.S. Department of the Interior
 
      <bullet> Bureau of Land Management
 
      <bullet> Bureau of Reclamation
 
      <bullet> Fish and Wildlife Service
 
      <bullet> National Park Service
 
      <bullet> U.S. Geological Survey
 
    University of California Agricultural Issues Center
    University of California Cooperative Extension
    University of Georgia Center for Invasive Species and Ecosystem
 Health
    University of Guam
    University of Guam Cooperative Extension and Outreach
     University of Hawai`i
    University of Hawai`i at Manoa
    University of Hawai`i Economic Research Organization
    University of Hawai'i--Pacific Cooperative Studies Unit,
 Coordinating Group on Alien Pest Species
    University of Nevada--Reno
    University of Saskatchewan
    University of Wyoming
    Utah State University Extension
    Washington Invasive Species Council
    Washington Recreation and Conservation Office
    Waterweed Solutions
    West Multnomah Soil and Water Conservation District
    Western Integrated Pest Management Center
    Western Association of Agriculture Experiment Station Directors
    Western Association of Fish and Wildlife Agencies
    Western Landowners Alliance
    Working Dogs for Conservation
    Wyoming Association of Conservation Districts
    Wyoming Department of Agriculture
    Wyoming Game and Fish Department
    Wyoming Reclamation and Restoration Center
    Wyoming State Forestry Division
    Wyoming Stock Growers Association
    Wyoming Wildlife and Natural Resource Trust
    Wyoming Wildlife Federation
 

                                 ______
                                 
Submitted Chart by Hon. Josh Harder, a Representative in Congress from 
                               California
Invasion Curve

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: https://www.wildlife.ca.gov/Conservation/Invasives/
        Species/Nutria/Infestation.
                                 ______
                                 
                          Submitted Questions
Questions Submitted by Hon. Jim Costa, a Representative in Congress 
        from California
Response from Ricardo Ortega, General Manager, Grassland Water 
        District, Los Banos, CA
    Question 1. Can you please elaborate on the need for funding to 
combat invasive nutria?
    Answer. In 2018, the California Department of Fish and Wildlife 
took the lead on eradicating nutria in California. Through a one-time 
state appropriation and grants, they established a Nutria Eradication 
Program that is expanding to 45 staff, including five contracted 
specialists through U.S. Department of Agriculture's Wildlife Services. 
Eradication campaigns are inherently long-term and require adequate and 
reliable funding to ensure a successful outcome. A full-scale campaign 
in California is estimated to cost ($5,000,000) per year for at least 
of 7 years ($35,000,000) before significant progress is made. The 
Department estimates a total eradication campaign will take at least 20 
years to complete ($100,000,000), based on successful efforts in other 
parts of the country and the expansive network of suitable habitat in 
California. The Department currently feels it has adequate operational 
funding through fall 2022 but no other funding has been identified.

    Question 2. Can you discuss what would happen if the nutria were to 
reach and establish habitat in the Sacramento-San Joaquin Delta?
    Answer. Nutria burrows extend hundreds of feet causing levee 
failure and the loss of scarce water supplies, the lifeline of our 
precious remaining wetland and riverine ecosystems, drinking and 
industrial water supply and our vibrant agricultural economy. Water and 
wildlife agencies in California fear nutria population expansion north 
could devastate the Sacramento[-]San Joaquin Delta system which is a 
complex network of channels and earthen levees. Nutria would not only 
impact the delta ecosystem, but the hub of California's flood control 
and water delivery system which also supplies water to 25 million 
people in the bay area and southern California. In

    Question 3. Can you elaborate on the impacts or potential impacts 
to agriculture of invasive nutria?
    Answer. The San Joaquin Valley which is largely dependent on water 
exports from the Delta and supports more agricultural jobs than any 
other sector in California, providing over 200,000 jobs. The top four 
counties for agricultural sales in California are located in the San 
Joaquin which generates over $20 billion in agricultural sales 
annually. Nutria's destructive behavior especially on water supply 
delivery infrastructure threaten the very existence of agriculture in 
the San Joaquin Valley. Congress must act now to ensure a successful 
nutria eradication program is implemented and sustained.

                                  <all>
</pre></body></html>
